<html>
<title> - STATE, REGIONAL AND LOCAL PERSPECTIVES ON GLOBAL WARMING</title>
<body><pre>[Senate Hearing 110-1026]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1026

        STATE, REGIONAL AND LOCAL PERSPECTIVES ON GLOBAL WARMING

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
53-827 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 1, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    42
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    44
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    46
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    48
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    49
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    50
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    52
Craig, Hon. Larry E., U.S. Senator from the State of Idaho.......    53
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   138
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut, prepared statement................................   147

                               WITNESSES

Corzine, Hon. Jon S., Governor, State of New Jersey..............    54
    Prepared statement...........................................    56
    Responses to additional questions from:
        Senator Thomas...........................................    59
        Senator Inhofe...........................................    60
Perata, Hon. Don, President Pro Tem, California State Senate.....    80
    Prepared statement...........................................    81
Nunez, Hon. Fabian, speaker, California State Assembly...........    82
    Prepared statement...........................................    84
    Response to additional questions from Senator Inhofe.........   104
Adkins, Dennis, chairman, House Committee on Energy and 
  Technology, Oklahoma State House...............................   104
    Prepared statement...........................................   106
Harvey, Hon. Ted, Senator, Colorado State Senate.................   108
    Prepared statement...........................................   109
Nickels, Hon. Greg, Mayor, City of Seattle, WA...................   110
    Prepared statement...........................................   112
    Responses to additional questions from:
        Senator Cardin...........................................   124
        Senator Inhofe...........................................   124
Cownie, Hon. Frank, Mayor, City of Des Moines, IA................   125
    Prepared statement...........................................   126
Homrighausen, Hon. Richard P., Mayor, City of Dover, OH..........   128
    Prepared statement...........................................   130
    Responses to additional questions from Senator Inhofe........   133

                          ADDITIONAL MATERIAL

Reports:
    EPA, Inventory of U.S. Greenhouse Gas Emissions and Sinks: 
      1990-2004, April 15, 2006..................................    68
    United Nations Foundation, The Scientific Research Society, 
      Confronting Climate Change: Avoiding the Unmanageable and 
      Managing the Unavoidable, February 2007.................... 30-41
Letters from:
    Schwarzenegger, Arnold.......................................     3
    California Economists........................................    85
    Bruton, John, Ambassador, European Union, Delegation of the 
      European Commission........................................    11
Lists:
    Bipartisan Elected Officials.................................     9
    Climate Momentum Shifting: Prominent Scientists Reverse 
      Belief in Man-made Global Warming-Now Skeptic.............. 20-28
Article, Bay Journal, December 2004..............................   140

 
        STATE, REGIONAL AND LOCAL PERSPECTIVES ON GLOBAL WARMING

                              ----------                              


                        THURSDAY, MARCH 1, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara A. Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Voinovich, Lautenberg, 
Clinton, Cardin, Sanders, Klobuchar, Whitehouse, Craig, Thomas 
and Bond.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. Good morning. The committee will come to 
order.
    Today's hearing is about State, regional and local 
approaches to global warming. We have wonderful witnesses today 
who can really, I think, help us as we grapple with these 
issues. I do want to welcome all of our witnesses, including 
the good Governor, former Senator Jon Corzine, a former member 
of this committee.
    I also particularly want to welcome the two members of the 
California State legislature. I never know in which order to 
introduce you, because to me you are partners and you are 
equals. I am very proud that Don Perata is here, President pro 
tem of the California State Senate and Speaker of the Assembly, 
Mr. Fabian Nunez.
    I also want to welcome Mayor Nickels, from Seattle, and the 
Mayor of Des Moines, IA, Frank Cownie. In addition, I want to 
welcome State Representative Dennis Adkins of Oklahoma. 
Welcome, sir. State Senator Ted Harvey of Colorado, welcome, 
sir. And Mayor Richard Homrighausen of Dover, OH. Are you here? 
He is on the way.
    Let me say that we will have a more formal introduction of 
Governor Corzine by Senator Lautenberg and hopefully by Senator 
Menendez if he arrives on time.
    Every day we learn more about how global warming is 
threatening the well-being of the plant. Just a few weeks ago, 
the Inter-Governmental Panel on Climate Change released its 
report, which makes it clear that global warming is happening 
now and there is a 90 percent certainty humans are causing most 
of the warming. Just yesterday, I was at a press conference 
with Senator Bingaman and former Senator Tim Worth to discuss 
this latest report Confronting Climate Change: Avoiding the 
Unmanageable and Managing the Unavoidable. It is another United 
Nations report by the United Nations Foundation, the Scientific 
Research Society. So yet more and more studies are coming in on 
this.
    The warming could have enormous consequences for mankind. 
Left unchecked, global warming will lead to increased extreme 
weather events, to sea level rises, to more floods and 
hurricanes and to change in our weather patterns that could 
reduce our water supplies. These are but a few of the effects 
that global warming will have on our States and cities in the 
years to come unless we act.
    Today's hearing is about those States, regions and cities 
that already recognize these facts and have taken strong, 
bipartisan action to help stop global warming. In my opinion, 
they are leading the way for the rest of the Nation. They 
understand what is at stake for our future and for our 
grandkids and their kids. They are sending us a signal that we 
must heed.
    I want to show you a map. It shows you that 29 States 
already have some form of climate action plan. Senator Inhofe, 
I wanted to call this to your attention to show you that 29 
States already have some form of a climate action plan. These 
29 States have a combined population of nearly 180 million 
people. Fourteen of the twenty-nine States shown in yellow have 
set greenhouse gas reduction targets. Eight northeastern 
States, including New Jersey, have agreed to reduce emissions 
from powerplants through the regional greenhouse gas 
initiatives. More States, such as Maryland, are expected to 
join in this effort.
    On Monday, California, Arizona, Oregon, Washington and New 
Mexico announced a regional initiative to address global 
warming. It is only a matter of time before more States follow. 
I am especially proud of my State, California, which enacted 
A.B. 32, the Nation's first economy-wide global warming bill, 
authored by State Assembly Speaker Nunez, who is here today. 
Under the leadership of State Senate President pro tem Perata, 
California has also set strong emission standards for new 
electricity generation.
    Now, I met yesterday with Governor Schwarzenegger. We had a 
terrific meeting. He again continued to speak out for us to pay 
attention to this issue. I am going to ask unanimous consent to 
place the letter that he wrote to me for today's hearing into 
the record. So without objection, it will be done.
    [The referenced material follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. I will just read simply one paragraph: 
``Global climate change is one of the most critical 
environmental and political challenges of our time. The debate 
is over, the science is in, and the time to act is now. Only by 
putting aside our political differences and bringing all 
parties and stakeholders together will we truly be able to 
confront this crisis.'' I thank the Governor for this letter.
    Governor Corzine's recent executive order requires New 
Jersey to reduce its emissions to 1990 levels by 2020 and by 80 
percent from current levels by 2050. I commend his leadership.
    Our cities have also taken action. Led by Seattle Mayor 
Nickels, a bipartisan group of 407 mayors, representing over 59 
million people, have signed onto the Climate Protection 
Agreement. Finally, Mayor Cownie will tell us about the actions 
he is taking in Des Moines to help his city and his actions 
take action to fight global warming. They are fueling their 
fleets with ethanol and biodiesel, they are building more bike 
paths in Des Moines, they are encouraging their citizens to use 
compact fluorescent light bulbs.
    Now, these may seem like very small things. But in the end, 
they add up. People everywhere are waking up to the reality of 
global warming. Earlier this week, the investment community 
announced plans to take over a major Texas utility and to scrap 
its plans to build 11 new coal-fired powerplants. That decision 
took heed of the editorial that Senator Bingaman and I wrote, 
which made clear that permits for such plants to emit 
greenhouse gases would not be granted for free. The days when 
investors could ignore the possibility of greenhouse gas limits 
are coming to a close.
    There is increasing bipartisan consensus that we need to 
move now to limit emissions. The States and cities that we will 
hear from today are leading the charge. I am an optimist, and 
like the States and cities who are taking action today, I 
believe we can solve this problem, and in doing so, we will be 
better for it in every single way. I look forward to hearing 
all of the witnesses' testimony on this issue today.
    It is my pleasure to call on the Ranking Member, Senator 
Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you very much, Madam Chairman. You 
mentioned a couple of things, some comments in your opening 
statement. As far as the TXU is concerned, that is a huge 
success that you guys have had in what I call divide and 
conquer, to be able to get the natural gas people and the 
nuclear people to realize how much money they can make by 
shutting down coal-fired plants. It is something perhaps the 
board of directors had a lot of pressure in getting them to do.
    As far as the IPCC fourth assessment is concerned, the 
interesting thing about this is, first of all, as we have said 
before, this is not any kind of a science report, this is a 
summary for policymakers. It has nothing to do with science. At 
the same time, the United Nations came out by reducing man's 
contribution by 25 percent. That is huge. And reducing the 
anticipated sea level by one-half and also coming out with a 
statement that livestock emissions are greater than man 
emissions and even the transportation sector.
    But we have an honest difference of opinion, and it will 
surprise a lot of people to know that we agree on a lot of 
things, such as the WRDA bill coming up that everyone in this 
room is very much concerned about today. We will be discussing 
the State perspectives on climate change. I would say to my 
friend, Governor Corzine, I used to say, and I am sure that 
Senator Voinovich would probably agree with me, with his 
background, I tell my fellow Senators sometimes, I know what a 
hard job is, I have been a mayor of a major city. The same 
thing is true with being Governor of a State. So I recognize 
you have a hard job right now.
    We are discussing, as you know, the States are, I consider 
to be 50 laboratories in this Country, each one taking a unique 
policy pathway forward. In doing so, the experiments give 
Federal policymakers examples of what policies work, what 
policies don't work. And of course, the Federal Government also 
has examples of failed ideas it should avoid repeating at all 
costs. Cap and trade ranks high among these.
    Multiple approaches have been taken that purport to address 
climate change. Some States have clean coal R&D programs. 
Others have tax credits for renewable energy and/or hybrid 
cars. Still others have renewable portfolio standards. Most of 
these States have taken a pragmatic approach that recognizes 
the uniqueness of their circumstances. A group of northeastern 
States and California have enacted cap and trade programs to 
reduce emissions. Additionally, four Governors have pledged to 
come up with plans to reduce emissions. Today we hear how 
ambitious and important they are and what they plan to 
accomplish.
    But these programs haven't accomplished anything so far. 
They are simply open promises that won't be kept and denials 
about costs that will surely be paid.
    California is a good example of an empty promise. It passed 
a law bringing emissions back to the 1990 levels by 2020. This 
baseline was not chosen arbitrarily, but to support the Kyoto 
Protocol, which also uses 1990 baseline. Since Kyoto is the 
only cap and trade program that is underway, I think it is 
worth asking, how well has that worked? Of the 15 western 
European countries that have signed onto Kyoto, and have 
ratified it, only 2 will meet their targets, that is Sweden and 
Britain. Great Britain only because it eliminated its coal 
industry in the early 1990s.
    Like most signatories, Canada and Japan won't meet their 
targets. The simple fact is that the United States has spent 
more Federal dollars on basic science as well as research and 
development and done more to reduce our emissions rate than 
Europe has since 2000. It is interesting, we have actually 
reduced our emission rates more in the United States than 
western Europe has. One thing, as long as we are talking about 
Canada, it is very interesting, even though they were one of 
the first ones to sign on, to ratify the Kyoto Treaty, the 60 
scientists that advised the Canadians are now petitioning Prime 
Minister Harper to withdraw, saying that ``If we had known 10 
years ago what we know today, we would not have been a part of 
Kyoto.''
    The simple fact is, jobs are fleeing the European Union 
because of its experiment into cap and trade. China, which will 
become the world's biggest emitter of greenhouses in 2009 and 
India and other developing nations will never sign on. As the 
Deputy Director General of China's Office of Global 
Environmental Affairs said in October, ``you cannot tell people 
who are struggling to earn enough to eat that they need to 
reduce their emissions.'' That is why California and the RGGI 
programs, I believe, will fail. Although each of these regions 
has yet to pay the cost, there will be costs and jobs will flee 
these States. Cost will go up and purchase power will decline.
    In RGGI States, for instance, the Charles River and 
Associates, the CRA estimate, estimated a similar proposal 
which would cost the region some 18,000 jobs in 2010. 
Electricity prices, according to them, this is CRA, will rise 
by 9 percent, hitting the elderly and the poor the hardest. The 
poor are having to shoulder the increased burden of more than 
double that of the rich, due to the cost of energy. Similarly, 
purchasing power would decline by $270 per family.
    It is interesting that this is based on this reduced 
program, while the Wharton Econometric Survey uses figures 10 
times greater, the average family of four, costing them in what 
we would refer to as a tax increase, some $2,750 a year. So 
let's be honest about these programs and their companion 
proposals are here in Congress. They are the biggest tax 
increases in history. In fact, they are worse than taxes, 
because they will cost more and be less effective.
    The only reason the alarmists have not proposed an outright 
tax yet is that they know it will be more difficult to reward 
the climate profiteers supporting them in their efforts, such 
as we witnessed down in TXU only in the last few weeks.
    So I would simply say in closing that I find it ironic that 
deliverables are so openly crafting programs to directly 
benefit powerful corporations and interest groups at the 
expense of the poor, the elderly, the fixed income and the 
working class. Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you for holding this hearing, Madame Chairman.
    Today we are discussing State perspectives on climate change. As 
you know, the States are 50 laboratories of this country--each taking a 
unique policy pathway forward. In doing so, the experiments give 
Federal policymakers examples of what policies work. Of course, the 
Federal Government also has examples of failed ideas it should avoid 
repeating at all costs--cap and trade ranks high among these.
    Multiple approaches have been taken that purport to address climate 
change. Some States have clean coal R&D programs, others have tax 
credits for renewable energy or hybrid cars, and still others have 
renewable portfolio standards. Most of these States have taken a 
pragmatic approach that recognizes the uniqueness of their 
circumstances.
    A group of Northeastern States and California have enacted cap and 
trade programs to reduce emissions. Additionally, four Governors have 
joined Governor Schwarzenegger in pledging to come up with plans to 
reduce emissions. Today we will hear how ambitious and important they 
are, and what they plan to accomplish. But these programs haven't 
accomplished anything. They are simply empty promises that won't be 
kept and denials about costs that will surely be paid.
    California is a good example of an empty promise--it passed a law 
bringing emissions back to 1990 levels by 2020. This baseline was not 
chosen arbitrarily, but to support the Kyoto Protocol, which also uses 
a 1990 baseline. Since Kyoto is the only cap and trade program that is 
under way, it's worth asking--how well is that program working?
    Of the 15 original EU countries, only two will meet their targets--
Sweden and Britain, and Britain only because it eliminated its coal 
industry in the early 90s. And like most signatories, Canada and Japan 
won't meet their targets either. The simple fact is that the United 
States has spent more Federal dollars on basic science, as well as 
research and development, and done more to reduce our emissions rate 
than Europe since 2000. How did we do that?--By rejecting Kyoto's cap 
and trade approach.
    The simple fact is jobs are fleeing the EU because of its 
experiment into cap and trade. And China--which will become the world's 
biggest emitter of greenhouse gases in 2009--and India and other 
developing nations will never sign on. As Lu Xuedu, Deputy Director 
General of China's Office of Global Environmental Affairs, said in 
October: ``You cannot tell people who are struggling to earn enough to 
eat that they need to reduce their emissions.''
    That is why the California and RGGI programs will fail. Although 
each of these regions has yet to pay the costs, there will be costs. 
Jobs will flee these States, costs will go up and purchasing power will 
decline.
    In the RGGI States, for instance, Charles River Associates 
estimated a similar proposal would cost the region 18,000 jobs in 2010. 
Electricity prices would rise 9 percent, hitting the elderly and poor 
the hardest, with the poor having to shoulder an increased burden more 
than double that of the rich due to the costs of energy. Similarly, 
purchasing power would decline $270 per family in 2010 and worsen 
annually.
    California will fare as badly. While the program they plan to 
implement the law is so uncertain economic modeling is difficult, the 
targets and timing suggest that the Wharton Econometric Forecasting 
Associates Kyoto Protocol study is useful. That study found California 
would see its economy decline by about 1 percent and 278,000 jobs.
    Let's be honest about what these programs and their companion 
proposals here in Congress really are--they are the biggest tax 
increase in U.S. history. In fact, they are worse than taxes because 
they will cost more and be less effective. And the only reason the 
alarmists have not proposed an outright tax yet is they know it will be 
more difficult to reward the climate profiteers supporting them in 
their efforts.
    In closing, I will simply say that I find it ironic that the 
liberals are so openly crafting programs to directly benefit powerful 
corporations and interest groups at the expense of the poor, elderly 
and working class.
    Thank you.

    Senator Boxer. I am a bit speechless after that.
    [Laughter.]
    Senator Boxer. I would like to put in the record the list 
of bipartisan elected officials who have attacked this issue 
and include Democrat and Republican Governors. So I would like 
to ask unanimous consent to place this in the record, showing 
the bipartisan list of officials who have taken action.
    [The referenced material follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Boxer. I also would like to ask unanimous consent 
that I be able to place into the record a statement from the 
European Union which says they are on track to meet their Kyoto 
commitment. It is a letter to me on that point.
    [The referenced material follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. Madam Chairman, for the record, I would 
like to submit a list of scientists who at one time, 10 years 
ago, were very strong supporters of reducing man-made gases, 
and now realize that science has changed and they are on the 
other side of the issue.
    Senator Boxer. We would be happy to put that in the record.
    [The referenced material follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. In addition, we are also going to put into 
the record without objection, I hope, a list of the scientists 
who issued the IPCC report and also this latest report of 
scientific experts just yesterday who issued this report for 
the United Nations, Confronting Climate Change. So we will have 
the list of scientists who change their mind and the list of 
scientists who are actually putting these reports out as well 
as the letter from the European Union.
    [The referenced material follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. We are going to continue now, we are going 
to try to stick with the 5-minute opening statement. I am going 
to call on Senator Lautenberg for his opening statement, and 
then Senator, you can speak about your Governor now or you can 
wait until we have all statements made and you can then 
introduce him at that time.
    Senator Lautenberg. Can I do it without charge to my 
timeframe?
    Senator Boxer. Yes.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. First, I want to thank Senator Inhofe 
for his encouraging view of our intentions to reduce greenhouse 
gas, thank you very much.
    [Laughter.]
    Senator Lautenberg. Madam Chairman, before I introduce 
Governor Corzine, I just want to say that States are leading 
when it comes to combating global warming. Now the Federal 
Government needs to catch up. Our witnesses hail from States 
with innovative and active programs to cut greenhouse gases and 
control climate change.
    In addition to Governor Corzine's initiatives to cut 
emissions within our State, New Jersey has also joined six 
eastern States to launch their Regional Greenhouse Gas 
Initiative, which will help curb emissions from powerplants.
    Thirty-six of New Jersey's cities have joined nearly 400 
other cities from across the Country to do what the Bush 
administration won't do, and that is meet or beat the Kyoto 
Protocols. New Jersey and other States are beginning to weave a 
web of smart environmental regulations across the Country. But 
the Federal Government is not doing its part to strengthen that 
web. We can change that.
    I strongly support Senator Sanders' Global Warming 
Pollution Reduction Act, which calls for an 80 percent cut in 
global warming pollutants by 2050. If we don't take the steps 
now, we will continue to threaten succeeding populations, 
including my grandchildren's grandchildren. It is not something 
I am willing to throw away.
    I have also been joined by Senator Boxer and Senator Snowe 
in introducing the High Performance Green Buildings Act. 
Buildings, from apartments to skyscrapers, account for nearly 
40 percent of our greenhouse gases. The Federal Government is 
the biggest landlord in the Country. By getting Federal 
buildings to go green, we can put a significant dent in our 
emissions.
    But the Federal Government needs to do more. We need caps 
on greenhouse gas emissions from all powerplants and other 
facilities that produce pollution. We need to increase cap-
based standards to get vehicle emissions and dependence on 
foreign oil down. We need incentives for cities and businesses 
to build in ways that are better for the environment.
    We have to end the censorship and suppression of Government 
scientists who do research on global warming. The public is 
taking better care of our environment and they want to do more. 
People are buying hybrids, cars based on fuel efficiency, for 
example. Some in the private sector are also taking some 
positive steps, the CEOs from some of America's largest 
companies, like General Electric and DuPont are now calling for 
Federal legislation to reduce greenhouse gases. So it is time 
for the Federal Government to step up, do its part and support 
our States, cities and towns that are already doing theirs.
    [The prepared statement of Senator Lautenberg follows:]
     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey
    Madame Chairman, thank you for holding today's hearing on how the 
States are leading when it comes to combating global warming--and how 
the Federal Government needs to catch up.
    Among today's witnesses is my Governor, Jon Corzine. Our witnesses 
hail from States with innovative and active programs to cut greenhouse 
gases and control climate change.
    In addition to Governor Corzine's move to cut emissions within our 
state, New Jersey has also joined six eastern States to launch the 
Regional Greenhouse Gas Initiative, which will help curb emissions from 
powerplants.
    And 36 of New Jersey's cities have joined nearly 400 other cities 
from across America to do what the Bush administration won't do: meet 
or beat the Kyoto Protocols.
    New Jersey and other States are beginning to weave a web of smart 
environmental regulations across the country. But the Federal 
Government is not doing its part to strengthen that web.
    We can change that.
    That is why I strongly support Senator Sanders' `Global Warming 
Pollution Reduction Act,' which calls for an 80 percent cut in global 
warming pollutants by 2050.
    I have also been joined by Senators Snowe and Boxer in introducing 
the `High Performance Green Buildings Act.'
    Buildings--from apartments to skyscrapers--account for nearly 40 
percent of our greenhouse gases. The Federal Government is the biggest 
landlord in the country and by getting Federal buildings to ``go 
green,'' we can put a significant dent in our emissions.
    But the Federal Government needs to do more.
    We need caps on greenhouse gas emissions from all powerplants and 
other facilities that pollute.
    We need to increase CAFE standards to get vehicle emissions and 
dependence on foreign oil down.
    We need incentives for cities and businesses to build in ways that 
are better for the environment.
    And we must end the censorship and suppression of government 
scientists who do research on global warming.
    The public is taking better care of our environment--and they want 
to do more. People are buying hybrids and cars based on fuel 
efficiency, for example.
    Some in the private sector are also taking some positive steps.
    The CEO's from some of America's largest companies, such as General 
Electric and DuPont, and now calling for Federal legislation to reduce 
greenhouse gases.
    It's time for the Federal Government to do its part--and to support 
our States, cities and towns that are already doing theirs.

    Senator Lautenberg. Madam Chairman, if I might just say a 
few words about Governor Corzine, no stranger to Capitol Hill. 
The Governor and I used to be Senate colleagues. Both of us 
initiated a job change, and I hope he enjoys as much as I do 
mine. Now I am one of his constituents, he is one of mine. New 
Jersey is proud of our Governor, because he is willing to step 
up and do the right thing, even if it looks at the moment like 
it is putting more pressure on us. But someone has to take a 
longer view, and Governor Jon Corzine is willing to do that. We 
see it in his leadership here to fight the fight against global 
warming.
    I am proud of New Jersey today, because New Jersey is among 
a small group of States that is leading the Nation when it 
comes to reducing global warming. Two weeks ago, Governor 
Corzine signed an order to reduce New Jersey's total emissions 
from cars, buildings and factories alike by 80 percent by 2050. 
New Jersey and California are two of just a few States to take 
such action.
    So I am happy to see Jon Corzine here, back in his familiar 
surroundings. But New Jersey needs him, so we will try not to 
keep him here too long, and let the Federal Government do what 
it needs to do. Please welcome Jon Corzine.
    Governor Corzine. Thank you.
    Senator Boxer. Thank you very much, and we will go to 
Senator Voinovich. Welcome, Senator.

 STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR FROM THE 
                         STATE OF OHIO

    Senator Voinovich. Madam Chairman, I thank you for holding 
this hearing today and I am glad that we have State and local 
perspectives on global warming. I have often said this is a 
difficult and controversial topic, with some declaring it a 
hoax and some declaring that the end of the world is near. I 
share neither of these beliefs, and it is going to be really 
nice that we are having local government officials, State 
officials. Because ordinarily, this is about maybe the 12th 
hearing I have had in 8 years. Senator Corzine, you will 
remember that some of the hearings we have had, at the end they 
started out, the witnesses being very nice to each other, and 
at the end I thought we had to stop them from going after each 
other. I am sure that we are not going to have that today, 
Madam Chairman, with our State and local government officials.
    The reality is that not all global warming skeptics are 
denialists or idealogues. Those in the environmental movement 
are not all alarmists. We can learn a lot and achieve more if 
we listen a little more to each other, and I suspect that is 
what Americans believe and they expect, they expect us to work 
together.
    I do believe that global warming is something that will 
need to be addressed, and I look forward to hearing from the 
witnesses today. I am particularly happy that an Ohioan has 
been asked to testify, Mayor Richard Homrighausen, from Dover, 
OH. As a former mayor and Governor, I can relate to the 
problems cities and States face with respect to balancing both 
environmental and economic needs. Mayor, you have to deal with 
it every day. I have long advocated the need to harmonize our 
environment, energy and economic needs. I hope this hearing 
today helps us better understand how States are trying to 
achieve these goals.
    For the past 2 years, I have called for a second 
declaration of independence: independence from foreign sources 
of energy. For our Nation to take real action toward stemming 
our exorbitantly high oil and natural gas prices, instead of 
considering them separately, we must harmonize our environment 
and energy and economic needs. This is an absolute must as we 
consider any additional actions to address climate change. From 
my own humble opinion, I agree with much of what Senator Inhofe 
has had to say, too often we just don't get our energy, 
economic and environmental people to sit down together. In 
fact, the problem we have had for the last 8 years and why we 
haven't made any progress is because we can't get them together 
to put each others' shoes on and come up with something that 
makes sense.
    I think we also have to become well aware of the fact that 
what we do is also going to be impacted dramatically by the 
developing countries. For example, we know that China is 
building a new coal-fired plant every week to 10 days, and many 
of them lack modern pollution control devices. Those of you 
from California are already feeling the effects of what is 
going on in China.
    This is a worldwide problem. We have to realize that we 
have a role to play, but we also must recognize that others 
have a role to play. The more we can engage them in this debate 
the better off we are going to be, and so is the world. I think 
that as a result, and some of you may not be familiar with 
this, as a result of legislation we passed last year, we now 
have an international initiative that is called the Asian 
Pacific Partnership. It involves Australia, China, India, 
Japan, South Korea and the United States. These are developing 
countries, many of them, and what we are trying to do is come 
up with technology that will not only benefit us but benefit 
the world.
    We just can't say we are going to deal with this in the 
United States. We have to understand this is a global problem 
and that by 2009, the Chinese are going to exceed our emissions 
here in the United States. We were the bad guy for a long time. 
But these other developing nations are coming along and we have 
to be just as concerned about them as we are ourselves.
    I would like to reiterate that I believe that global 
warming is occurring. The ongoing debate is over how much is 
due to natural causes and man-made causes. The issue is what do 
we do from a responsible public policy perspective to deal with 
the problem. It is something I hope this committee can work 
together on to develop responsible global warming policies that 
ultimately harmonize our energy, environment and economic 
needs.
    I want to point out one other thing, Madam Chairman, that 
the technology, particularly to deal with emissions from coal-
fired plants, is still in its infancy. The only real major 
thing that this Government has done is FutureGen, and that 
won't be built for the next 2 to 3 years. We ought to have a 
crash program of getting into that kind of research, so that we 
have these coal-fired plants that are out there, so they can 
retrofit, have the technology to retrofit them, make sure that 
the new plants that are being built deal with greenhouse gases 
responsibly.
    I know that some of the States represented here really 
don't care about it, because you get very little energy from 
coal. But the fact is, it is a reality. The United States is 
the Saudi Arabia of coal. Coal is going to be a part of our 
energy fix for a long, long time. Some of you from 
environmental group say, well, we don't want any coal. The fact 
of the matter is we are going to have coal. We had better get 
with it as soon as we possibly can to deal with technology that 
is going to limit those greenhouse emissions from those coal-
fired facilities.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator. I agree with your 
comments on coal. I think we are going to absolutely need to 
find a solution, because we have 250 years worth of it. It 
makes sense.
    Senator Klobuchar.

STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Klobuchar. Thank you, Madam Chair, and thank you, 
Governor. Welcome. It is my belief that we have seen a major 
sea change this year with our committee focused not just on 
whether or not there is global warming, but clearly we are 
focused on the solutions. A big part of this is going to be the 
innovative efforts going on in the States across this Country.
    Think globally, act locally used to be a bumper sticker, 
and now it is a necessity. I can tell you that in my State, we 
are not content to just sit around and wait for things to 
happen. We have seen how long it has been taking to get the 
fishhouses out on the lakes. We have seen the effects that it 
has had for some of our hunters and activities. While we 
believe the scientists and we believe in science, we are 
actually seeing first-hand the effects of climate change in our 
State.
    Today's hearing is especially timely for local people in 
Minnesota. Just last week we passed a new law that is now 
considered the Nation's most aggressive standard for promoting 
renewable energy in electricity production. It is a 25-by-25 
standard. By the year 2025, the State's energy companies are 
required to generate 25 percent of their electricity from 
renewable sources, such as wind, solar, water and biomass.
    The standard is even higher for Minnesota's largest 
utility, Excel Energy, which must reach 30 percent by 2020. 
Excel, which supplies half the electricity in Minnesota, has 
said that it expects to meet the new standard without a price 
increase for consumers. Already, it has announced that it will 
build a $210 million wind farm in Minnesota.
    Almost as important as the renewable energy standard itself 
is the bipartisan political energy that produced the new law. 
It was adopted with overwhelming bipartisan support, the vote 
was 123 to 10 in the State House and 61 to 4 in the State 
Senate. It was quickly signed into law by Republican Governor 
Tim Pawlenty.
    The same thing is happening at the local level. I just went 
across our State, and talking about middle-class tax cuts and 
the Farm bill. Every place I went, people were bringing up 
climate change. I was in the little town of Lanesboro, MN, in a 
high school gym, Madam Chair, and all they wanted to talk about 
is the new light bulbs that their city council had ordered them 
to put up. They were very excited about their own efforts on 
the local level.
    That is what we are seeing across this Country, with the 
work in New Jersey, with the work just recently announced in 
the five western States and the work that is going on in 
California. I admire the States and communities for their 
initiative, and what they are doing should inspire national 
action. With all of these many efforts and initiatives at the 
local, State and regional levels, I ask, how many bills has 
Congress passed to actually limit the greenhouse gases that 
contribute to global warming and climate change? Right now, the 
answer is zero. My hope is that we will be able to change that 
number sooner rather than later.
    We are all students of government, so we know the famous 
phrase, laboratories of democracy. That is how Supreme Court 
Justice Louis Brandeis described the special role of States in 
our Federal system. ``It is one of the happy incidents of the 
Federal system,'' Brandeis wrote over 70 years ago, ``that a 
single, courageous State may, if its citizens choose, serve as 
a laboratory and try novel social and economic experiments 
without risk to the rest of the Country.''
    But Brandeis did not mean for this to serve as an excuse 
for inaction by the national Government. Good ideas and 
successful innovations are supposed to emerge from the 
laboratory and serve as a model for national policy and action. 
That is now our responsibility. The courage we are seeing in 
the States as they deal with global warming should be matched 
by courage right here in Washington. We should be prepared to 
act on a national level, especially when the local and State 
communities are showing us the way.
    In this spirit, I look froward to our discussion today.
    [The prepared statement of Senator Klobuchar follows:]
        Statement of Hon. Amy Klobuchar, U.S. Senator from the 
                           State of Minnesota
    I look forward to today's discussion of local, State and regional 
perspectives on global warming and climate change.
    Some observers have suggested that public attitudes on global 
warming may soon reach a ``tipping point'' that will spur sweeping 
changes in our society.
    Already, many of the most innovative efforts are coming at the 
local, State and regional levels.
    Think globally, act locally'' used to be a bumper sticker. Now it's 
a necessity.
    I can tell you that, in my state of Minnesota, people are growing 
ever more concerned. Minnesotans love being out in nature. This winter 
I have heard from ice fishermen, snowmobilers and cross-cross skiers 
who tell me they personally see the signs of global warming and climate 
change:
    In our State, when we see something that concerns us, we're not 
content to sit around. We want to do something to make a difference. We 
want to take action.
    Today's hearing is especially timely.
    Just last week, Minnesota passed a new law that is now considered 
the Nation's most aggressive standard for promoting renewable energy in 
electricity production.
    It's a ``25-by-25'' standard. By the year 2025, the State's energy 
companies are required to generate 25 percent of their electricity from 
renewable sources such as wind, water, solar and biomass. The standard 
is even higher for Minnesota's largest utility, Xcel Energy, which must 
reach 30 percent by 2020.
    Xcel, which supplies half the electricity in Minnesota, has said 
that it expects to meet the new standard without a price increase for 
consumers. Already, it has announced that it will build a $210 million, 
100-megawatt wind farm in Minnesota.
    Almost as important as the renewable energy standard itself is the 
bipartisan political energy that produced this new law.
    It was adopted with overwhelming bipartisan support. The vote was 
123 to 10 in the State House, and 61 to 4 in the State Senate. It was 
quickly signed into law by Republican Governor Tim Pawlenty.
    This new law is further demonstration that elected officials and 
policymakers across the spectrum understand what's at stake.
    The same thing is happening at the local level. St. Paul, our 
capital city, has implemented a creative and forward-thinking Urban 
CO<INF>2</INF> Reduction Plan to reduce its carbon footprint.
    It's not only about combating global warming and climate change. 
It's also about reducing pollution and improving air quality. It's 
about promoting economic development and technological innovation. And 
it's about ensuring our future energy independence and security.
    We are seeing other major climate change initiatives elsewhere in 
the country.
    Earlier this week, governors from five Western States (including 
California and Arizona) announced that they will work together to 
reduce greenhouse gases by setting regional targets for lower emissions 
and establishing a regional ``cap-and-trade'' system for buying and 
selling greenhouse gas credits.
    This new regional project builds on the greenhouse gas emissions 
measure that the California legislature passed and California Governor 
Schwarzenegger signed into law last year.
    And it builds on other regional initiatives--especially the 
landmark Regional Greenhouse Gas Initiative with seven northeastern and 
mid-Atlantic States that have also agreed to a regional ``cap-and-
trade'' system aimed at reducing carbon dioxide emissions.
    One of the States in that initiative is New Jersey. I am pleased to 
see Governor Corzine with us today. I look forward to hearing more 
about the executive order he signed last month setting a State economy-
wide goal for reducing greenhouse gas emissions.
    I also look forward to hearing from Seattle Mayor Greg Nickels, who 
has led the way with the U.S. Mayors Climate Protection Agreement. More 
than 400 mayors (representing over 59 million Americans) have pledged 
to meet or beat the Kyoto Protocol greenhouse gas reduction goals in 
their own communities.
    I admire these States and communities for their initiative. And 
what they're doing should be an inspiration for national action.
    With all of these many efforts and initiatives at the local, State 
and regional levels, how many bills has Congress passed to actually 
limit the greenhouse gases that contribute to global warming and 
climate change?
    Right now, the answer is zero. My hope is that we will be able to 
change that number--sooner rather than later.
    As Arizona Governor Janet Napolitano explained the other day: ``In 
the absence of meaningful Federal action, it has been up to the States 
to take action to address climate change and reduce greenhouse gas 
emissions in the country.''
    We are all students of government. So we know the famous phrase 
``laboratories of democracy.'' That's how Supreme Court Justice Louis 
Brandeis described the special role of States in our Federal system.
    In this model, States are where new ideas can emerge . . . where 
policymakers can experiment . . . where innovative proposals can be 
tested.
    ``It is one of the happy incidents of the federal system,'' 
Brandeis wrote over 70 years ago, ``that a single courageous state may, 
if its citizens choose, serve as a laboratory; and try novel social and 
economic experiments without risk to the rest of the country.''
    But he did not mean for this to serve as an excuse for inaction by 
the national government. Good ideas and successful innovations are 
supposed to emerge from the laboratory and serve as a model for 
national policy and action. That is now our responsibility.
    The courage we're seeing in the States as they deal with global 
warming should be matched by courage right here in Washington. We 
should be prepared to act on a national level--especially when the 
States and local communities are showing us the way.
    In this spirit, I look forward to our discussion today.

    Senator Boxer. Thank you very much, Senator.
    Senator Thomas.

STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Thomas. Thank you, Madam Chairman. I will be short. 
I think it might kind of nice to listen to the witnesses that 
we have today.
    I thank you for having this hearing, however, and I believe 
hearing from the regional and about the regional impacts is 
very, very important. I am very concerned about having an 
energy mix. I believe we have to have an understanding of how 
important it is to deal with our resources as we look forward 
here, of course, as there has already been some discussion 
about coal. As you might imagine, I have a strong feeling about 
that.
    But we need to make sure what we do here doesn't injure our 
national economy. So I will file my report. I would tell you 
that we don't produce enough gas to provide for our energy. We 
have coal, as has been pointed out here, for about 200 years 
worth of energy. So our real challenge is how do we use the 
resources we have in an environmentally clean way and an 
efficient way to be able to do that. That is really where we 
are.
    So I will submit my statement. Thank you.
    [The prepared statement of Senator Thomas follows:]
 Statement of Hon. Craig Thomas, U.S. Senator from the State of Wyoming
    First, I'd like to thank the Chair for convening this hearing. I 
believe that the regional impacts of greenhouse gas reductions are the 
most important part of the climate change debate. I would have liked to 
hear from a witness that is as concerned about the role that coal plays 
in our economy and energy mix as I am. I believe several witnesses have 
a rational understanding of how important this resource is, however.
    I will repeat what we're all very used to hearing at this point. It 
is extremely important that any actions taken by the Federal Government 
do not harm our economy or our national energy security. I fear that 
extreme measures proposed by some will, in fact, cause this to happen. 
As an example, compliance with some proposals would require a shift to 
more natural gas. We can't produce all of that natural gas here in the 
United States. We're trying to help in Wyoming but it's not enough, and 
folks are growing tired of the breakneck pace of development in my 
State. Unless our coastal States begin to share more of this production 
burden, we will be in a very difficult situation.
    What we'll end up needing to do, of course, is building liquefied 
natural gas terminals in coastal States like New Jersey to import what 
we cannot produce here at home. The gas we'll import will come from 
countries like Iran and Russia. The leaders of these countries have 
already started talking about forming a cartel, like OPEC, for natural 
gas exports.
    I'd like to hear from Governor Corzine about what he thinks of 
liquefied natural gas terminals and drilling offshore. My guess is that 
he doesn't support either one. I support drilling off our coasts, but I 
am opposed to importing natural gas. We already depend on foreign 
countries for oil to run our transport sector. I do not want to become 
reliant on these same volatile regions to generate our electricity. 
That would harm our national security.
    What do we do about this problem then? Well, we have 200 years 
worth of energy sitting 60 feet underground in the Powder River Basin 
of Wyoming in the form of coal. What we need to do is advance clean 
coal technologies so this domestic resource can be used in a more 
efficient and environmental way.
    Another one we hear a lot about is that greenhouse gas emissions 
are an international problem. I agree. China is putting a coal 
powerplant into service every 10 days and India is growing just as 
fast. These countries will rely heavily on coal as their economies 
develop--that is a fact. Everyone, though, must understand that a 
liquefied natural gas terminal on our coast does nothing to reduce the 
emissions of China and India. Advancing clean coal technologies and 
sharing them internationally does a lot of good, however.
    Wyoming's perspective is one of a State that is willing to help, 
but we need to have a rational conversation about the best way to do 
these things. I hope that effort can begin today. I thank the witnesses 
for being here today.

    Senator Boxer. Thank you so much, Senator.
    Senator Sanders, welcome.

STATEMENT OF HON. BERNARD SANDERS, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Sanders. Thank you very much, Madam Chair, and then 
you for holding this important hearing.
    Let me be very clear. There are some people who say, well, 
we shouldn't be alarmists. Madam Chair, I am an alarmist. I 
think that the debate is over. I think global warming is real. 
I think global warming is man-made. I think if we as a Nation 
and as a planet do not get our act together, we are looking at 
disasters to come for our kids and our grandchildren. There are 
some people who say, well, gee, if we act too strongly, and you 
and I have proposed some very strong legislation, if we act 
very aggressively on global warming, it will have a negative 
impact on the economy.
    Let me tell you, if we do not act aggressively on global 
warming, the impact on the economy will be far, far more 
severe. I believe, there is no question in my mind that the 
Congress has been much, much too slow in moving forward and I 
hope this year we will change that pattern. To my mind, what 
this Country has to do is move toward a new Manhattan-type 
project. We moved aggressively on World War II, President 
Kennedy moved us forward in getting a man to the moon. Now is 
the time for a partnership between Government and the private 
sector to in fact say, we are going to break our dependency on 
fossil fuels, we are going to move toward energy efficiency and 
we can do that. The technologies are out there. What has been 
lacking for many years is the political will. I hope that that 
will be changed right now.
    I happen to believe that if we move forward in that 
direction we can create millions of good paying jobs, as we 
save the planet for our kids and our grandchildren.
    Now, in fact, while the Federal Government has not been 
aggressive, while we have a President who virtually refuses to 
acknowledge the reality of global warming, the truth is that 
cities and towns and States have been moving forward. As 
Senator Klobuchar mentioned, one of the beauties of our system 
is that if Minnesota moves forward or Vermont moves forward, 
the rest of the Country learns from that process. So I have 
been impressed by what States are doing. I have been impressed 
by what municipalities have been doing and I very much look 
forward to hearing the testimony today, so that we as a Federal 
Government can learn best practices.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    Senator Bond.

 STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR FROM THE 
                       STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair. It is 
always a pleasure to be able to join with you in these 
continuing discussions of global warming. I know this committee 
has other responsibilities, but we are having lots of 
opportunities and I thank you for holding this hearing to get 
the important impact from the States.
    One of the things I think we are going to learn today is 
that some of the current climate change proposals have the 
ability to hurt certain regions more than others. I think we 
have to account for the differences among the areas of the 
Country to ensure that actions we require are fair and 
affordable to all of our families and workers.
    There is an old principle, where you stand depends upon 
where you sit. That applies across bipartisan lines as well. 
The chart here, this chart shows why carbon plans will hit 
States differently. These pie charts show how different States 
derive their electricity from different fuel sources.
    Now, Missouri, we depend upon coal for 85 percent of our 
power. New Jersey depends upon coal only 20 percent, and 
California only 1 percent. So coal cost don't have an impact in 
California, much less in New Jersey. But these climate plans 
that hit coal hard will cause real economic distress, 
relatively speaking, States already emphasizing lower carbon 
energy with natural gas or nuclear are not going to be hit so 
badly.
    There are some economic consequences, Madam Chair. You have 
to have a strong economy to be able to afford environmental 
improvements. The strength of the American economy has allowed 
us to do a better job in controlling greenhouse gas emissions 
than our European Union friends who so loudly proclaimed their 
love for Kyoto but have not been able to cut the mustard. 
Keeping the economy strong will allow us to make more gains in 
dealing with environmental problems.
    I saw first-hand, Madam Chair, the environmental disaster 
of socialist East Germany. I went there just after the wall 
fell. I saw chemical plants with terrible smells putting fluid, 
liquid into open creeks, flowing into the sea. It looked like 
very dark coffee. But it smelled like something that I won't 
describe, because we are too close to lunch time to describe 
it. Getting the East German economy revived, West Germany with 
its strong economy, is the only way that we can make that 
progress.
    But there is also another problem. Putting heavy costs on 
coal can have major unintended consequences. I hope they are 
unintended. But the more you put pressure on coal, the less 
resources will be available to develop the clean coal 
technology that we must have. On the regional basis, plans that 
place an unfair degree of pain on midwestern families and 
workers would include caps set too low or too soon, lack of 
safety valves or requiring auctions that force consumers to pay 
twice for their energy, once when it is produced and again 
through the auction process.
    Now, the witnesses here today from New Jersey espouse this, 
just the same sort of anti-coal bias. Indeed, it is easy to 
determine who are for the plans that are unfair and 
unaffordable by many looking at this chart. Here are the States 
in the tan, our States that depend upon coal. The States not so 
colored are the ones, like the northeast and the west coast 
that don't depend upon coal. No wonder the people who are 
champions of carbon caps come from the white colored States. We 
in the Midwest don't intend to stand by and see it happen.
    I would say in my remaining seconds that one of the things 
that we have to do is wean the greedy natural-gas burning 
electric utilities off of that valuable resource. I have quoted 
before, but maybe somebody hasn't heard it, 25 years ago, 
Professor Glenn Seaborg, a Nobel laureate, said burning natural 
gas to produce electricity is like throwing your most valuable 
antique furniture into the fireplace to heat your house.
    Madam Chair, I have lots more, but I see my time is up, and 
I thank you.
    Senator Boxer. Senator Bond, it is really great to have you 
here, because you really are very animated on this. I just want 
to repeat, there seems to be an argument, I personally believe 
clean coal technology is absolutely essential. We have to deal 
with it, and I am very open to it and want to do it.
    I also wanted to mention, to get 20 percent of your power 
from coal is a lot of energy. So I do think we will look 
forward to hearing Senator Corzine on that.
    Senator Clinton.

STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Clinton. Thank you, Madam Chairman. I could not 
disagree more with Senator Bond's description of the problems 
we face. We have heard an eloquent, passionate description of 
why we can't do anything. I reject that. I think that we can do 
whatever we put our minds to. We just haven't been willing to 
do that in the last several years.
    So I commend the Chairman, because she is willing to lead 
us on a path that will not only be good for the environment, it 
will be good for the economy and it will be good for our 
security. On Monday, I was at a coal-fired plant outside of 
Buffalo, NY, that is looking to be one of the very first in our 
Country to move toward an integrated gasifcation system. It is 
going to take some help in order for them to do that. We have 
subsidized the oil and gas industry for decades. It is time to 
take those subsidies, those tax breaks, and put them to work on 
behalf of clean coal and renewables. I hope that we can address 
that. I have a proposal to do that with a strategic energy fund 
that would get us on the right path for deploying new 
technologies in a way that will begin to let us seriously deal 
with climate change.
    I am delighted to see our former member of this committee 
here. If we ever stop talking, he will have a chance to 
testify. Governor Corzine and I shared a great, great time on 
this committee early on trying to deal with some of the 
consequences of the attacks of 9/11. He was the strongest voice 
with the best plan on dealing with chemical plants. He is back 
again to talk about more of his far-reaching ideas that will 
really make a difference.
    I notice, too, that there are representatives from 
California, both the President pro tem of the California State 
Senate, and the Speaker of the California State Assembly. 
Because it is interesting to note that when people talk about 
how we cannot deal with climate change without wrecking our 
economy, California has had a flat per capita usage of 
electricity for 30 years. Why? Because California took steps to 
try to reduce demand, to do more energy efficiency and 
conservation. The rest of the Country has had an increase in 50 
percent of the use of electricity on a per capita basis.
    So when people say we can't do this, I say, ``well, I don't 
think that is true.'' In fact, California is doing it.
    There are a lot of good ideas that are at work right now 
across our Country. I commend the Chairman for giving us this 
opportunity to learn more about what is actually working in the 
States. It is our challenge to take it to scale, to put into 
place a framework for a national program. That is what we are 
going to do under your leadership, and again, I thank you for 
leading the way.
    Senator Boxer. Thank you so much, Senator Clinton.
    Senator Craig.

 STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM THE STATE 
                            OF IDAHO

    Senator Craig. Madam Chairman, I came late, and I 
apologize. So because of the patience of our former colleague 
here and his presence before the committee today, I say let the 
show begin.
    Senator Boxer. Well, the show began a long time ago.
    [Laughter.]
    Senator Craig. So I noticed.
    Senator Boxer. But you are most generous of spirit and we 
thank you.
    Just to delay it a tad more, I have asked Senator Menendez, 
because he felt so strongly about saying a few words, as 
Senator Lautenberg did, about his Governor. Senator?
    Senator Menendez. Thank you, Madam Chairlady, and thank you 
and Senator Inhofe for the opportunity to join in the honor and 
privilege of introducing my predecessor here in the Senate and 
our Governor Jon Corzine to the committee. In the years since 
Governor Corzine has taken office, he has exhibited tremendous 
leadership on a broad array of policy issues, taken on some of 
the toughest issues in our State. He has demonstrated a 
steadfast determination to work to improve the quality of life 
for all New Jerseyians.
    One of the areas that I am proud to say that he is leading 
New Jersey into excellence in is his stewardship of the 
environment, to a commitment of making the tough decisions that 
need to be made in order to ensure that our children and 
grandchildren are left with a healthier world than the one we 
are living in today. I think our Governor knows the tremendous 
risk that our State, our Nation and our planet face if we do 
not take serious action to combat global warming and that we do 
not do so sooner rather than later.
    But he also has the foresight to recognize the tremendous 
opportunities that New Jersey can take advantage of quickly and 
decisively, the advantage that the Nation as a whole could 
enjoy relative to the rest of the world if we, as Congress, act 
similarly. Now, having some of our colleagues' comments, I 
would say that what is not acceptable is to put any part of the 
Nation to put our collective health, security and well-being at 
risk. We are all in this together. I think that when we come to 
that conclusion we will all be able to move forward in a way 
that will achieve our collective goals.
    Individual actions to reduce greenhouse gases, either by 
making your home more energy efficient or purchasing carbon 
offsets are good starts, as are State and regional actions like 
the Regional Greenhouse Gas Initiative and the Western Regional 
Climate Action Initiative. But they are no substitute for a 
robust national climate policy.
    So I want to applaud Governor Corzine for his steps in New 
Jersey, making New Jersey one of the leaders on this issue. I 
applaud your leadership, Madam Chairlady, and the committee, 
for making this one of the highest priorities of the new 
Congress. Again, thank you for the opportunity to introduce our 
Governor and my good friend, Jon Corzine.

STATEMENT OF HON. JON S. CORZINE, GOVERNOR, STATE OF NEW JERSEY

    Governor Corzine. Thank you, Madam Chairman, and I 
appreciate very much the kind words of Senator Menendez and 
Senator Lautenberg, who are great partners, by the way, in 
framing the issues for the public in the State of New Jersey in 
making sure that we are addressing these issues and moving 
forward. We are really in a partnership. I hope that we will 
have one more broadly with the Federal Government.
    I commend both Chairperson Boxer and Senator Inhofe for 
inviting me. Thank you very much for this opportunity to talk 
about an issue that, I guess I would concur that I am pretty 
well convinced we have a problem. I read the IPCC report and 
find it chilling.
    We have tried to, as you mentioned, Madam Chairman, set 
statewide targets for stabilizing New Jersey's greenhouse gas 
emissions, both resetting to 1990, but also putting together a 
long-term vision that will have to be matched with 
restructuring the 80 percent below 2006 levels by 2050. It 
should not be achieved on a precipitous basis. It needs to be 
done over a period of time, and restructuring our economy will 
be good. It is important that those of us at State and local 
levels are addressing this issue. I am proud of the steps that 
are being taken.
    I may not be the terminator of greenhouse gases, but we are 
working very hard to actually be a part of a broader movement 
that is occurring across the Country that recognizes the need, 
the vulnerability, but also accepts that there is a challenge, 
but not a prohibitive challenge, to make sure that we do the 
best job we can to keep our economy strong. In fact, I think it 
is a false choice. I will try to comment about that in a 
second.
    I look at this whole debate as one of both recognizing 
vulnerability and also recognizing opportunity. There is no 
question, I identify with the icehouses, fishing, if you go to 
the Jersey shore and its barrier coast and see the erosion of 
our beach line in a very tangible way, you can do the 
scientific research, which you can see for yourselves the 
reality. Something is changing. I believe it is the unchecked 
human caused emissions that are a part, if not the driving 
force of this. They have severe adverse impacts to our 
environment, and I believe the economy, since we are driven so 
much by our tourist economy and so much of our densely 
populated State lives within 50 miles of the coastline. I don't 
think this is just an issue that you can only look at what it 
is going to do to your business climate. You have to look at it 
much more broadly. I think New Orleans is a pretty clear case 
that there are vulnerabilities that end up costing money.
    That is the vulnerability side. On the opportunity side, 
and by the way, I could have talked about national security and 
energy independence with regard to vulnerability. I will leave 
that to other folks. The opportunity is this can be an economic 
driver in our society. We look at it as a driver for new 
markets in efficiency and clean energy technologies, 
technological innovation. New Jersey wants to be at the 
forefront, including by the way, clean coal technologies. We 
want to see that happen. We think we can change that carbon 
footprint.
    And I will say that there is another advantage. The States 
that are the first movers in this will have a competitive 
advantage when they speak to what happens in the world as we go 
forward. This change is going to be addressed. It is just when, 
not whether, in my view. If we in the State of New Jersey or 
California or New York or wherever it is that you have 
addressed these issues, will be in a much better position to 
have a stronger economy as time goes on. It shouldn't, again, 
be precipitous. It needs to be as we go forward.
    So I am very, very keen on making sure our State fulfills 
its responsibilities in being a strong voice for change here. 
It is important, though, that we begin to deal with this at the 
Federal level. I think I have heard these debates some time 
before, as Senator Clinton mentioned. I think we heard them 
actually in 2001 and 2002. But we need to do this for very 
serious reasons that apply to people's lives, like businesses 
need to make long-term capital plans. We need to make sure that 
the leakage problems that go on when we do it in one region or 
one State don't end up undermining the efforts. We all live in 
one world. So I think it is important that we do it.
    We need resources from the Federal Government to go along, 
whether it is developing new technologies like the strategic 
energy investments that Senator Clinton talked about or others. 
We need to be working on developing the output. That is going 
to take dollars, and I think the Federal Government needs to be 
working on that with us. We are going to put together, we are 
going to ask for a Governor's climate protection leadership 
council. I am going to call for all the Governors, hopefully we 
will get as many as possible to participate in this, both as a 
voice to push forward, the kinds of things that I think have 
been suggested, to improve it on targeting, but also in 
implications for policy. We need to move forward there.
    So I hope that you all will pass meaningful legislation, 
not just legislation that checks the box, but something that 
actually gets us into a position where we are changing. I think 
you need a portfolio approach. It is not just about energy 
production and powerplants. It is also about CAFE standards. It 
is about making sure that we have building codes that work and 
produce efficiencies. It is about renewable portfolio 
standards. It is a composite of things. If we don't think of it 
on a holistic basis, I think we will fail.
    In my formal statement I have laid down several principles 
that I think should be included in Federal legislation. There 
certainly should be a strong science basis to that, we ought to 
have a portfolio approach, as I talked about. You ought to look 
to the States for that laboratory of experimentation that was 
talked about.
    But maybe just as important, I am a little fired up about 
this with respect to chemical security efforts, we shouldn't 
have Federal legislation that preempts States that actually are 
taking aggressive stands with regard to pushing forward on 
this. So I commend the committee and the Chairwoman for the 
efforts to put together the leadership to move this forward. 
This is one of those issues that is most important to the 
future of our children and children's children. It is 
bipartisan and there is bipartisan support for us taking this 
on. I hope that you will come to a positive conclusion in 
embracing many of the ideas.
    Thank you, Madam Chairman.
    [The prepared statement of Governor Corzine follows:]
       Statement of Jon S. Corzine, Governor, State of New Jersey
    Thank you Chairwoman Boxer and Senator Inhofe for inviting me to 
testify. I particularly want to thank my good friend, the senior 
Senator from New Jersey, Senator Lautenberg, who has long been a leader 
on environmental protection. I am happy to be back among friends and I 
want to commend all my former colleagues and committee members on both 
sides of the aisle for holding this hearing and taking the steps 
necessary to begin tackling the issue of climate change on a national 
level.
    As most of you know, I recently issued an Executive Order that sets 
statewide targets for stabilizing New Jersey's greenhouse gas emissions 
at 1990 levels by 2020 and reducing greenhouse gas emissions to 80 
percent below 2006 levels by 2050.
    Yes, it is true that the challenges New Jersey faces are merely 
part of a much larger global problem. And, yes, we need to overcome the 
most crippling barrier we face--the false idea that we can't reduce 
greenhouse gas emissions without hurting the economy.
    But I took this action because climate change, driven by unchecked 
human-caused emissions of greenhouse gases, will result in severe 
adverse impacts to both the environment and economy of New Jersey.
    New Jersey is especially vulnerable to the environmental and 
economic effects of climate change, including the effect of sea level 
rise on the State's densely developed coastline from increased 
incidence and severity of flooding. Likewise, New Jersey's economy is 
also especially vulnerable to the effects of climate change with our 
active ports, a vibrant agricultural sector and a significant coastal-
based tourism industry.
    While climate change presents acute risks for New Jersey, 
addressing this challenge also provides great opportunity. Reducing 
greenhouse gas emissions will support New Jersey's economic growth 
strategy by creating economic drivers that build markets for energy 
efficiency and clean energy technologies, and spur technical innovation 
and job growth.
    In short, reducing our carbon footprint can and should go hand-in-
hand with increasing economic vitality.
    Moving aggressively now to reduce greenhouse gas emissions will 
also place New Jersey's economy at a competitive advantage in 
responding to the requirements of an anticipated Federal program to 
reduce greenhouse gas emissions.
    I am not alone in recognizing the economic opportunities presented 
by reducing greenhouse gas emissions. My counterparts in Maine, 
Vermont, New Hampshire, New York, Massachusetts, Connecticut, Rhode 
Island, Delaware and Maryland, along with New Jersey, are leading the 
charge through our work on the Regional Greenhouse Gas Initiative 
(RGGI).
    Governors Schwarzenegger of California, Napolitano of Arizona, 
Richardson of New Mexico, Gregoire of Washington, and Blagojevich of 
Illinois have all set aggressive greenhouse gas emissions reduction 
targets for their States. Additionally, Governors of five western 
States have formed the Western Regional Climate Action Initiative.
    Each day, additional States make commitments to fight the battle 
against global warming--regardless of whether they are red or blue--in 
large part because of the vacuum of leadership at the Federal level.
    While States are currently taking the lead, we need Federal action 
to set minimum requirements that allow businesses to make long-term 
capital planning decisions. State efforts will provide many useful 
lessons to inform the design of Federal legislation. However, absent 
unifying Federal policy that sets minimum requirements, multiple State 
efforts will create an environment of uncertainty for business.
    States' actions are the foundation for future Federal programs and, 
as such, the Federal Government needs to recognize the critical 
resources States bring to bear on this issue. Federal monies need to be 
made available now to States who are leading in the development of 
policies on this issue, acknowledging the critical role that those 
States' planning and actions have on development of Federal programs.
    To build momentum for Federal action, I intend to reach out to 
other governors that have asserted strong leadership in reducing 
greenhouse gas emissions to call for the formation of a Governors' 
Climate Protection Leadership Council. I believe that the time is ripe 
for States demonstrating leadership in reducing greenhouse gas 
emissions to coordinate their efforts, both to accelerate progress in 
implementing emissions reduction policies at the State level and to 
drive the policy debate at the Federal level.
    A coalition of leadership States will provide a more effective 
voice of advocacy for a strong Federal greenhouse gas regulatory 
program that acknowledges a role for States in its design and 
implementation.
    It is imperative for Congress to act, but it is also imperative for 
Congress to act to create meaningful--not symbolic--Federal laws. Weak 
or marginal Federal laws will only turn back the progress States have 
made.
    Today I ask you to redouble your efforts to pass meaningful Federal 
climate change legislation. The long-term wellbeing of New Jersey 
ultimately depends on a strong Federal program to reduce greenhouse gas 
emissions, as well as a reengagement by the Federal Government in 
international negotiations to further develop a global response to 
climate change.
    Additionally, more emphasis needs to be placed on energy efficiency 
initiatives, such as new appliance standards and enhanced building 
codes. I urge you to increase the Corporate Average Fuel Economy 
(``CAFE'') standards. In New Jersey, nearly 50 percent of our carbon 
dioxide emissions are from the transportation sector. Increased fuel 
mileage standards at the Federal level will greatly assist in our 
efforts to meet our climate change goals.
    I have attached a list of principles for Federal action on climate 
change that draws from the approach my administration has taken to 
designing emissions reduction policies and measures, both at the State 
level and through regional efforts, such as the Regional Greenhouse Gas 
Initiative.
    I hope that you will find these principles useful as you consider 
the multitude of Federal climate change bills that have recently been 
introduced.
    At a minimum, Federal climate change legislation should establish 
strong science-based emissions reduction limits. An emissions reduction 
on the order of 80 percent relative to current levels by 2050 will 
likely be needed to avoid dangerous interference with the climate 
system.
    Federal legislation should also acknowledge that a portfolio 
approach is required, and that implementing a Federal cap-and-trade 
program alone would be ill advised and insufficient. State climate 
change action plans have evaluated a multitude of policy measures for 
reducing greenhouse gas emissions. This portfolio approach should 
inform the development of Federal legislation.
    Federal legislation should acknowledge an ongoing role for States 
in the design and implementation of a Federal emissions reduction 
program. Congress can learn a great deal by reviewing the work already 
done at the State level to evaluate and develop greenhouse gas 
emissions reduction policies. One prominent example is the Regional 
Greenhouse Gas Initiative, which is the only effort in the United 
States to date to actually articulate the detailed design of a 
CO<INF>2</INF> cap-and-trade program for the power sector. A role for 
States should be institutionalized through Federal legislation.
    Finally, I want to underline the following. States are currently 
the leaders in addressing climate change, and will likely continue to 
push the envelope after Federal legislation is enacted. Federal 
legislation should facilitate the role of the States as policy 
innovators by explicitly preventing Federal preemption of State 
programs that go beyond Federal minimum requirements, as well as 
preventing preemption of State programs outside the scope of Federal 
initiatives.
    New Jersey is a great example of this innovation. While the goals I 
have set for New Jersey are aggressive, we believe they can be met, and 
we intend to meet them by building on actions already underway to 
reduce greenhouse gas emissions.
    We have played a leadership role in the Regional Greenhouse Gas 
Initiative (``RGGI''), the first-ever cap-and-trade program addressing 
CO<INF>2</INF> in the United States. RGGI will cap power sector 
CO<INF>2</INF> emissions in 10 Northeast and Mid-Atlantic States at 
approximately current levels through 2014 and reduce emissions to 10 
percent below this level by 2019, a reduction of 16 percent relative to 
projected 2020 business-as-usual emissions.
    We have enacted California's greenhouse gas tailpipe standards for 
light-duty vehicles, which is projected to result in an 18 percent 
reduction in CO<INF>2</INF> equivalent emissions from the New Jersey 
light-duty vehicle fleet in 2020 relative to projected business-as-
usual emissions.
    We have increased the New Jersey Renewable Portfolio Standard to 20 
percent by 2020, which will require 20 percent of all electricity sold 
at the retail level in New Jersey to come from Class I renewable energy 
sources, such as solar, wind, and sustainable biomass.
    I have directed our Energy Master Plan Committee, a multi-agency 
initiative, to develop recommendations for reducing statewide energy 
use by 20 percent in 2020 relative to business-as-usual projections. 
Approximately 85 percent of New Jersey's greenhouse gas emissions are 
due to combustion of fossil fuels for energy.
    I have appointed a Director of Energy Savings in the Department of 
Treasury to set targets for reducing energy usage in State facilities 
and reducing fuel consumption by the State vehicle fleet.
    These measures take us a long way toward meeting New Jersey's 2020 
emissions target, but further actions will be necessary. I have 
directed New Jersey's Department of Environmental Protection, in 
coordination with representatives of the Board of Public Utilities, the 
Department of Transportation, and the Department of Community Affairs, 
to provide recommendations to me within the next 6 months for achieving 
New Jersey's 2020 and 2050 greenhouse gas emissions reduction targets.
    Thank you for this opportunity to testify on this important issue. 
I look forward to working with you as we jointly tackle the historic 
environmental challenge of climate change at both the Federal and State 
level.
                                 ______
                                 
                               ATTACHMENT
 principles for effective, scientifically sound federal climate change 
                              legislation
    Emissions Reduction Requirement.--Incorporate a science-based, 
long-term emissions reduction requirement with a goal of avoiding 
dangerous anthropogenic interference with the climate system. Based on 
current state of the science, legislation should stabilize and begin to 
reduce greenhouse gas emissions within the next 10 years, and achieve 
emissions reduction of 80 percent relative to current levels by 2050.
    Legislation should institutionalize a periodic review of climate 
science and allow for a revision of emissions reduction requirements 
based on the current state of the science.
    Policy Approach.--Pursue a portfolio approach to reducing 
emissions, acknowledging that a cap-and-trade program may be 
appropriate for some sectors (e.g., large stationary sources), but that 
other policies may be more appropriate for addressing emissions from 
other sectors. States have a unique capacity to implement a portfolio 
of policies and measures that address energy production, energy 
efficiency, transportation, waste management, agriculture, and other 
economic sectors.
    Design Process.--Learn from and build upon the policy work already 
completed or underway at the State level when crafting federal emission 
reductions programs (e.g., RGGI, California AB 32, state climate action 
planning processes).
    Implementation Process (Role for States).--Institutionalize a role 
for States in designing and implementing statutorily mandated federal 
emissions reduction regulations under the auspices of a federal 
portfolio approach. This would provide a role for States to help 
articulate the details of Federal emissions reduction programs, 
building upon the analyses being done by leadership States through 
their climate action planning processes and regional emissions 
reduction programs such as RGGI.
    Explicitly prevent federal preemption of State programs that go 
beyond federal minimum requirements, as well as preemption of State 
programs outside the scope of federal initiatives.
    Cap-and-Trade Program Design.--Avoid the use of safety valves or 
price caps.
    Allocate allowances in a manner that maximizes consumer benefits 
and market transformation impacts. In the electric power sector, 
allowances should be auctioned, in recognition that large portions of 
the United States have instituted competitive wholesale electricity 
markets. The monies from the auctions should be used for measures that 
both reduce our carbon footprint and enhance our competitiveness, such 
as energy efficiency projects.
    Signal that new conventional coal-fired powerplants constructed 
from this day forward will not be grandfathered under a federal cap-
and-trade system, and will need to purchase allowances on the open 
market.
    Limit the use of emissions offsets, to ensure that a majority of 
emissions reductions are achieved from the capped sector or sectors. 
Emissions offsets should be incorporated as a flexibility mechanism 
that is designed to be supplemental to on-system emissions reductions.
    Design robust requirements to ensure that emissions offsets are of 
high quality and represent incremental emissions reductions beyond 
business-as-usual reductions. Should include strong additionality 
criteria to avoid crediting of ``anyway tons'' and provide a reasonable 
assurance that the cap-and-trade program is what is actually driving 
emission reductions achieved through offsets. Quantification and 
verification protocols should be rigorous and detailed, and apply 
conservative assumptions when appropriate.
                                 ______
                                 
      Responses by Governor Corzine to Additional Questions from 
                             Senator Thomas
    Question 1. New Jersey is one of many States that have adopted 
regional efforts to reduce greenhouse gas emissions. I am concerned 
that the costs associated with making these changes are inevitably 
passed onto consumers. Can you describe to us what you believe are the 
top 3 most affordable ways to achieve these greenhouse gas emissions 
cuts?
    Response. The backbone of any greenhouse gas emissions reduction 
program is the implementation of aggressive mandatory policies and 
financial incentive structures to improve end-use energy efficiency. 
Very significant potential remains to reduce energy use through 
improvements in the residential, commercial, and industrial sectors. 
Energy efficiency improvements provide net financial benefits and often 
increase economic competitiveness. Aggressive energy efficiency 
improvements can also serve to reduce the market price of primary 
fuels, such as natural gas. In the electricity sector, aggressive 
energy efficiency and demand-side management actions have been shown to 
reduce the price of wholesale electricity at times when these prices 
are at their peak. Energy efficiency and demand-side management also 
enhances electricity reliability and defers the need to expand 
electricity transmission and distribution infrastructure, providing 
additional cost savings to consumers.

    Question 2. You discussed the Executive Order you've issued to 
stabilize gases at 1990 levels by 2020 and reduce them further by 2050. 
Can you explain the enforcement mechanism that was included in the 
Executive Order to make sure that those targets are in fact, achieved?
    Response. The greenhouse gas emissions reduction targets I set 
through Executive Order No. 54 were intended to focus multiple State 
agencies and policies on a unified objective of reducing greenhouse gas 
emissions. Pursuant to the Order, a number of key State agencies, led 
by the Department of Environmental Protection, were tasked with 
providing to me specific recommendations by the end of the summer for 
policies and mechanisms to meet both the 2020 and 2050 targets. In 
addition, the DEP will be required to report progress towards meeting 
the targets every 2 years to measure progress and recommend whether 
additional measures are necessary.
    A number of actions New Jersey is taking now to reduce greenhouse 
gas emissions place the State on a trajectory to meet the 2020 target, 
although additional measures will be necessary. The State is already 
targeting the two largest greenhouse gas-emitting sectors through 
mandatory programs and has proposed an aggressive statewide energy 
efficiency goal. Key measures enacted or under consideration include 
the following:
    <bullet> The New Jersey Energy Master Plan goal of reducing 
statewide energy use by 20 percent in 2020 relative to projected 
business-as-usual energy use, and recommended measures to achieve this 
reduction, would achieve significant greenhouse gas emissions 
reductions (more than 85 percent of New Jersey greenhouse gas emissions 
are due to combustion of fossil fuels for energy). Completion of the 
Plan is expected in late 2007.
    <bullet> Enactment of the California Low Emission Vehicle (LEV) 
program greenhouse gas omissions standards for tight-duty vehicles is 
projected to result in an 18 percent reduction in CO<INF>2</INF>-
equivalent emissions from the New Jersey light-duty vehicle fleet in 
2020 relative to projected business-as-usual emissions. The adopted 
rules require automakers to reduce fleet-wide average greenhouse gas 
emissions from the vehicles they sell in New Jersey 30 percent by 2016.
    <bullet> Implementation of the Regional Greenhouse Gas Initiative 
(RGGI) is projected to result in a 16 percent reduction in regional 
power sector CO<INF>2</INF> emissions in 2020 relative to projected 
business-as-usual emissions. The first mandatory market-based program 
to reduce carbon emissions in the United States, the RGGI cap-and-trade 
program will cap regional powerplant CO<INF>2</INF> emissions at 
approximately current levels from 2009 through 2014 and reduce 
emissions 10 percent by 2019.
    <bullet> The increase of the Renewable Portfolio Standard in 2006 
to 20 percent by 2020 will support achievement of the RGGI cap and will 
lead to supplemental greenhouse gas emissions reductions that occur 
outside the geographic scope of RGGI (e.g., portions of the PJM 
electricity control area not subject to the RGGI program).

    Question 3. You discussed the economic advantages of acting early 
to make abiding by a federal requirement to reduce these gases easier. 
Do you believe that the economic advantages for your State remain 
intact if Congress decides against implementing a mandatory national 
program to reduce greenhouse gas emissions?
    Response. The economic advantages to New Jersey of acting now to 
reduce greenhouse gas emissions are apparent. Reducing greenhouse gas 
emissions will support New Jersey's economic growth strategy by 
creating economic drivers that build markets for energy efficiency and 
clean energy technologies, and spur technical innovation and job 
growth. While I believe that a national program is inevitable and 
crucial, given the compelling scientific consensus that human 
activities are driving climate change, New Jersey would still derive a 
competitive advantage through efforts to reduce greenhouse gas 
emissions, were Congress to decide against implementing a federal 
program. Energy efficiency, which is the backbone of New Jersey's 
strategy for meeting the 2020 emissions reduction target, will provide 
net economic benefits for the State and reduce our vulnerability to 
fossil fuel price volatility. In addition, improving energy efficiency 
will provide an engine for job growth, as saving a unit of energy 
creates more jobs than supplying one. Rather than shipping dollars out 
of State to purchase primary energy we will be investing dollars in the 
State to tap the large available energy efficiency ``virtual supply'' 
to meet a greater portion of New Jersey's energy needs. As a result, I 
strongly believe that aggressive greenhouse gas emissions reduction 
policy is well aligned with sound energy policy in supporting the long-
term sustainable growth of the New Jersey economy.
                                 ______
                                 
      Responses by Governor Corzine to Additional Questions from 
                             Senator Inhofe
    Question 1. Governor, given that the Kyoto Protocol cap and trade 
program is providing to be such a colossal failure, would you tell us 
how New Jersey's situation is different that would explain your 
optimism that a cap and trade program will work in New Jersey?
    Response. Emissions trading programs addressing SO<INF>2</INF> and 
NO have demonstrated that cap-and-trade programs spur innovation and 
achieve emissions reductions at a significantly lower cost than 
originally projected by policy makers. Given the numerous potential 
measures and technologies for reducing greenhouse gas emissions in the 
context of a multi-sector emissions trading program, and the wide 
variation in control costs for different measures and technologies, 
there is every indication that greenhouse gases are even more amenable 
to a cap-and-trade approach than criteria pollutants.

    Question 2. Do you plan to build more nuclear plants in your State 
and do you support nuclear power?
    Response. Nuclear energy provides approximately 52 percent of New 
Jersey's in-state generation and obviously plays a significant role in 
our energy portfolio. A new nuclear facility has not been ordered in 
the United State in 28 years, however recent changes in the federal 
policy have brought about a resurgence in nuclear energy. Several 
reactors are in various stages of planning, international nuclear 
vendors are forming new alliances and rising uranium prices have led to 
the development of new mines.
    In spring 2007, PSEG announced that they were in exploratory talks 
with another company to build another reactor, most likely at their 
Salem Generating Station in southern New Jersey. The company cited the 
need to identify its intentions by the end of 2008 in order to take 
advantage of federal incentives, including tax credits, risk insurance 
and loan guarantees.

    Question 3. Where are you going to get your emission reductions to 
meet this target? Are you planning to shut down all remaining coal 
plants in your State and replace them primarily with natural gas?
    Response. The emissions reduction targets I have set for the State 
are multi-sector and are not limited to the electricity sector, as the 
question suggests. I have tasked an interagency working group to 
provide recommendations to me by the end of the summer for how best to 
meet both the 2020 and 2050 Statewide emissions reduction targets.
                addressing electricity sector emissions
    New Jersey is a leader in the Regional Greenhouse Gas Initiative 
(RGGI), a 10-state CO<INF>2</INF> cap-and-trade program for the power 
sector slated to begin in 2009. Extensive electricity sector modeling 
during the development of the RGGI program, using a model widely used 
by the industry itself, has shown that the costs of the program will 
likely be modest and are not projected to result in a significant 
retirement of existing coal-fired electric generating capacity in the 
region.
    While there are currently no fully commercialized end-of-stack 
control technologies for CO<INF>2</INF>, there are emerging end-of-
stack options in the early commercialization and deployment phase, 
including carbon capture and storage technologies and carbon scrubbing 
technologies. Placing a price on carbon through a cap-and-trade program 
is critical to speeding the commercialization of these technologies, 
which will lower long-terms emissions reduction costs. These 
technologies will facilitate a continued role for coal-fired generation 
in a carbon-constrained economy. Absent end-of-stack controls, a number 
of compliance options are available in the near-term to electric 
generators subject to RGGI, including heat rate improvements, fuel 
switching, co-firing of biofuels, environmental dispatch of a company 
portfolio of units that considers the CO<INF>2</INF> emissions rate of 
individual units, and the use of emissions offsets.
    RGGI will also address the demand-side of the equation, through an 
auction of allowances and the use of the realized revenue to provide 
incentives for improvements in electricity end-use energy efficiency. 
This approach is discussed in more detail in response to question no. 
4.
    Question 4. It is a fairly well understood economic phenomenon that 
closing significant numbers of coal plants increases gas demand and 
increases both the average cost and volatility of natural gas prices. 
Aren't you worried about higher electric costs in your State, lost jobs 
in the manufacturing sector which is heavily reliant on natural gas as 
a feed stock?
    Response. While RGGI is not expected to lead to a significant 
retirement of coal-fired generation, the RGGI program is addressing 
emissions reduction from both a supply-side and demand-side approach. 
The demand-side component of RGGI will mitigate both electricity and 
fuel price increases resulting from the imposition of a carbon cap.
    The RGGI cap-and-trade program establishes a regional emissions 
budget (the cap), and creates allowances, each of which allow a 
regulated source to emit one ton of CO<INF>2</INF>. These allowances 
may be traded freely among both regulated and non-regulated parties. At 
the end of a compliance period, a regulated source must submit 
allowances equivalent to its emissions. In past cap-and-trade programs 
for sulfur dioxide (SO<INF>2</INF>) and nitrogen oxides (NOx), 
allowances were distributed to sources for free, often based on 
historic operation. The RGGI memorandum of understanding (MOU) sets 
forth a different approach. Under the MOU, the RGGI-participating 
States agreed to allocate a minimum of 25 percent of the allowances to 
support ``consumer benefit or strategic energy purposes.''\1\ The 
understanding among RGGI-participating States is that these allowances 
would be auctioned and the revenues would be used to support the 
general program goals outlined in the MOU.
---------------------------------------------------------------------------
    \1\ The MOU defines these terms as including ``use of allowances to 
promote energy efficiency, to directly mitigate electricity ratepayer 
impacts, to promote renewable or non-carbon-emitting energy 
technologies, to stimulate or reward investment in the development of 
innovative carbon emissions abatement technologies with significant 
carbon reduction potential. . . .''
---------------------------------------------------------------------------
    During the negotiation of the MOU, New Jersey was at the forefront 
in advocating for a large consumer allocation, and also advocating that 
a primary focus of this allocation be on reducing electricity demand in 
the RGGI region. No end-of-stack controls are now commercially 
available to limit CO<INF>2</INF> emissions.\2\ As a result, a 
CO<INF>2</INF> cap-and-trade program will benefit from having a strong 
end-use component integrated into its design. This allows RGGI to adopt 
both a supply-side (electricity generation) and demand-side 
(electricity use) focus, facilitating the achievement of emissions 
reductions at least cost.
---------------------------------------------------------------------------
    \2\ As mentioned previously, there are emerging end-of-stack 
options in the early commercialization and deployment phase. Absent 
end-of-stank controls, a number of compliance options are available to 
electric generators subject to RGGI, including heat rate improvements, 
fuel switching, co-firing of biofuels, environmental dispatch of a 
company portfolio of units that considers the CO<INF>2</INF> emissions 
rate of individual units, and the use of emissions offsets.
---------------------------------------------------------------------------
    Electricity market dynamics also support the use of CO<INF>2</INF> 
allowance value to reduce electricity demand, which will in turn reduce 
aggregate RGGI compliance costs. RGGI is being implemented in a 
restructured, competitive wholesale electricity market. Electric 
generators are therefore expected to factor the opportunity cost of 
using CO<INF>2</INF> allowances into their bid prices whether 
allowances are given out for free or they are required to purchase 
allowances on the market.\3\ As a result, the carbon compliance cost of 
the marginal generation unit will be factored into the market-clearing 
price of electricity, which will allow generators subject to RGGI to 
recover a significant portion of their compliance costs through an 
increase in the wholesale market price of electricity (assuming 
generators must purchase allowances). If allowances are distributed for 
free, this allows the generation sector as a whole to realize a net 
increase in revenues as a result of the cap-and-trade program, because 
revenue received through a rise in wholesale electricity prices will 
substantially exceed CO<INF>2</INF> compliance costs. This dynamic has 
in fact been borne out through the initial experience of the European 
Union Emissions Trading Scheme for CO<INF>2</INF> which allocated the 
vast majority of allowances to regulated sources for free. Early market 
impacts in the EU have generated significant controversy and led for a 
call by many to auction allowances.
---------------------------------------------------------------------------
    \3\ Allowances will have a market value, irrespective of the 
original allocation method.

    Question 5. New Jersey relies far more heavily on natural gas for 
home heating than in other States on average. Aren't you worried about 
heating costs for the elderly, poor and working class in New Jersey?
    Response. As mentioned previously, aggressive efforts to reduce 
energy demand will provide net economic benefits and employment gains 
while reducing greenhouse gas emissions. A distinction should be made 
between energy prices and energy costs. A carbon constraint will 
increase prices for conventional fossil energy. However, the price 
signal from a greenhouse gas constraint will also incentivise energy 
efficiency, which if pursued aggressively, could reduce total energy 
costs paid by consumers. I do acknowledge that the poor face a higher 
energy cost burden as a percentage of their total income. For this 
reason, I support channeling energy efficiency incentives to low-income 
communities to help low-income consumers reduce their energy costs 
through the implementation of energy efficiency improvements and the 
provision ratepayer assistance where appropriate. We intend to dedicate 
a significant percentage of the revenue from the sale of RGGI 
allowances to support the energy needs of low-income households.

    Question 6. Since oven the Bingamnan proposal here in the Senate--
which covers the entire economy--would only reduce temperatures by 
0.008 Celsius, what good do you think your plan will do in reducing 
global temperatures and do you think it is worth the harm it will do to 
the working class in your State?
    Response. Addressing climate change requires a global commitment 
from multiple nations, States, and localities. No action by single 
actor can solve a global environmental problem. However, the fact that 
multiple parties must take collective action does not negate the 
environmental value to be derived by the actions of each party, nor 
argue against action by individual parties. Such logic is an excuse for 
inaction, and ignores the reality that the global emissions reductions 
necessary to stabilize the climate will be achieved through incremental 
emissions reductions by many nations, States, and localities.
    As a State uniquely vulnerable to the impacts of climate change, 
New Jersey has a responsibility to take aggressive action to reduce 
greenhouse gas emissions. New Jersey is especially vulnerable to the 
environmental and economic effects of climate change, including the 
impact of sea level rise on the State's densely developed coastline 
from increased incidence and severity of flooding. Likewise, New 
Jersey's economy is also especially vulnerable to the impacts of 
climate change with our active ports, a vibrant agricultural sector, 
and a significant coastal-based tourism industry.
    The actions by New Jersey and other States, collectively through 
regional programs and individually, is in fact bearing fruit beyond 
State borders. State action is driving action at the federal level, 
which is vital if New Jersey hopes to mitigate the impact of climate 
change on our economy, infrastructure, and environment. Action at the 
federal level in the United States is in turn vital if we hope to bring 
large developing nations such as China and India into a mandatory 
international emissions reduction framework.

    Senator Boxer. Thank you so much, Governor. It is wonderful 
to have you back in the Senate.
    I am going to keep, if it is OK, including myself, keep the 
question period to 4 minutes so we can get to our next panel.
    Governor, I want to ask this question based on your 
expertise in the financial sector that you bring to your work. 
Earlier this week, Goldman Sachs, together with other 
investment firms, announced takeover plans for TXU, a Texas 
utility. Part of the deal was that the new TXU would scrap 
plans to build traditional style coal-fired powerplants. Do you 
think the investment community is waking up to this new reality 
and taking global warming into account as it plans for the 
future?
    Governor Corzine. Yes.
    [Laughter.]
    Senator Boxer. Do you see other example?
    Governor Corzine. I think actually what you are seeing is 
investors realizing that change is in process. It is entrained. 
That to invest in a power company that is not going to reflect 
that over a period of time is to actually impair the rates of 
return on capital for the buyers. The people that are actually 
involved in this TXU, aside from the Goldman Sachs people, who 
I don't know, are going to demand long-term rates of return on 
capital that are commensurate with the best alternatives. I 
think they are reflecting through those decisions what a lot of 
investors are doing, is we ought to get ahead of the curve as 
opposed to being behind it, which would be the case if you 
continue to build the 11 powerplants without the new 
technology.
    Senator Boxer. Sticking with the economic approach, are you 
familiar with the Stern Review?
    Governor Corzine. I am not.
    Senator Boxer. Sir Nicholas Stern, the former chief 
economist of the World Bank, conducted a recent study, October 
2006, of the cost of climate change. His principal conclusion 
is that the overall cost of climate change are equivalent to 
losing at least 5 percent of global GDP each year. The worst 
case scenarios increase the loss to 20 percent of global GDP. 
Based on the report's findings, a dollar invested now can save 
$5 later.
    Now, I am not asking you whether you agree with this, 
obviously you haven't read the report. But he is extremely well 
thought of.
    So I think the false choice, as you used that expression, 
that we have to choose between a terrible, if we do anything 
about global warming we are going to see terrible economic 
atmosphere is absolutely refuted by the experts. Coming from 
California, where we have done an amazing job in a bipartisan 
way, and I would say it is nothing to do with liberals, it is 
just smart, common sense steps on both sides of the aisle to 
make sure that we are energy efficient. We are actually saving 
money. Our businesses are saving money.
    So in my minute that I have left, I would like you to just 
expound a little bit about this shibboleth, as I call it, or if 
you do something for the environment you are going to have a 
weak economy. Because I think it is the opposite.
    Governor Corzine. Well, as I said, if you use a portfolio 
approach, you are looking to energy efficiencies, which 
hopefully will use less energy to accomplish the same ends if 
you have a renewable portfolio standard, that you don't 
implement precipitously but you do it over a period of time, 
you will have alternative sources that are competing. If 
everyone is operating with cleaner technology and we have a 
more healthy environment, I think it will show up in some of 
our costs with regard to health care and other issues.
    I believe there is a tremendous economic opportunity for 
those that are the creators of new technology and bring 
innovation to this. That is what you are seeing by this TXU 
investment. I think this is clearly a situation where there are 
some identifiable costs by not dealing with it, whether it is 
the shoreline along New Jersey, 127 miles of Atlantic Ocean 
that is no longer as productive as it would be otherwise, or 
the other elements that I talked about against, yes, there will 
be some short-term costs. But those will be more than paid for, 
in my view, by the positives that come through this process.
    Senator Boxer. Thank you.
    Senator Inhofe.
    Senator Inhofe. Governor Corzine, thank you for being here. 
It is nice to see you again.
    Let me just ask you a question. New Jersey is different 
than most other States in that you are reliant upon coal for 
only 20, 19 percent, I understand, of your energy.
    Governor Corzine. Something in that nature, yes.
    Senator Inhofe. Something like that. I saw the charts that 
were held up by Senator Bond, which showed the differences. I 
would suggest that my State of Oklahoma is very similar to 
Missouri. So it really would affect different States 
differently, and I think we understand that.
    It is hard to compare your Executive Order to meet the 1990 
levels by 2020 and then 80 percent reductions by 2050. Because 
that is not exactly what Kyoto did. But it is more stringent if 
you take it all the way out to 2050 than Kyoto.
    Now, Senator Boxer brings up, and I am glad she did, the 
cost of this. You are probably familiar with the Wharton 
Econometric Survey, because that was made actually when you 
were in the U.S. Senate. In that, they take the Nation as a 
whole and say that it would be very, very punishing 
economically to the Country. I think the best way to 
characterize it is that it would cost the average family of 
four $2,750 a year.
    I know that you are debating this, the other side of this 
issue, but you do not agree with that survey, is that correct?
    Governor Corzine. I think that is what an economic analysis 
might show, other things being equal. But I don't think other 
things are going to be equal at the same time. There are other 
issues that will provide for efficiency, alternative sources of 
energy and hopefully that there will be useful support for 
these alternative energies and clean fuels that come from the 
Federal Government in the same way that we supported the oil 
and gas industry.
    Senator Inhofe. I have to try and cut it a little bit short 
here, because it is a 4-minute timeframe. Would you, if you are 
going to meet these goals, you are going to have to have some 
kind of energy in New Jersey. Are you suggesting more nuclear 
powerplants in New Jersey?
    Governor Corzine. Well, not at this point, we certainly 
aren't. But that is an alternative. There are other 
alternatives that we are very closely examining right now, wind 
power, offshore, we are examining methane and other biofuels. 
We are talking about all kinds of other ethanol approaches to 
try to improve and we are looking at clean coal. We are 
building LNG plant in southern New Jersey.
    Senator Inhofe. So the clean coal, that is interesting, and 
I would agree with that. Actually the plants that were shut 
down as a result of the lawsuit in Texas, under TXU, were clean 
coal technology plants. In fact, they were replacing existing 
plants with newer technology. So I am glad to hear you say 
that, because there has to be a place in this mix for coal.
    Governor Corzine. We are in the mist of an energy master 
plan which is examining both likely demands, considering what 
we look to use alternative energies and efficiencies, and then 
we will lay out where we think we will generate that power 
from. But it is, it needs to be a very comprehensive approach 
that one takes in all these areas.
    On the TXU issue, I understand, at least from the 
conversations that I have had from some of the people that are 
involved in it, that there is a very strong sense that they 
will put the most powerful clean coal technology in place. But 
I am not familiar with the details.
    Senator Inhofe. Well, I would hope that would be true. 
However, if they are cutting down the number of new plants from 
11 down to 3, that makes it much more difficult for them. Of 
course, this is, this in a way is a Texas problem. But it is 
one that Governor Perry had the courage to stand up and say, we 
have to have energy for our citizens without taxing them 
disproportionately.
    Thank you, Madam Chairman.
    Senator Boxer. Thanks, Senator.
    Next we are going to go to Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Governor Corzine, thanks for your leadership in New Jersey, 
in more areas than this. It is really appreciated by the 
citizens across the State.
    Is it possible to achieve the goals that are set out in our 
plans for New Jersey unless we have like programs developed to 
the west of us?
    Governor Corzine. We would do a lot better if the programs, 
the States to the west of us implement these kinds of 
initiatives. But it is not impossible for us. We are going to 
implement, as you well know, higher mileage standards for light 
vehicles and other issues. As a matter of fact, the greatest 
producer of greenhouse gases in New Jersey comes from cars. So 
to not include CAFE standards and changes in requirements with 
regard to tailpipes is a huge mistake. We can do a lot of self-
help work in New Jersey by addressing some of our own issues. 
As I talked about the renewable portfolio standard and 
efficiencies in building codes, can take us a long way toward 
getting to our 2020 objectives. Getting to our 2050 objectives, 
I really believe is as much in your hands as it is in ours, 
although we will be able to accomplish some of our ends. A lot 
of leakage will occur if we don't have the help of the Federal 
Government.
    Senator Lautenberg. So many things we do here directly 
affect or are affected by other programs that are underway. For 
instance, in transportation, we know very well that if we put 
more into railroads, efficient railroads, we are going to 
reduce some of the pollution that comes from the cars sitting 
out there and that stuff.
    Senator Inhofe, I think maybe tried to throw you a slider. 
That was in the question about nuclear energy. I want to say 
this to you. There was a time that in this house you wouldn't 
even use the word nuclear. Now the NRC has applications for 
plants that are being widely of interest, trying to process 
these. Because in desperation to do something to protect our 
citizens, to protect this globe of ours from disappearing in a 
fog that they are looking for opportunities to reduce it. Maybe 
the politicians aren't always in tune with the people, but that 
is usually a lagging thing, anyway. It comes after elections, 
often, that you see the measure of the performance.
    But I think it is likely that all kinds of sources will be 
examined, the problems that we have are not unique, there are 
just more of them. Governor, I commend you for always being 
willing to take the path that is a little bumpy to get to a 
smooth ride at the end. We thank you very much.
    Senator Boxer. Thank you, Senator.
    Senator Voinovich.
    Senator Voinovich. Governor Senator, I am not going to ask 
you which title you like the best for the job.
    Governor Corzine. They have other titles in New Jersey.
    [Laughter.]
    Senator Voinovich. One of the things that I think is real 
important, and I am glad you brought it up, is that greenhouse 
gases are caused by lots of sources. It seems to me, Madam 
Chairman, we ought to have a chart up here about where it is 
all coming from, because so often we have a tendency just to 
concentrate on the emissions coming from fossil fueled 
utilities.
    I am suggesting to you, when I was chairman of the National 
Governors Association, we tried to get together, when I was 
going through the chairs, to get the northeast doing lenders 
together with the midwest and the far west on a policy. We 
couldn't do it, because at that time we were fingerpointing 
that, you know, your problems with emissions in New York was 
because of the Ohio plants and then we had, and you understand 
this because of your background in finance, you had the utility 
companies that all had their oar in the water also, because 
whatever you did would affect their rates. There was that 
competitive thing.
    Since that time, we have had an enormous number of mergers. 
So a lot of these utilities are wearing the same pair of shoes, 
for the most part.
    It seems to me that one of the most constructive things 
that you could do, now that the States are getting into this, 
would be to see if you can get Ray Shepach and the Governors 
Association to really sit down and look at this issue, talk 
about No. 1, some type of reasonable cap and trade, and I know 
that frightens a lot of people, what is reasonable in that area 
if you are going to go that route. Second of all, to talk about 
the issue of technology. It is one that I brought up in my 
opening statement, that the technology really isn't out there. 
There is this concept that, oh, yes, you can do it tomorrow, 
but the fact is, we can't. If you look at them, the way we are 
spending in the Department of Energy out of the 2005 bill, we 
are really not doing very much at all in terms of technology 
dealing with greenhouse gases, particularly from utilities.
    Now, Senator Clinton talks about a Manhattan project. The 
fact of the matter is, we don't spend the money that is 
necessary. It seems to me that the Governors could put together 
a kind of a consensus and come up here and really put the 
pressure on us to say, look, whether we have coal-fired or not 
coal-fired, we know this is an important issue that needs to be 
taken care of, not only for the United States, but for the 
world. We should be the leader in clean-coal technology, and 
take care of us and take care of the rest of the world.
    The other thing is that to recognize that we have an 
international problem and get them to come back here and talk 
about some initiatives that the Federal Government should be 
taking in order to have more of these Asian Pacific 
partnerships to deal with that issue, too, to put things in the 
kind of perspective that we need.
    But I think if you keep going the way we are, every State 
doing this and that, this issue, I know you don't want to be 
preempted, but you get, if you are out in the business, you can 
go crazy with all the various roles that you have. What do you 
think about that?
    Governor Corzine. Let me take that last piece. The reason 
that States are being so aggressive is that there isn't a 
feeling of action that is occurring with regard to this issue. 
Now, maybe that, different people respectfully can have 
different views about that. But the overwhelming weight of 
evidence in most of our minds in at least the States that were 
white, that Senator Inhofe showed up, is that there is a 
serious problem that needs to be addressed. From a practical 
standpoint, it doesn't matter whether it is natural or whether 
it is because it is man-made. Something is going on. The 
reality is that we need to take action to protect the quality 
of life we have.
    So if it is not going to happen on the Federal level, we 
want to be aggressive in trying to mobilize as much of the 
Country as we can. That is what, not on my watch, but under 
Governor Pataki's watch, the RGGI, or the cap and trade program 
was put together in the northeast and it is a Republican 
Governor in the west that is taking the initiative on elements 
of lead here.
    We need to be moving. If it is not going to happen, we 
shouldn't be preempted by the Federal Government writing 
regulations that are weak-kneed with regard to it. I hope we 
don't do that.
    I couldn't agree more that we need to invest in these 
technological advances. We have spent billions of dollars over 
decades on oil and gas production. We ought to turn that into 
alternative ways to produce energy that both reduce our 
dependence internationally, which is good for this Country to 
start with, and also, addresses this fundamental issue.
    Senator Boxer. Governor----
    Governor Corzine. Last, I would just say, you have to take 
a portfolio approach. Cars, how we transport ourselves is an 
important ingredient in this whole process.
    Senator Boxer. Thank you.
    Senator Voinovich, I think you are right. I will put in the 
record the U.S. emissions as of 2004 that show each greenhouse 
gas, carbon dioxides 85 percent of the problem, methane 8 
percent, nitrous oxides 5 percent and fluorinated gases 2 
percent. I will put that into the record just because I think 
it is an important part of this discussion.
    [The referenced material follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Boxer. Now Senator Klobuchar, we are going in order 
of arrival and back and forth.
    Senator Klobuchar. Thank you, Governor Corzine. That was 
just to explain that I am not the most senior member.
    [Laughter.]
    Senator Klobuchar. As if anyone didn't notice.
    I just wanted to follow up on some of the things you were 
saying about trying to move forward together and not divide 
people. I was thinking about what Senator Bond had been saying 
about the States in the midwest versus the other States 
represented here. I want to again reiterate that in our State 
just this week we passed a 25 percent renewable portfolio 
standard for electricity, by 2025. It was voted on 123 to 10 in 
the house, 61 to 4 in the State Senate, signed into law by a 
Republican Governor. I also point out that again, it is in the 
midwest, one of the States that showed up on Mr. Bond's chart.
    Along those lines, I want to follow up on what Senator 
Voinovich was asking about, and that is the technology issues. 
One of the things that I see with this issue is not only should 
we have an obligation to lead morally, but if we don't start 
leading technologically, other countries are going to pick up 
the slack. Could you comment about that, with your background 
in the Senate, Governor, and in the investment world?
    Governor Corzine. Capital is going to flow to where the 
returns are most attractive. As a business person I have seen 
that happen over and over again. If other countries come up 
with the clean coal technology that allows you to sequester it, 
allows you to produce the energy, those companies that generate 
that technology are going to win. It takes investment to be 
able to get to the answers on a lot of these questions. Some of 
it is basic, fundamental research that doesn't have immediate 
paybacks. It may have paybacks in 10 years. Sequestration is 
one of those areas where there is a lot of work that needs to 
be done if you want to use coal.
    We need to get on with that, or we are going to get left 
behind. Because other people are focusing on it and it is 
absolutely essential that we be at the cutting edge. We are not 
always going to win in the manufacturing sector in this world. 
We need to be at the cutting edge on innovation. So all of the 
Senators that have made this point, I underscore and put an 
exclamation point after it. I can assure you that New Jersey is 
going to do everything we can to make sure that our State 
uniquely is in the front edge of that curve.
    Senator Klobuchar. One last business question. You talked 
about in your written testimony about the effect that climate 
change could have on the economy in New Jersey. Specifically 
you mentioned the agricultural community. Could you talk a 
little bit about that?
    Governor Corzine. I think I actually said the tourism 
industry. I would hate to see Atlantic City covered with a foot 
of water. It wouldn't be good for the gaming business. But it 
is, we have had a series of floods on the non-Atlantic 
coastline of New Jersey on the Delaware River on a repeated 
basis. I think 3 out of the last 5 years, we have had major 
floods, because something is changing. Fifty-year floods, not 
just your normal floods, ones that have exceeded expectations. 
That is extremely expensive for the agricultural elements that 
are there, but it is very expensive for the community at large.
    So I think the practical dollars and sense that are going 
on year in and year out tell us we need to act.
    Senator Klobuchar. Thank you.
    Senator Boxer. Perfect timing.
    Senator Craig, and I understand that Senator Sanders, you 
have yielded your spot to Senator Clinton? Am I right on that?
    OK. So it will be Senator Craig then Senator Clinton.
    Senator Craig. Thank you very much, Madam Chairman, and 
again, Governor Senator. Thank you for coming before the 
committee.
    There is so much of what you say I agree with, even though 
some of my critics would not agree that I agree. It is always 
fascinating to watch how we all try to stereotypically create 
certain images. My frustration with what you are doing is not 
in the microsense, it is in the macrosense. Our Country, this 
Senate, some years ago refused to deal with Kyoto because they 
knew they could not, based on current technology, do so in a 
uniform way without damaging the economy and because there were 
major players in the world out there, like China and India, who 
simply refused to play. They couldn't afford to based on their 
perception of their economy and what was going on.
    I say that based on the context that we all believe in, 
especially those of us who have been in State legislatures, 
that States are marvelous laboratories from which to do things 
that Congress cannot collectively do. If you are a big enough 
State, I don't compare you with California, California has some 
uniqueness, you set it apart and it is still one of the world's 
larger economies. But the reality is quite simple, that some 
things that know no boundaries, i.e., like pollution, 
greenhouse gases and all of that, while States can create some 
uniqueness, they really don't become significant players. That 
is why national policy and broad-based international policy is 
so much more valuable in a concept like this.
    It is my observation, and I don't blame you for the 
politics of your State, that you could shut the economy of New 
Jersey off completely and make it the greenest State in the 
world and convince Harry Reid to take your nuclear waste. If 
you did all of that, you wouldn't change the temperature in the 
increasing warming pattern of this earth one-tenth of 1 
percent, if at all. Now, I think that is what frustrates all of 
us here, not of your effort. That is yours to do and that is 
for the citizens of New Jersey to choose.
    But we are not happy with where we are as a Country. I am 
not. We have passed some significant energy policy and we have 
to do more. But in the process of doing more, none of us want 
to turn the economy off. It is so interesting, I was kind of 
Peck's bad boy week before last when I appeared before the G-8 
plus 5 and suggested to them that in the last two quarters, as 
a unit of production, based on CO<INF>2</INF> emissions, the 
United States had become the cleanest country in the world. It 
was viewed as a statement of arrogance. I found that really 
quite fascinating, Governor, because it is a true statement. 
Because we are now all about technology and all technology 
being clean technology.
    So I applaud your efforts, I don't criticize them. I have 
one of the cleanest States in the Nation, because I have the 
great privilege of having hydro-based power as a dominant 
force. We are inexpensive, we make California look like a 
pauper when it comes to energy prices. We do very well.
    But we also have some coal-fired that we would hope down 
the road we retrofit and make cleaner. I say that as an 
observation, but to welcome you to the committee, and 
appreciate your presence here.
    But Madam Chairman, I become very skeptical of a piece-by-
piece solution to a very big problem. The reality that why 
Idaho won't be a player until we have a national solution is 
because we could impact our own economy but have zero effect in 
reality. That is, I think, a concern. We are clean now, we are 
going to stay clean. The citizens of our State and our 
legislature have said so. We are fortunate. Other States are 
less the case, at the same time, you heard the Senator from 
Missouri talking about the risk of shut-down of their economies 
and concerns.
    My time is up. Madam Chairman, Governor, again, thank you. 
I don't have a question for you, but I do what to recognize 
your efforts and I don't collectively criticize them.
    Senator Boxer. Thank you, Senator.
    Senator Clinton.
    Governor Corzine. Madam Chairman, I want to say--15 
seconds?
    Senator Boxer. Yes.
    Governor Corzine. This is an issue that is bottoms up in 
its solution. We will find it. We have a community, West 
Orange, that is putting itself on an energy diet. The kids are 
out trying to convince folks to go from incandescent bulbs to 
fluorescent bulbs. You are right, we can't change what is 
happening in the global environment, because we are just a 
little slice of it in the State of New Jersey.
    But if we don't take our steps, just like those children 
who are out selling this concept of going from incandescent 
bulbs to fluorescent bulbs, we won't change the world. It is 
important that those of us stand up and stand together and that 
increasingly is happening on a broader basis. So I think that 
is positive, and hopefully that will lead to a national 
response.
    Senator Boxer. Senator Clinton?
    Senator Clinton. Amen, amen, Governor. Thank you, Senator 
Sanders. I appreciate that. I have to get to the Senate Armed 
Services Committee Afghanistan hearing.
    I just want to make three points. No. 1, as we move 
forward, I think it is important for this committee to try as 
best as we can to establish an evidence base for the decisions 
we are going to make. My understanding is that the European 
Union since 1990 has actually declined in its CO<INF>2</INF> 
emissions by .8 percent and the United States has gone up by 16 
percent. So I think that it is important that we get an 
evidence base on which to make policy.
    No. 2, I am absolutely in agreement with what Governor 
Corzine said, and we have some mayors who are going to be 
testifying in the next panel, the Mayor of Seattle, the Mayor 
of Des Moines, the Mayor of Dover and others. We have to have 
as much activity at all levels of society as we can.
    I remember when Sputnik went up, and my fifth grade teacher 
came in and said, children, the President wants you to study 
math and science. I actually thought that President Eisenhower 
had called Mrs. Krause and told her to go tell us to study math 
and science.
    We need a similar level of engagement. Now, my studying 
math wasn't going to change the world. But at the same time, 
having the political support starting in my household going up 
for President Eisenhower to do DARPA, for President Kennedy to 
do the space program and the Apollo program did change the 
world. So we are asking for action at all levels, both of 
Government and in the private sector as well as at the 
individual citizen level.
    No. 3, I really wish Senator Voinovich were still here, 
because he and I worked together in the last Congress to pass 
legislation to clean up diesel. Again, it wasn't going to 
change the world overnight, but it was an important marker to 
lay down. We put in legislation with appropriations to begin to 
try to clean up school buses, construction equipment and other 
ways that said, you know, we can do better. By the way, 
American companies will produce the technology that we need for 
these pollution controls. So it was a win-win.
    That is how I see the coal issue. I am very sympathetic to 
the concerns of those from the midwest and other States that 
have a very high percentage of their energy coming from coal. 
But I guess I would reverse the concern by saying, if we don't 
start now to come up with an American manufacturing base for 
clean coal technology, we will eventually get around to it, but 
the technology will be made and imported into our Country 
instead of made and exported from our Country.
    So when TXU decided not to build 11 plants and to only 
build 3, that was a step forward. The problem is they are still 
pulverized coal plants. What they should be are new generation 
clean coal technology that will capture and store the carbon. 
We need those experiments. This Congress is the only place 
where that money and direction can come from, to put in at 
least five demonstration projects, one of them I hope is 
outside Buffalo, NY, because they are all ready to go. The 
private utility is moving forward as quickly as it can within 
the investment environment as it exists now.
    But we could do more to incentivize that. So, I hope that 
Senator Voinovich and the Chair and others of us working 
together, we will deal with this coal issue. It is real and we 
can do better on it.
    I guess to Governor Corzine, you mentioned the need for new 
technology and new thinking about climate and energy. I also 
have proposed a model based on DARPA, which again, President 
Eisenhower created after Sputnik, the Defense Advanced Research 
Projects Agency. It took our best minds from our universities, 
our private sector, and just let them loose, figure out what we 
were going to do.
    Well, out of it did come the Internet and many other 
advances that have revolutionized our economy, put people to 
work, raised our standard of living. I am convinced if we did 
this in the energy field, we would have the same results within 
a decade. So there is work for all of us to do. I am thrilled 
that under the leadership of Senator Boxer, our Congress is 
going to begin to address that. Again, thanks to Governor 
Corzine for being such a leader in this and helping to set the 
stage for the rest of us.
    Senator Boxer. Senator Clinton, thank you so much. I like 
your idea of this evidence-based record. Because we do have 
different Senators putting out different comments and we just 
need to collect that. I will task the staff with that.
    Senator Sanders, to be followed by Senators Whitehouse and 
Cardin.
    Senator Sanders. Thank you, Madam Chair.
    Madam Chair, what we seem to be hearing from a number of 
Senators is the idea that it is absolutely imperative and 
Governor Corzine, you mentioned as well, I think, that we move 
forward in whether you call it a Manhattan project or new 
Apollo project, that in fact for the first time we recognize 
that we have a global crisis, a national crisis and that it is 
imperative that we harness the resources on the Federal 
leadership, the Federal Government has the resources, the 
private sector and the State and local government, that we 
begin to bring people together to say we have a crisis and we 
are going to solve this crisis within the next 20 or 30 years 
with the United States of America playing a leadership role.
    The components of going forward are breaking our dependence 
on fossil fuel, increasing energy efficiency and reducing 
greenhouse gas emissions. I think what the Governor has said, 
if I understood him correctly, that you believe as we go 
forward in fact we can create jobs. While there will be 
certainly some economic dislocation, overall it can be a 
positive.
    Governor Corzine. It is a long-run win, absolutely.
    Senator Sanders. What I would like to ask you is, based on 
your background both in the private sector and in Government, 
how would you envisage a new Manhattan project? What would be 
the relationship between the Federal, State and local 
governments and the private sector? How can we harness the 
energy to develop new technologies and make this economically 
successful?
    Governor Corzine. Well, first of all, I think that there 
does have to be serious investment dollars made in the core 
research functions. Whether it is taking solar technology and 
actually making it practical, whether it is sequestration, 
whether it is the kinds of things that Senator Clinton talked 
about, and some of that may actually need some subsidization.
    Senator Sanders. Let me ask you this. I just talked to a 
fellow from Germany the other day who helped write legislation 
in Germany which pays people if they have solar paneling in 
their own house, they get a very good price for producing that 
solar paneling. It is part of a decentralized subsidy. Is that 
something that New Jersey----
    Governor Corzine. Sure. We actually have a clean energy 
plan. It is, I wouldn't write home to mom about it being the 
best thing in the world, but it is trying to subsidize the 
applications of solar and other alternative fuels. But we have 
to do that. We have to do it actually in the energy production 
field. We need, if TXU is only going to produce three clean 
coal plants, because that is all they can afford to do, it 
might be possible that we would want to give them tax credits 
in the same way that we have given it for oil drilling and 
exploration, so that they could do four or five, if that were 
the demand. I don't know the layout.
    We need practical work on basic research in our 
universities and in our research communities. Then we need real 
effort in bringing that into an applied context.
    Senator Sanders. Let me ask you this. I know New Jersey is 
not generally considered to be a major agricultural State, but 
in fact----
    Governor Corzine. We are the Garden State, remember.
    [Laughter.]
    Senator Sanders. Right. What are you doing, what ideas do 
you have with regard to biofuels in the east?
    Governor Corzine. We have, unfortunately, far too many 
garbage dumps. So we have a lot of methane tapping that ends up 
producing gas. We also do----
    Senator Sanders. You are using the methane from the 
landfills?
    Governor Corzine. Right. We do geothermal.
    Senator Sanders. Do you do much biofuels? Are you farmers 
growing----
    Governor Corzine. We do not do biofuels. We are about to 
make a commitment on our first biofuels plant, which started 
out to be corn based, and we are trying to get it into 
cellulose.
    Senator Sanders. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Cardin is going to pass, is that right? And Senator 
Whitehouse. Then we are going to the next panel.
    Senator Whitehouse. Governor, I am delighted that you are 
here. You have the experience of executive leadership, you have 
the experience of having been in this building and know what we 
are all going through. You have considerable experience in the 
financial and capital worlds.
    Governor Corzine. I used to sit in that chair.
    [Laughter.]
    Senator Whitehouse. You were this junior once.
    I see a lot of the problems that we face here as ones in 
which the market forces operate very effectively and properly 
in a defined market. But they create externalities. Whether 
they are the negative externalities of pollution of positive 
externalities, in this case, of being able to seize export 
products in this new technology, protecting our climate from 
what unfortunate things we seem to see coming and the ability 
to concentrate both capital and expertise, so that we become 
sort of a center of energy and center of expertise in terms of 
this new technology.
    Now, when you have a situation like that in which there are 
huge positive externalities and you don't want to just leave it 
to the market, because it is not reflecting those positives, to 
drive the public policy result, you have to accelerate the 
market a little bit, what from your experience in the financial 
world would be, I understand what you told Senator Cardin about 
funding research and doing all the things we traditionally do. 
Are there ways to jump start or accelerate in the financial and 
capital markets their investment in this area and what are the 
ones that in your experience have proven either more effective 
or less effective? Are there ones you would give us caution 
about, ones you would encourage us to try to apply?
    Governor Corzine. That is a terrific question. I have seen 
loan guarantees that reduced the cost of capital that are 
wraparounds, you see it in the nuclear power industry, that was 
very important in the early stages of production of it that 
were really the foundation on which a lot of powerplants were 
built in another period and time. You see it in the housing 
industry. I would like to see more of it, actually, in the 
housing industry, so that we could have greater development of 
affordable housing. It is a way to both mix private capital and 
public capital. This is in the application fields.
    I think the basic research effort is going to have to be 
grant work and you have to get----
    Senator Whitehouse. Understood.
    Governor Corzine [continuing]. The NSA and other national 
science foundations and other elements focused on this as an 
issue. But I think using loan guarantees as opposed to outright 
grants has often been successful in other avenues where you 
wanted to get broad bases to it.
    Now, you know, the oil and gas industry has benefited from 
oil depletion allowances. This is not new work. So you can 
accelerate depreciation as another technique and it has been 
very successful. That might very well be the appropriate way to 
approach this issue with regard to restructuring the powerplant 
industry and applying clean coal technology when billions of 
dollars would be applied. You know, somebody asked about 
nuclear power earlier, you have to check, we will have to 
review if that were the direction that society wanted to take 
particularly as a transitionary step. Some of the most adamant 
environmentalists have actually switched to say we have to do 
that as an intermediate bridge. I am not advocating that, but 
we need to make sure that those kinds of capital elements are 
in place that would allow that to happen, if that is the 
direction we want to take.
    Senator Whitehouse. I thank you for your testimony, and I 
thank the Chair.
    Senator Boxer. Thanks, Senators.
    Governor, you have triggered a most amazing debate. 
Something about you that just brought out, I think, the best in 
everybody here. It has been wonderful and we thank you very 
much.
    Governor Corzine. Thank you very much, Madam Chairman.
    Senator Boxer. Our next panel, please come forward as fast 
as you can, because we are going to hold your statements to 4 
minutes each instead of 5. We didn't expect it to go so long, 
but we had such a terrific turnout of colleagues.
    Senator Cantwell is here to introduce our Mayor of Seattle. 
Senator Cantwell, you can just sit on the end here, in Senator 
Whitehouse's seat, because he has left. I would love you to, 
because I have already given a very flowery introduction of my 
two wonderful friends from California, why don't you introduce 
to us the Mayor of Seattle, and then we will start with Senator 
Perata, we will work our way right down this way.
    Senator Cantwell. Thank you, Chairwoman Boxer, and members 
of the committee, for the opportunity to introduce the Mayor of 
my State's largest city, Mayor Greg Nickels of Seattle. I am 
proud to be here today to introduce Mayor Nickels and even 
prouder of what the citizens of Washington State and Seattle 
have been able to do in our ongoing efforts to reduce our 
climate footprint and leave a livable planet for future 
Washingtonians.
    As most of you know, the United States contributes about 
one-fourth of the world's greenhouse emissions, but to my 
frustration and I am sure many of the people on this committee, 
the Administration has refused to engage in an international 
effort to begin tackling this critical challenge. Fortunately, 
in the absence of Federal leadership, a number of cities and 
States have taken it upon themselves to try to reduce their 
carbon footprints and the results have been impressive.
    In 2005, Mayor Nickels launched an initiative to get cities 
to pledge to cut their greenhouse emissions by 7 percent below 
the 1990 levels by 2012. His initiative is filling a vacuum 
nationwide. It has received enthusiastic reception and now has 
been endorsed by over 400 mayors in every State in America who 
collectively represent 60 million citizens. In our State, all 
our major cities have signed onto the agreement, and we are 
very proud of that fact. I know that our former colleague and 
now Governor noted the Garden State motto. Well, they don't 
call Washington the Evergreen State for nothing. So we are very 
proud of this effort.
    I believe that you will hear from the Mayor and these 
cities that they are reaping the economic and environmental and 
security benefits of these initiatives. I believe these more 
localized efforts are part of a growing groundswell of public 
awareness of the threat of climate change and the urgency to do 
something about it. As I can say from my own State, it is very 
important for us to deal with this issue. I know that members 
of this committee may look at it as a security issue or an 
economic issue or the opportunity to take advantage of new, 
high-energy wage jobs. But for us, it doesn't matter what the 
motivation is. The need to act and act immediately is 
important.
    Climate change, as the Mayor will tell you, is impacting 
every corner of the world. But for us in the pacific Northwest, 
we can become particularly hard hit, because our temperatures 
are rising faster than the global average. Glaciers in the 
Cascade Mountains and the Olympic Mountains have retreated for 
over the last 50 years, and climate change is expected to alter 
our region's historic water cycle, threatening drinking water, 
salmon recovery efforts and the availability of emission-free 
hydropower. As my colleague from the northwest was mentioning, 
the northwest hydro system, we are 70 percent reliant on our 
electricity from that hydro system. So impacts in global 
warming directly have impacts on that hydro system, and these 
changes will likely impact billions of dollars of our economic 
infrastructure associated with irrigation systems, municipal 
water supplies, national forests, ski resorts and a variety of 
other things. So we can wait no longer.
    So thank you, Madam Chair, for your committee's work and 
their importance of this hearing today. Thank you to Mayor 
Nickels and the other panelists.
    As a member of the Energy Committee, Finance Committee and 
Commerce Committee, we will all work with you to get 
legislation to the Senate floor and onto the President's desk. 
You will have an ally in me, and you couldn't have found a 
better witness for today's hearing than Mayor Greg Nickels. 
Again, I thank the Chairwoman and the committee.
    Senator Boxer. Thank you, Senator Cantwell. You are welcome 
to sit with us as long as you would like to.
    Now it is with great pride I introduce our first two 
panelists: Senator Don Perata, a real leader on this, and to be 
followed by Speaker Nunez.

  STATEMENT OF HON. DON PERATA, PRESIDENT PRO TEM, CALIFORNIA 
                          STATE SENATE

    Mr. Perata. I thank you, Madam Chair and distinguished 
Senators. It is an honor to be here today to participate in 
this discussion. To date, it is very enlightening. I hope I add 
to that.
    I am not a climate scientist nor an economist. I am a 
former high school teacher and a native Californian, and like 
all of you, an elected official that has a singular concern, 
and that is the planet that we leave to our kids and our 
grandkids.
    I am going to cut more directly to something that has been 
riveting through the committee in the discussions, and that is 
whether or not you can reduce global emissions and stop climate 
change without doing injury to the economy. In California, we 
have been working on these issues for 30 years. As has been 
cited by Senator Boxer and Senator Clinton, we have made 
progress. Today, we are, in fact, Governor Reagan before he 
became President signed the State's first major energy 
efficiency law in 1974, when the first oil shock hit California 
and the United States.
    We have in California some of the best cutting edge 
technology in the world. What we are seeing right now is our 
policies that we are making in Sacramento are being implemented 
down the street, across the State. We are making it possible 
for others in the industry to break new ground. They are 
investing in California, they are investing in technologies 
because it is good for business and jobs are being produced. In 
the Silicon Valley, which is better known than for anything 
than technology chips and things of that nature, we are finding 
jobs being developed in the areas of solar panels, new 
computers that trigger the efficiencies as we discussed in your 
office yesterday, where now light coming into a room can adjust 
the lights in the room. So you are always one step ahead of 
where you need to be.
    In southern California, there have been great strides made 
for electric cars. In my own district, there is something very 
curious going on. We have been talking about diesel emissions. 
In the Bay area, there is a company that has developed and 
manufactures in California a device to be placed on school 
buses, tractor trailers, anything that has a diesel engine and 
can reduce immediately to zero emissions the carbon coming out 
of those engines.
    There are 280,000 trucks traveling daily to southern 
California ports. That bad air ends up being blown into the 
Central Valley and into the Inland Empire, the middle parts of 
our State. So by that one device being developed, we are in 
effect cleaning up the air around the coast and inland. For 
people who say, well, that is only California, yes, but it is 
California. If every State is able to do that, we first show by 
doing, and that is what we are finding effective in California.
    California has just passed $42 billion in bonds. In that 
are efficiencies and green legislation, so that as we do 
things, we build or rebuild California, we are doing it clean 
and green and we are making money and creating jobs. It can be 
done.
    I would ask only one thing in conclusion. Whatever you do, 
please don't do anything to preempt the strides that are being 
made in New Jersey, Washington, California and elsewhere. Thank 
you.
    [The prepared statement of Mr. Perata follows:]
   Statement of Hon. Don Perata, President Pro Tem, California State 
                                 Senate
    Madam Chair and Distinguished Senators:
    Thank you for holding this hearing, and for the privilege of 
addressing the committee. I'm honored to be here with my fellow 
Californian, Assembly Speaker Fabian Nunez, and Mayor Nickels, both of 
whom are national leaders in the fight against global warming.
    I'm not a climate scientist or a resource economist--I'm a former 
school teacher, a native Californian and--like all of you--an elected 
official who worries about what kind of world we're leaving our kids 
and grandkids.
    Today, I want to make three points to the committee:
    First, California can serve as a model for federal efforts to 
combat global warming and its impacts. Last year we passed two very 
important laws: one prohibiting utilities from entering into long-term 
contracts for power produced by dirty coal-burning plants, and another 
setting a target to reduce the state's total greenhouse gas emissions 
over time.
    The latter measure, known as AB 32, has received plenty of 
attention. It's a good law authored by Mr. Nunez. The best thing about 
it is it commits the state to reining in its greenhouse gas emissions. 
Many of the details of how to do this must be worked out, but we're on 
the right track. The other law is one I wrote to promote cleaner coal 
technologies. I'm glad to see that the Chairwoman of this committee has 
included provisions of that measure in her bill. There are more than 30 
new coal plants proposed in the Western United States, and 150 for the 
nation as a whole. California is a big customer for the electricity 
from those plants. Taken together, those plants could produce up to 120 
million tons of carbon dioxide emissions; by contrast, the total 
emissions from all sources in the entire state of Oregon is about 70 
million tons.
    California enacted SB 1368 to send a strong signal to the western 
energy markets. Our energy must be clean--we won't buy power from coal 
plants spewing greenhouse gases by the ton. To be clear, California has 
not said ``no'' to coal; rather, we've said that we want cleaner coal 
plants that can provide us energy without producing massive global 
warming pollution.
    Similar measures to SB 1368 are being considered in the Oregon and 
Washington legislatures. While it's gratifying to know that other 
states are following California's lead, there is no substitute for a 
national policy. So I encourage all of you to move forward with the 
Chairwoman's legislation.
    Now, what we have done in California is much more than just pass 
two landmark bills. Climate change and its dramatic effects are front 
page news today. But long before global warming began grabbing 
headlines, California worked to protect the environment and reduce air 
pollution. California has led a quiet revolution for decades to achieve 
one of the lowest per capita carbon emissions rate in the country. Over 
the years, state lawmakers have boosted energy efficiency, increased 
the diversity of our energy sources and improved our air quality.
    It was in fact Governor Ronald Reagan who signed the state's first 
major energy efficiency law in 1974, in the wake of America's first 
foreign oil scare. Today, the same energy efficiency programs created 
30 years ago serve as a cornerstone of California's efforts to reduce 
greenhouse gases. By 2008, our state's energy efficiency programs will 
reduce carbon dioxide emissions--a major cause of global warming--by 
more than 3 million tons per year. That's the equivalent to taking 
650,000 polluting cars off the road. And since the cheapest kilowatt of 
electricity is the one not used, it will save Californians millions of 
dollars on their monthly utility bills.
    In California, we're proud to be trendsetters. And much of what 
we've done could easily be adapted at the national level. That brings 
me to my second point: We need your leadership to win this battle. Only 
with your help can we transform our current fossil-fuel based economy 
into the new energy economy needed in the 21st century.
    As you know, there are many things a state like California can do 
for itself, and there are many things it cannot. The challenge before 
you is to craft federal legislation that helps bend the curve, as 
California is doing, so that overall U.S. climate change emissions 
begin to head downward. That demands the same comprehensive approach 
taken by California to cover all major sources of global warming 
pollution--not a piecemeal plan affecting only one set of emission 
sources, one type of emissions, or one type of mechanism to achieve 
reductions. It means direct and measurable emission reductions, 
flexible financial and tax incentives, and addressing more than just 
carbon dioxide.
    We also need Congress to provide tools, such as a 10-year extension 
of the renewable production and investment tax credit. The uncertainty 
over this important incentive is a big problem for new renewable energy 
investments.
    And finally, we must have Washington's leadership to get off what 
the President has called ``our national addiction to oil.'' We can do 
this through more efficient cars, clean alternative fuels and better 
transportation policies.
    My third and final point is that reducing greenhouse gas emissions 
creates jobs and stimulates the economy. Over the past several decades, 
California has adopted the most aggressive clean air, energy efficiency 
and renewable energy policies in the United States. During that same 
time, our gross state product increased by 83 percent, the second 
largest rate of growth of any state in the country. Key business 
incubators--such as Silicon Valley in the north and the biotech 
corridor in the south--generate jobs, revenues, and clean technologies. 
The super-efficient solar panels produced by Powerlight Corporation in 
my district, and the sleek new electric cars manufactured by Tesla 
Corporation in the South Bay area, are examples of these technologies. 
Just two weeks ago, British Petroleum announced a new $500 million 
investment in a clean fuels research facility on the University of 
California campus in my Senate district.
    The evidence is clear: California's climate policies are attracting 
business and jobs to the state, not driving them away. Business and 
industry leaders support strong state climate change policies like the 
laws we have passed in California because they know it's good for 
business.
    In California, voters last fall approved the single largest 
infrastructure investment bond in the history of the United States. It 
provides $42.7 billion to revitalize transportation, housing, flood 
protection, and schools. The public wants us to overhaul our aging and 
inadequate infrastructure--and doing it will be good for our economy--
but not at the expense of our air or environment. That is the 
overriding challenge of this new century: To continue to grow our 
economy while holding ourselves to higher standards of environmental 
protection.
    In closing, I want to emphasize that, for all of the work we've 
done, even states as large as California can't do it alone. We need 
strong and decisive action at the federal and international levels. 
After all, this is a global problem. The job ahead isn't easy or 
painless, as some would have us believe. We've only just begun to 
understand the scope of global warming and the magnitude of the changes 
it may bring. Today, more than ever, the state and Federal Government 
must cooperate and attack this problem together.
    Thank you again for the opportunity to testify before you today.

    Senator Boxer. Very important message.
    Mr. Speaker, welcome.

   STATEMENT OF HON. FABIAN NUNEZ, SPEAKER, CALIFORNIA STATE 
                            ASSEMBLY

    Mr. Nunez. Thank you very much, Madam Chair. I hope it is 
politically correct in Washington to say Madam Chair as opposed 
to Madam Chairman.
    I want to thank you very much for inviting Senator Perata 
and I to express our thoughts on why California did what it did 
to confront the climate change concerns that we have. First of 
all, and certainly to all of the members of this committee, I 
want to be clear that when we approved Assembly Bill 32 in 
California, we didn't do it out of an altruistic sense that we 
wanted to do the right thing for the sake of doing the right 
thing, although that is important as well in some case. But in 
California, we saw a real threat, a threat to places like Los 
Angeles, residents of the Central Valley as well, and farmers 
who, if they saw that their fresh water that they needed wasn't 
available to them, or could be contaminated with salinity, it 
was a real challenge.
    We saw the threat to our natural resources, for example, 
including key environmental and economic treasures like the 
beautiful coast of California, Yosemite and Lake Tahoe. In 
response, through an unusual partnership between the Democratic 
legislature and a Republican Governor, last year in California 
we passed gold standard legislation, Assembly Bill 32, the 
Global Warming Solutions Act. AB32 establishes regulations that 
will phase in a 25 percent cut in carbon dioxide emissions from 
the State's largest emitters by the year 2020, which in essence 
is a reduction below the 1990 levels in that 16-year period. In 
2008, the California Air Resources Board is going to begin to 
require industries to report carbon dioxide emissions. The 
Board is also going to establish a cap on those greenhouse 
emissions.
    The data that we collect over that 4-year period is going 
to determine which industries are the most significant on the 
dioxide footprint. From 2008 to 2012, outreach programs are 
going to begin to educate industries on how to best achieve 
these reductions. Then from 2012 to 2020, industry will begin 
to implement efforts to reduce their carbon output and take 
advantage of established market mechanisms that may be required 
to reduce some of these emissions. Those cuts, in essence, are 
going to bring us down to the 1990 levels.
    I want to stress that this simply was not an effort 
supported by Democrats in the legislature and a Republican 
Governor, but businesses came to the table. One of the largest 
utilities in California, Pacific Gas and Electric, Senator 
Boxer, you are very familiar with them, were strong supporters 
of this legislation. Entrepreneurs stepped up to the plate. 
Several CEOs and venture capitalists came on board, people like 
John Doerr, whose firm has invested in venture capital efforts 
such as Amazon.com and Google and many other technology firms 
also came to the table because they saw the importance of 
making this investment in alternative fuels.
    Let me just say for me, on a very personal level, 
representing an inner city from Los Angeles, issues of 
environmental justice and economic opportunity are vital and 
are powerful, very, very powerful motivators. I want the 
economy for the future of the children of California to be a 
clean economy. I want the neighborhoods that children live in 
to be clean neighborhoods. I think that our enforceable limits 
provide clear market incentives that are going to reduce 
pollution and unleash entrepreneurs to pursue clean 
technologies in our State.
    U.C. economists predict a boom in our State's annual gross 
product of $60 billion. One study suggests that we are going to 
create, over a 12-year period, 83,000 jobs in this area, 
Senator. Just in closing, let me say that gold built the 
California economy. I believe that through AB32, green is going 
to be what sustains it.
    Thank you very much, Senator.
    [The prepared statement of Mr. Nunez follows:]
     Statement of Fabian Nunez, Speaker, California State Assembly
    Madam Chair, thank you for inviting me to discuss California's 
experience confronting climate change. In California, we saw the threat 
to Los Angeles residents and Central Valley farmers if the fresh water 
they need is contaminated with salinity. We saw the threat to our 
natural resources, including key environmental and economic treasures 
like the coast, Yosemite and Lake Tahoe.
    In response, through an unusual partnership between Democratic 
legislators and a Republican governor, we passed gold-standard 
legislation, AB 32, The California Global Warming Solutions Act. AB 32 
establishes regulations that will phase in a 25 percent cut in carbon 
dioxide emissions from the state's five largest emitters by 2020. In 
2008, the California Air Resources Board will begin requiring industry 
to report carbon dioxide emissions. The board will also establish a cap 
on greenhouse gas emissions.
    The data we collect over a 4-year period will determine which 
industries are the most significant on dioxide. From 2008 until 2012, 
outreach programs will educate industry on how to achieve reductions. 
From 2012 on to 2020, industry will begin to implement efforts to 
reduce carbon output and take advantage of established market 
mechanisms. That cut will bring carbon emissions down to 1990 levels.
    In addition to strong environmental support, even one of our 
State's largest utilities, PG&E, backed AB 32. Several high tech CEOs 
and venture capital leaders also came on board, including John Doerr 
whose firm provided venture capital to Amazon.com, Google, Intuit and 
other technology firms. I think they see the clear market signal we are 
sending to spur a high-tech, green economy for our state. For me, 
elected from inner-city Los Angeles, environmental justice and economic 
opportunity are powerful motivators. I want the economy for our 
children to be a clean economy. I want the neighborhoods they live in 
to be clean neighborhoods.
    Our enforceable limit provides clear market incentives to reduce 
pollution, unleashing entrepreneurs to pursue clean technologies. One 
study found meeting the limit we've established will create 83,000 
jobs. UC economists predict a boost to our state's annual Gross Product 
of $60 billion. Gold built the California economy. Green will sustain 
it.
    This year, in addition to overseeing the implementation of AB 32 
the Assembly is advancing legislation on green building and alternative 
fuels; developing R&D opportunities; reducing emissions from landfills, 
and using bond funds to promote sustainability. And in all of these 
efforts, we are at this committee's disposal to help replicate 
California's experience at the national level.
    Thank you for this opportunity Madam Chair. And thank you for your 
dynamic leadership on this issue.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses from Fabian Nunez to Additional Questions from Senator Inhofe
    Question 1. I am shocked that you would divert your State's 
economic resources toward reducing greenhouse gases when California is 
the dirtiest air pollution State in the Nation. Thousands of people die 
in your State every year because California has refused to take the 
actions necessary to meet existing laws. The elderly, those with 
children and anyone with respiratory problems should be outraged you 
would choose to make this symbolic measure more important than their 
health, their very lives. How do you respond to this statement?
    Response. The Senator's ``shock'' is misplaced. California has some 
of the strongest air pollution laws in the Nation, yet there are areas 
of our state where topography, traffic congestion, and concentrations 
of specific industries do continue to present air quality issues. As a 
response, last year the California Legislature worked in a bipartisan 
fashion with Governor Arnold Schwarzenegger to pass not only AB 32 to 
address global warming, but also to put over $40 billion of 
transportation, flood protection, parks and affordable hosing bonds 
before the voters. Embedded within each of these bonds are specific 
provisions to address a variety of environmental issues, particularly 
air quality issues. For example, within the transportation bond there 
is over $1 billion dedicated to address air quality issues. The bonds 
also commit billions of dollars to such air quality measures as 
alternative fuels, new/advanced technologies to move goods through 
California's ports, traffic congestion issues, and clean construction 
equipment and school buses as well as transit orientated development, 
urban infill housing, land conservation and proper land use planning. 
Additionally, in terms of fighting global warming, the American Lung 
Association notes that several studies have shown that increased 
emissions of air contaminants, higher temperatures and the increased 
smog that accompanies higher temperatures make many health conditions 
worse. Warmer temperatures would also increase the likelihood of 
increased wildfires along with the carbon dioxide and particulates they 
produce. Rather than the ``outrage'' Senator Inhofe calls for, all 
these actions have proven to be popular with the people of California.

    Question 2. What is the estimated impact on global temperature that 
AB 32 will have over the bill's lifetime?
    Response. If, as I expressed my hope for during my testimony before 
the committee, AB 32 is replicated in other states and by the Federal 
Government, I believe the global impact of AB 32 will indeed be 
significant. As you must know, AB 32 is just one step toward the 
ultimate goal of having the United States working with the global 
community to reduce greenhouse gas emissions and therefore global 
temperatures. Through AB 32's mandated requirements, California will 
reduce its greenhouse gases by 25 percent to 1990 levels, roughly 174 
million metric tons. Even the most committed global warming denier has 
to acknowledge the significance of that reduction.

    Senator Boxer. Thank you so much, Speaker.
    The Republican side has asked if we could break up the, let 
us just say, pro-action side of this debate. I think they are 
right, I think they are fair. So we are going to have the Hon. 
Dennis Adkins, Chairman of the House Committee on Energy and 
Technology, Oklahoma State House, go next, and after him, the 
Hon. Ted Harvey, Senator, Colorado State Senate, if that is OK.
    So the Hon. Mr. Adkins.

STATEMENT OF DENNIS ADKINS, CHAIRMAN, HOUSE COMMITTEE ON ENERGY 
              AND TECHNOLOGY, OKLAHOMA STATE HOUSE

    Mr. Adkins. Thank you, Madam Chair, Ranking Member Inhofe 
and members of the Environment and Public Works Committee.
    I am Dennis Adkins and I am from the great State of 
Oklahoma, representing District 75, which includes parts of 
Tulsa and Broken Arrow in Oklahoma. I also serve as the Energy 
and Technology Chairman for the State of Oklahoma in the House, 
and I have served in that capacity since 2005.
    The Committee on Energy and Technology has jurisdiction on 
all State legislation affecting oil and gas, and it also has 
utility regulation under its jurisdiction. Oklahoma is an 
energy State. We have 10 percent of this Nation's proven 
reserves of natural gas. The oil and gas industry as a whole in 
Oklahoma has produced energy valued in excess of $10 billion 
for the past 2 years, representing more than 10 percent of our 
gross State product.
    During the past 15 years, Oklahoma's oil and natural gas 
producers have paid a gross production tax of more than $400 
million annually. In this most recent fiscal year, that figure 
was increased to $1 billion. This tax revenue from the energy 
industry funds our schools, roads, bridges, health care and 
other vital State services. No other industry in Oklahoma 
provides such a significant portion of the State's resources.
    Additionally, the energy sector employs 55,000 Oklahomans. 
In the past 24 months, this industry has created 4,000 new 
jobs. Oil and gas in Oklahoma is important and the salaries 
double for the Oklahoma workers if they are in the oil and gas 
industry.
    In electricity generation, Oklahomans heavily rely on coal 
and natural gas. Roughly 56 percent of the total electric 
generation is coal-based and roughly 38 percent is from natural 
gas-based generation, with a growing wind power sector as well. 
These percentages of electricity generation, of course, can and 
do vary greatly from State to State. For example, hydroelectric 
and nuclear resources can be and are reliable in other parts of 
the Nation.
    Like the rest of the Country, we in Oklahoma see many 
scientific, Government and media reports about climate change. 
We are interested in knowing the facts, also.
    I am not a scientist by profession, but I do intend to 
testify from this perspective. I am a State legislator and I 
believe that my job is to pass legislation to deal with 
problems facing my State based on the best available 
information. Therefore, I am greatly concerned by one fact. 
That fact is that there does not seem to be an agreement on 
climate change, and yet there does seem to be a great rush to 
action.
    The States represented here today can capably comment on 
what their States are doing or what their States are doing in 
conjunction with other States to address greenhouse gas 
emission controls. The representatives from these States 
certainly understand their State's energy profiles, needs and 
economic impacts better than I do. Instead of me describing 
what California does or doesn't do or what the Regional 
Greenhouse Gas Initiative in the northeast may or may not be 
doing right or wrong, it is better for me to describe what I 
think States like Oklahoma will be concerned about as any 
legislation addressing climate change is considered.
    Senator Boxer. Sir, could you try to wrap up with your most 
important thing, because we only have 20 seconds left on your 
time.
    Mr. Adkins. Sure. Our own Senator Inhofe is a national 
leader, especially on issues like climate change. I understand 
that he has said that carbon cap proposals would be the largest 
single tax increase to date, costing the American public more 
than $300 billion. However, regardless of the investments in 
renewable fuels, renewables can only provide a small part of 
the U.S. electric power. Oklahomans realize that we need a 
diversified energy supply, such as clean coal, natural gas and 
renewable sources.
    I appreciate the opportunity to testify before the 
committee, and I appreciate the committee allowing a 
representative from an energy State to come and testify. Thank 
you.
    [The prepared statement of Mr. Adkins follows:]
  Statement of Dennis Adkins, Chairman, House Committee on Energy and 
                    Technology, Oklahoma State House
    Good morning, Madam Chairman, Ranking Member Inhofe, and Members of 
the Environment and Public Works Committee. I am Dennis Adkins, and I 
am an Oklahoma State Representative for District 75 that includes parts 
of the cities of Tulsa and Broken Arrow, Oklahoma. I am also the 
chairman of the Oklahoma House Committee on Energy and Technology and 
have served in that capacity since 2005. The Committee on Energy and 
Technology has jurisdiction on all state legislation affecting the oil 
and gas industry in Oklahoma and utility regulation. In addition to 
serving in the state legislature, I am involved in the American 
Legislative Exchange Council (ALEC) and the Energy Council. Both ALEC 
and the Energy Council are organizations comprised of state legislators 
from throughout the country.
    Oklahoma is an energy state. We have 10 percent of this Nation's 
proven reserves of natural gas. The oil and gas industry as a whole in 
Oklahoma has produced energy valued in excess of $10 billion for the 
past 2 years representing more than 10 percent of our gross state 
product. During the past 15 years, Oklahoma's oil and natural gas 
producers have paid gross production taxes averaging more than $400 
million annually, and in the most recent fiscal year that figure 
increased to $1 billion. This tax revenue from the energy industry 
funds schools, roads, health care and other vital state services. No 
other industry in Oklahoma provides such a significant portion of the 
state's revenue sources.
    Additionally, the energy sector employs more than 55,000 
Oklahomans. In the past 24 months, this industry has created more than 
4,000 jobs. Oil and natural gas workers are paid more than double the 
average salary for Oklahoma workers.
    In electricity generation, Oklahoman's heavily rely on coal and 
natural gas. Roughly 56 percent of total electricity generation is coal 
based followed by roughly 38 percent of natural gas based generation 
with a growing wind power sector as well. These percentages of 
electricity generation sources, of course, can and do vary greatly 
state to state as, for example, hydroelectric and nuclear sources are 
very viable in certain other parts of the nation.
    Like the rest of the country, we in Oklahoma see the many 
scientific, government, and media reports on climate change, and we are 
interested in knowing the facts.
    Respected people on both sides of the issue present seemingly very 
compelling facts about their particular point of view.
    I am not a scientist by profession, and do not intend to testify 
from that perspective. I am a state legislator. I believe it is my job 
to work to pass legislation to deal with problems facing my state based 
on the best available information and facts. Therefore, I am greatly 
concerned by one clear fact. That fact is that there does not seem to 
be agreement on the issue of climate change, and yet there seems to be 
a great rush to action.
    Without the facts, I think it would be very possible to pass 
federal legislation or legislation in the states that might cost people 
substantially. I do not wish to be misunderstood and simply labeled as 
a naysayer, but a rush to pass legislation addressing climate change 
may make it appear that we, as elected officials, are doing something 
to address a problem, but in reality, not accomplish anything 
meaningful toward solving climate change. I understand that even if all 
industrialized nations would have faithfully followed the caps 
implemented by the Kyoto Protocol, the result would only shave a 
fraction of a degree Celsius of earth's temperatures. After all, what 
we are principally talking about is controlling carbon dioxide 
emissions. However, this gas is non-toxic to humans. It does not impair 
visibility. It does not foul the air we breathe, neither does it cause 
respiratory diseases, all of which hardly are characteristics of a bona 
fide pollutant. In fact, I have even heard it argued that moderate 
warming from 0.5 to 1.5 degree Celsius might enhance agricultural 
productivity, which is also extremely important to my state and other 
states like Oklahoma.
    We already have seen at least a couple of examples of what states 
have developed or enacted into state law addressing greenhouse gas 
emissions. With Assembly Bill 32, the California Global Warming 
Solutions Act of 2006, California will require monitoring and annual 
reporting from the state's most significant contributors to greenhouse 
gas emissions. The legislation seeks to reduce carbon dioxide emissions 
to 1990 levels by 2020 and achieve additional reductions into the 
future. The Regional Greenhouse Gas Initiative (RGGI), an agreement 
among some Northeastern states, seeks to develop a northeastern 
regional cap and trade program covering carbon dioxide emissions from 
powerplants in that region, placing a cap on current carbon dioxide 
levels, and reducing carbon dioxide emissions levels by 10 percent by 
2019.
    The States represented here today will capably comment on what 
their state is doing or what their state is doing in conjunction with 
other states to address greenhouse gas emission controls. The 
representatives from these states certainly understand their states' 
energy profiles, needs, and economic impacts perhaps better than I 
would. Instead of me describing what California and what states in the 
Regional Greenhouse Gas Initiative in the northeast may have done wrong 
or right, which may simply be my opinion, perhaps it would be more 
productive to use my time to describe what I think a state like 
Oklahoma will be concerned about as any legislation addressing climate 
change is considered.
    First and foremost, we would be concerned about the impact on 
Oklahomans. We would want to carefully weigh the proposed benefits of 
any action to the impact it will have on our citizens' pocketbooks, our 
economy, as well as on the environment.
    Oklahoma is blessed to have an abundant supply of electricity at 
rates below the national average. Unfortunately, we are not as blessed 
when it comes to cool summers. Oklahoma can get hot in the summertime 
driving up power consumption as a result and that translates into high 
electric bills. I know because I hear from my constituents, and I am a 
ratepayer too.
    Frankly, while I am aware of polling that suggests that many 
Americans are concerned about climate change, I am not sure they have 
calculated the impact the cost of addressing it will have on them.
    As state and federal legislators, we all heard the public uproar 
when the cost of gasoline began climbing. A few winters ago, we heard 
loud and clear that citizens were not at all pleased with the increase 
in natural gas prices. Now, we are talking about taking steps that 
could drive energy prices even higher without a clearly articulated 
benefit.
    I suppose the easy thing to do would be to pass legislation 
federally or in the states to attempt to address climate change. But if 
we do, absent the facts surrounding the cost and benefit, I do not 
believe we have served our constituents very well.
    If I have ever heard of an issue that needs more comprehensive 
study, climate change is it. I think our nation is poised to make 
massive investment on the backs of consumers, not knowing if the proper 
technology even exists and if those investments will even help.
    Generally speaking, measures such as carbon caps, cap and trade 
systems, and emission allowances would inevitably raise energy prices, 
raise costs of consumer products and services, reduce profits, impair 
productivity and may not achieve global reductions of greenhouse gas 
emissions. For example, under the Kyoto Protocol, emissions reductions 
are imposed on developed countries, while developing countries such as 
India and China, which will ultimately surpass the United States in 
carbon dioxide emissions, are left out.
    I have read forecasts estimating various costs from compliance with 
carbon dioxide caps. For instance, I have read that implementing the 
Kyoto Protocol would have cost the entire U.S. economy over $300 
billion by 2010 and implementing the standards in Kyoto would have 
resulted in an annual lost of nearly $3,000 per household by 2010. 
Information published by the U.S. Energy Information Administration 
estimated that cutting carbon emissions five percent below 1990 levels, 
as required in the Kyoto Protocol, would have reduced the U.S. Gross 
Domestic Product to up to $340 billion by 2012 which it estimated would 
translate into a cost of $4,500 for every family of four. There have 
been many proposals circulating in Congress for the past number of 
years, and they all address greenhouse gas emission reductions from 
various industrial sectors in various manners. I am not going to 
pretend to be an expert on each proposal and their forecasted 
reductions and costs. However, what they all seemingly have in common 
are substantially increased energy costs for consumers.
    Our own Senator Inhofe, who is a national leader especially on the 
issue of climate change, I understand has said that carbon cap 
proposals would be the largest single tax increase to date costing the 
American public $300 billion annually.
    Does that mean we in Oklahoma are simply taking the posture of 
standing still in the meantime, of course not.
    In Oklahoma, for example, our utilities are becoming leaders in 
wind power. Without mandates, our state has over 500 megaWatts of wind 
power. Although I realize this falls behind larger states that have 
developed their infrastructure over a longer period of time, over the 
last three years, Oklahoma now has the fifth largest wind generation 
base in the country. In fact, as transmission costs climb to $1 million 
per mile, our largest problem is transmission of this energy from the 
western portion of the state throughout the rest state.
    Pending in the Oklahoma Legislature presently is a measure that 
will establish the Oklahoma Bio-fuels Center over the next four years. 
Oklahoma will invest $40 million in a consortium among the University 
of Oklahoma, Oklahoma State University, and the Noble Foundation to 
engage in research developing the bio-fuels sector focusing on 
cellulosic feedstock.
    At the same time, while the majority of the electricity capacity in 
Oklahoma is natural gas fired at roughly 58 percent, I know the utility 
sector is presently investing in building a new coal-fired plant in the 
central part of the state, and they are going above and beyond the 
standard technology. We are planning to build a cutting edge plant that 
will reduce greenhouse gases and other emissions.
    However, regardless of the investments in renewable fuels, 
renewables continue only to provide a small part of the total U.S. 
electric power. Oklahomans realize we need a diverse energy supply 
making use of clean coal, natural gas, and renewable sources with 
limited constraints on development and economic impacts.
    I appreciate the opportunity to testify before the committee this 
morning and appreciate this committee allowing a representative from an 
energy state like Oklahoma to share their views.
    Thank you.

    Senator Boxer. Thank you very much.
    The Hon. Ted Harvey, Senator, Colorado State Senate.

  STATEMENT OF HON. TED HARVEY, SENATOR, COLORADO STATE SENATE

    Mr. Harvey. Thank you, Madam Chair, and thank you to the 
committee for having me here today. It is an honor to be here.
    My name is Ted Harvey and I currently serve in the Colorado 
State Senate. For the last 6 years, I have served on the 
Agricultural, Natural Resource and Energy committees in the 
House and now in the State Senate. Additionally, I have a 
master's degree in public administration, with a concentration 
in environmental policy and law.
    As you are aware, there are many academic specialties in 
the field of environmental sciences. Trying to get the experts 
to agree on anything is almost impossible. The debate over 
global warming change is no different, and the debate has been 
going on for almost 100 years. ``Geologists think the world may 
be frozen again,'' this was the headline in the New York Times 
on February 24, 1885. On January 2, 1939, an article claimed 
the earth was warming again. On April 28, 1975, Newsweek 
published an article entitled ``The Cooling World.'' Indeed, 
the temperature of the earth's climate had been falling for 30 
years, according to Newsweek's 1975 article. Climatologists 
everywhere were offering doomsday scenarios if public 
policymakers such as yourself did not act quickly.
    Yet only 13 years later, in 1988, a NASA scientist 
testified before Congress that global warming was in effect and 
was serious. Thus began the current debate on global warming. 
Since 1988, studies on the cause of the current increase in the 
temperature of the earth's climate have resulted in 
contradictory conclusions regarding man's involvement. 
Scientists and politicians alike are using these findings to 
pursue their own political and geo-economic agendas.
    In his documentary, ``An Inconvenient Truth,'' Vice 
President Al Gore argues that unless we do something about 
CO<INF>2</INF> emissions, much of Greenland's ice will melt 
into the ocean, rising sea levels over 20 feet by the year 
2100. This is a serious claim. The U.N.'s Intergovernmental 
Panel on Climate Change, the IPCC, recently released the 
summary for policymakers, that you all received, that predicts 
a rise in sea level between 8 and 17 inches. There is a big 
difference between 20 feet and 17 inches.
    Research following the IPCC's climate change 2100, the 
scientific basis, reveals that much of their conclusions have 
been called into question or totally disproved, specifically, 
the famous hockey stick graph that was the basis for much of 
the Gore movie and the Kyoto Protocol. In fact, just this 
month, Science magazine published an article stating that the 
recent loss of Greenland's glaciers has reversed.
    Over the last 40 years, this body has encouraged the 
development of new technology that is clean, renewable and 
economically viable. For example, through technology, 
competition and scientifically sound regulation, Colorado has 
made tremendous strides in cleaning its environment. Denver is 
no longer known for its brown cloud. In fact, one might argue 
that our air is as clean as it was in 1893, when America the 
Beautiful was written from the top of our very own Pike's Peak.
    Colorado very proudly leads the world in the development of 
clean technology from power generation. The National Renewable 
Energy Laboratory, NREL, is located in Colorado and is 
pioneering this new frontier.
    On the eastern plains, our spacious skies have winds strong 
enough to sustain large wind farms. Colorado was on the cutting 
edge of this new development. Our eastern plains are blanketed 
with miles of amber waves of corn, and we are using this 
resource to develop ethanol in impressive quantities. 
Colorado's purple mountain majesties are covered by pine 
forests that are being decimated by pine beetles. In true 
western ingenuity, we see this problem as an opportunity to 
reinvigorate a once-dying lumber industry, using these dead 
stands as biomass and biofuel, another renewable energy source.
    Finally, Colorado is known for its blue skies and over 300 
annual days of sunshine. NREL is capitalizing on our 
environment to develop the next generation of solar 
technologies. The United States of America is the greatest 
Nation on the face of the earth. Through Government policies 
that encourage ingenuity and responsibility, our free market 
system has brought forth environmental advancements that man 
could have only dreamt of 40 years ago.
    To impede innovation and dictate policy through draconian 
regulation would only harm our economy and endanger our 
Nation's competitiveness and security. I pray the Lord will 
give you wisdom as you deliberate the interests of our Country, 
and may God shed His grace on thee.
    Thank you for your time.
    [The prepared statement of Mr. Harvey follows:]
      Statement of Hon. Ted Harvey, Senator, Colorado State Senate
    Thank you Madam Chair and thank you committee for having me here 
today.
    My name is Ted Harvey, and I currently serve in the Colorado State 
Senate. For the last 6 years I've served on the Agriculture, Natural 
Resource and Energy Committee. Additionally, I have a master's degree 
in public administration with a concentration in environmental law and 
policy.
    As you are aware there are many academic specialties in the field 
of environmental sciences. Trying to get the experts to agree on 
anything is almost impossible. The debate over global climate change is 
no different. The debate has been going on for almost 100 years.
    ``Geologists think the world may be frozen again.'' This was the 
headline in the New York Times on February 24, 1885.
    A January 2, 1939 article claimed the earth was growing warmer.
    On April 28, 1975, Newsweek published an article entitled ``The 
Cooling World.''
    Indeed the temperature of the earth's climate had been falling for 
30 years prior to Newsweek's 1975 article. Climatologists everywhere 
were offering doomsday scenarios if public policy makers did not act 
quickly.
    Yet, only 13 years later in 1988, a NASA scientist testified before 
Congress that global warming was in effect and was serious . . .  and 
thus began our current debate on global warming.
    Since 1988 studies on the cause of the current increase in 
temperature of the earth's climate have resulted in contradictory 
conclusions regarding man's involvement. Scientists and politicians 
alike are using these findings to pursue their own political or geo-
economic agendas.
    In his documentary An Inconvenient Truth, Vice President Al Gore 
argues that unless we do something about CO<INF>2</INF> emissions much 
of Greenland's ice will melt into the ocean, raising sea levels over 20 
feet by the year 2100. This is a serious claim. Where did he get his 
data?
    The UN's Intergovernmental Panel on Climate Change (IPCC) recently 
released their Summary for Policy Makers that predicts a rise in sea 
level between 8 and 17 inches by 2100. There is a big difference 
between 17 inches and 20 ft.
    Research following the IPCC's Climate Change 2001: The Scientific 
Basis reveals that many of their conclusions have been called into 
question or totally disproved--specifically, the famous ``hockey 
stick'' graph that was the basis for much of the Gore movie and the 
Kyoto Protocols.
    In fact, just this month Science Magazine published an article 
stating the recent loss of Greenland's glaciers has reversed!
    Over the last 40 years Congress has encouraged the development of 
new technology that is clean, renewable and economically viable. For 
example, through technology, competition and scientifically sound 
regulation, Colorado has made tremendous strides in cleaning its 
environment. Denver is no longer known for its brown cloud. In fact, 
one might argue that our air is as clean as it was in 1893 when 
``America the Beautiful'' was written from atop our very own Pikes 
Peak.
    Colorado proudly leads the world in the development of clean 
technology for power generation. The National Renewable Energy 
Laboratory (NREL), located in Colorado, is pioneering this new 
frontier.
    On the eastern plains, our spacious skies have winds strong enough 
to sustain large wind farms. Colorado is on the cutting edge of this 
development.
    Our eastern plains are blanketed with miles of amber waves of. . .  
corn, and we are using this resource to develop ethanol in impressive 
quantities.
    Colorado's purple mountain majesties are covered by pine forests 
that are being decimated by pine beetles. In true western ingenuity we 
see this problem as an opportunity to re-invigorate a once dying lumber 
industry using these dead stands as biomass for biofuel--another 
renewable energy source.
    Finally, Colorado is known for its blue skies and over 300 annual 
days of sunshine. NREL is capitalizing on our environment to develop 
the next generation of solar technologies.
    The United States of America is the greatest nation on the face of 
the earth. Through government policy that encourages ingenuity and 
responsibility, our free market system has brought forth environmental 
advancements that man could have only dreamt of 40 years ago.
    To impede innovation and dictate policy through draconian 
regulation would only harm our economy and endanger our Nation's 
competitiveness and security.
    I pray that Lord will give you wisdom as you deliberate the 
interests of our country and may God shed his grace, on thee. . . . 
Thank you for your time.

    Senator Boxer. I pray we do something about global warming. 
God is testing us, that is for sure.
    The Mayor of Seattle.

   STATEMENT OF HON. GREG NICKELS, MAYOR, CITY OF SEATTLE, WA

    Mayor Nickels. Thank you, Madam Chair and members of the 
committee. As the others have observed, it is an honor to be 
here and a pleasure to be able to talk about this important 
issue. I want to thank Senator Cantwell for her kind 
introduction.
    It is also a pleasure to be in front of the committee with 
three former mayors sitting on the committee, because I know we 
are in good hands.
    I am here today representing the 600,000 people of Seattle, 
and as co-chair of the U.S. Conference of Mayors' Climate 
Protection Council. I have submitted longer comments for the 
record, but I will keep my remarks before the committee brief 
this morning. Five years ago, when I became Mayor of Seattle, I 
was like a lot of people in this Country. I knew about global 
warming, I thought it was a serious problem, but I thought it 
was a long way away and far into the future.
    The ``aha'' moment for me came during the winter of 2004 
and 2005, which in the Cascade Mountains was a winter without 
snow. That is a bad thing. There was no ski season, and of 
course, that is a tragedy in and of itself. But for Seattle, we 
rely on that snow for our water and for our hydroelectric 
power. We have century-old systems, sustainable systems that 
captures that snow melt and turns it into drinking water and 
into very clean power.
    As I got weekly reports from my directors of water and 
power, it became clear that global warming was not a distant 
threat and it was not far in the future: it was happening today 
and it was happening in our community. In fact, according to 
the University of Washington's climate impact group, the 
average snow pack in the Cascade mountains has declined by 
about 30 percent since the end of World War II and even more in 
some of the lower elevation areas that we rely on for our water 
and our power.
    That winter, of course, the Kyoto Protocol went into effect 
in 141 countries but not in the United States. I was frustrated 
by the lack of action by our Country at the Federal level, so I 
pledged that Seattle would take local action to meet or exceed 
the reductions set by the Kyoto Protocol, specifically 7 
percent reduction by the year 2012. But I also realized that if 
Seattle did this alone, as Senator Craig pointed out, it would 
be purely a symbolic gesture, it would mean very little.
    So I challenged other mayors around the Country to join 
with me in this effort, and as of today 409 mayors have signed 
onto the U.S. Mayors Climate Protection Agreement and each and 
every one of them has pledged to take local action to reduce 
global warming pollution. Just to put that into perspective, if 
we were a country we would be slightly larger than the 
population of Italy, we would be equal to the population of the 
United Kingdom and we are catching up on France. These are 
mayors who are Democrats, Republicans and Independents. They 
are leaders of some of our largest cities, New York and Los 
Angeles and Chicago and Philadelphia and some of our smaller 
cities as well. They range from Boozman, MT to Akron, OH, from 
Belleview, NE to Burlington, VT, and Cleveland, OH, to Des 
Moines, IA.
    We are very much not a symbolic effort. You have not 50 
laboratories, you have 409 laboratories that are working to 
find creative ways to reduce greenhouse gas emissions.
    I pulled together community leaders in Seattle to figure 
out what we could do to reduce our emissions by 680,000 tons, 
which would be equivalent to that 7 percent. We are building 
our first light rail system. The cruise ships that visit our 
port plug into shore power, instead of running their diesel 
engines when they are in our city. We have among the most 
energy efficient green buildings of any city in the United 
States, and we are encouraging more and more people to give up 
long commutes and live instead in the heart of our city.
    Our publicly owned electric utility, Seattle City Light, is 
the first major power supplier in the Country to be greenhouse 
gas neutral. We literally are powering our city without 
toasting the planet. But we have a much bigger challenge ahead 
of us, Madam Chair, and I want to just suggest three things----
    Senator Boxer. If you do it quickly.
    Mayor Nickels [continuing]. That I would like this 
committee to face. One, like California, we believe a strong 
cap on emissions is necessary, 80 percent by the year 2050, we 
see as supported by science. Second, we believe that a cap and 
trade system will encourage markets to behave in a way that 
will reduce greenhouse gas emissions. Those are top down 
approaches that will get us part of the way.
    But in order to get all of the way, you are going to need 
to engage the people of America in this effort at the grass 
roots. Recognize the role of cities. For the first time in 
human history, we represent more than half of the people who 
live on this planet and we consume more than 75 percent of the 
energy that is consumed on this planet. Use us as laboratories. 
Create, based on the very successful Community Development 
Block Grant model, an energy and environment block grant, so 
that we can take these ideas and bring them up to scale, that 
can make a difference not only for our Nation, but for our 
globe.
    Thank you.
    [The prepared statement of Mayor Nickels follows:]
             Statement of Greg Nickels, Mayor, Seattle, WA
                              Introduction
    Chairwoman Boxer, Ranking Member Inhofe, members of the committee, 
thank you very much for the invitation to testify before you today. 
More importantly, thank you for your leadership on an issue of 
paramount importance to our nation: global climate disruption.
    We are at a historic juncture in this country. The scientific 
consensus on global warming is increasingly clear and unequivocal--it 
is happening and human activities are causing it.
    My message to you today is twofold:
    First, let's act now. Let's not wait until the 111th or 112th 
Congress. Let's seize the moment. Put in place a clear, strong and 
effective federal policy that is necessary to stabilize the climate: 80 
percent reduction of greenhouse gas emissions by 2050, based on 1990 
levels.
    Second, America's mayors are ready, willing and able to work with 
you to develop and implement this policy. We are ready to build public 
support in our communities--including our business communities--to meet 
this challenge. We are ready to implement local solutions. In fact, 
many of us are already doing just that.
    U.S. Mayors Climate Protection Agreement 409 mayors across the 
country have signed on to the U.S. Mayors Climate Protection 
Agreement\1\ that I initiated with eight other mayors just over 2 year 
ago. These mayors represent over 60 million people--nearly a fifth of 
the U.S. population--in all 50 states, plus the District of Columbia. 
They are Democrats, Republicans, and Independents. They are leaders of 
some of our biggest cities and smallest towns--from Richmond, Virginia 
and Bozeman, Montana to Akron, Ohio and Cookeville, Tennessee.
---------------------------------------------------------------------------
    \1\ See Attachment A: U.S. Mayors Climate Protection Agreement. The 
resolution can also be found at: http://www.usmayors.org/uscm/
resolutions/73rd--conference/env--04.asp
---------------------------------------------------------------------------
    Like most economic and environmental issues, climate disruption 
does not follow geographic or political boundaries. Its impacts affect 
us all; however the opportunities that global warming solutions present 
are open to all. That's why the U.S. Mayors Climate Agreement has 
resonated across the country, regardless of where cities are on the 
map, and where mayors sit on the political spectrum. That's why 
Republican mayors from cities such as New York; San Diego; Bellevue, 
NE; and Arlington, TX have joined Democratic mayors such as myself.
    In signing the Agreement, these 409 mayors\2\ are pledging to take 
local action to significantly reduce greenhouse gas emissions in their 
own communities. Cities across our nation are pledging support for 
bipartisan greenhouse gas reduction legislation that includes (1) clear 
timetables and emissions limits and (2) a flexible, market-based system 
of tradable allowances among emitting industries.
---------------------------------------------------------------------------
    \2\ See Attachment B: Map of the Participating Cities. The map is 
updated at: http://www.seattle.gov/mayor/climate/default.htm#who
---------------------------------------------------------------------------
    We are not just signing a piece of paper. We are making tough 
choices. We are investing our taxpayers' money. We are transforming our 
cities into laboratories for climate protection. In short, we are 
making a difference, and laying the groundwork for strong federal 
policies and programs.
    For example, we are making the sometimes difficult but necessary 
changes to land-use policies and regulations. We are reining in sprawl 
and increasing density in our urban cities, changes that reduce energy 
and fuel use by cutting greenhouse gases an average of close to 30 
percent.
    We are investing heavily in public transit, building more bike 
paths and making it safer for pedestrians to walk to work, school and 
parks. By doing this, fewer people will need their cars to get around.
    We are walking the talk. City governments are using their 
purchasing power to buy electric hybrid vehicles and biodiesel for our 
fleets, energy-efficient computers for our offices, and super-efficient 
LED (light-emitting diode) bulbs for our traffic signals. We're 
designing ``green,'' energy-efficient buildings and re-using methane 
gas at our landfills and wastewater treatment plants.
    We are doing many of these things in Seattle. But we are most proud 
that our publicly-owned utility--Seattle City Light--is the first 
electric utility in the nation to be greenhouse gas neutral. It has 
achieved this through conservation, using renewable energy resources 
and investing in offset projects that lower our city's carbon 
footprint, encourage new business opportunities and improve local air 
quality. For example, City Light is working with the cruise ship 
industry to connect ships to shore power while in port rather than burn 
diesel. We have launched a biodiesel program that pays for the use of 
this cleaner fuel in local buses, Washington State ferries and city 
trucks. These and other programs are economically efficient and will 
help us lower greenhouse gas emissions.
    Seattle is certainly not alone in such pioneering efforts.
    The city of Irvine, California, the city is supporting the Zero 
Emission Vehicle Network Enabled Transport program (ZEV-NET), which 
makes zero-emission vehicles available to participating employers and 
their employees.
    Burlington, Vermont has a Climate Action Plan and joined the 10 
Percent Challenge Campaign. The campaign challenges everyone--
individuals, businesses, the city and others--to reduce their emissions 
by 10 percent or more.
    In Dayton, city leaders are switching traffic signals to LED 
technology at hundreds of intersections, reducing carbon emissions 
significantly. They have also developed a co-generation facility at 
their wastewater treatment facility. Its engines use methane gas 
produced at anaerobic digester plant.
    Alexandria, Virginia, the historic city just across the Potomac, is 
modernizing its buildings to LEED standards. They have funded this 
project through bond revenues and the annual budget.
    In St. Paul, Minnesota, the city initiated the Saint Paul 
Environmental-Economic Partnership Project in 1993 to implement its 
Urban CO<INF>2</INF> Reduction Plan. This plan includes diversifying 
transportation options, reforesting the urban landscape, increasing 
energy efficiency, promoting alternative energy and increasing 
recycling and reducing waste.
    The list goes on and on. Our nation's commitment to climate 
protection grows stronger each day.\3\
---------------------------------------------------------------------------
    \3\ These examples and others can be found in Energy and 
Environment: The United States Conference of Mayors Best Practices 
Guide, January 2007. To learn more about the Burlington, Vermont 
example, please go to: http://www.burlingtonelectric.com/SpecialTopics/
Reportmain.htm .
---------------------------------------------------------------------------
    Why are a growing number of mayors and communities making global 
warming a local priority? There are three key reasons.
    First, we're increasingly concerned about local impacts, not only 
on our urban environments, but on our economies and overall quality-of-
life. We are the first responders to emergencies and we will feel the 
most immediate effects of rising seas, more fires, more unpredictable 
weather patterns. In Washington State we are already beginning to see 
some of the impacts of global climate disruption in the Cascade 
Mountains, where changing snow melts and shrinking glaciers threaten 
our major source of water and electricity.
    Second, we're excited about the economic opportunities presented by 
this challenge to make our cities more climate-friendly--opportunities 
for our families and businesses to save money through increased 
efficiencies, and opportunities for our companies to create jobs and 
revenues by inventing and producing cleaner energy sources and 
technologies. In the Seattle area, for example, green building and 
biodiesel production already are emerging as strong and growing sectors 
of our economy.
    Third, we feel a strong sense of responsibility. A large percentage 
of the world's energy--something on the order of 75 percent--is 
consumed in or by the world's cities. So we can't solve global warming 
without making our cities significantly more energy-efficient and less 
dependent on fossil fuels. Cities are on the critical pathway to a 
global solution. And American cities, in particular--among the 
wealthiest on Earth--have a responsibility to lead the way.
                          seattle's experience
    That's why in February of 2005-- a year in which we were nearly 
``snowless in Seattle''-- I challenged my own community to meet or beat 
the climate pollution-cutting goal of the Kyoto Protocol, and invited 
my fellow mayors across the country to do the same. In the longer term, 
I believe much deeper cuts are necessary. But I wanted to challenge the 
government and the community to make significant cuts in the short-
term, on my watch as mayor: 7 percent reductions from 1990 levels by 
2012.
    By that time, we already had reduced our city government emissions 
by about 60 percent from 1990 levels, thanks in large part to the 
efforts of our publicly owned utility--Seattle City Light--to make 
itself the Nation's first ``climate-neutral'' utility. We also had 
aggressive recycling, green building and green fleet management 
programs underway.
    But despite our success as a city government, we saw that 
community-wide emissions were rising dramatically, driven in large part 
by motor vehicle emissions. So we turned our attention to shrinking the 
community's ``carbon footprint.'' We established a Green Ribbon 
Commission on Climate Protection consisting of about 20 of our 
community's most-respected leaders and experts. It was co-chaired by 
Denis Hayes, the president of the Bullitt Foundation and founder of 
Earth Day, and Orin Smith, the now-retired CEO of the Starbucks Coffee 
Company. And it includes the president of the board of REI, Inc., Bill 
Ruckelshaus, the three-time U.S. EPA Administrator, and many other 
leaders from the business, government, and nonprofit sectors.
    The commission spent a year poring over data and reviewing best 
practices from around the world. Their work culminated in the Seattle 
Climate Action Plan, which I released in September of 2006.\4\ This is 
a blueprint for significantly reducing greenhouse gas emissions in our 
community. It features a variety of strategies for reducing car-
dependence in Seattle, increasing fuel efficiency and the use of 
biofuels, and improving energy efficiency and the use of renewable 
energy sources.
---------------------------------------------------------------------------
    \4\ See Attachment C: Seattle, a Climate of Change: Meeting the 
Kyoto Challenge-Climate Action Plan Executive Summary, September 2006. 
The Executive Summary and the full report can also be found at: http://
www.seattle.gov/climate/.
---------------------------------------------------------------------------
    We've created the Seattle Climate Partnership, a voluntary pact 
among Seattle-area employers to assess and reduce their own carbon 
footprints, and to come together to help meet our community-wide goals. 
Thirty employers have joined the Partnership already, including 
Starbucks, REI, the Port of Seattle, the University of Washington, 
GroupHealth Cooperative, the Fred Hutchinson Cancer Research Center and 
the Greater Seattle Chamber of Commerce.
    Seattle does all this because our citizens are demanding it. They 
expect leadership from their elected officials, their business leaders 
and their public power agencies to step up to this tremendous challenge 
we all face.
    In addition to the activities we are undertaking in Seattle, the 
State of Washington is also moving toward implementing a climate plan. 
The governor has just issued an Executive Order calling for the state 
to implement a climate action plan that includes greenhouse gas 
reduction targets. Likewise, there are over a dozen bills pending 
before our state legislature calling for actions dealing with climate 
change. And this past Monday, my governor announced that Washington 
will join with Oregon, California, Arizona and New Mexico to form the 
Western Regional Climate Action Initiative, pledging to work together 
to reduce greenhouse gas emissions.
    However, while voluntary actions by cities or state mandates are 
important what we really need is federal leadership. Not just because 
it is the most powerful way to confront this problem but also because 
it will allow us to achieve the most reductions for the least costs to 
our economy.
    We believe this is the year for federal action. Specifically, we 
believe Congress needs to adopt a greenhouse gas reduction plan that 
calls for a hard and declining cap on emissions and allows for carbon 
trading among entities. To achieve the most reductions at the lowest 
possible cost we believe that this trading program should allocate 
allowances in ways that encourage hydropower and other renewable 
resources, rewards past and future conservation and energy efficiency, 
and recognizes credit for early action.
       united states conference of mayors and the 110th congress
    I am pleased that the U.S. Conference of Mayors has been the 
leading local government organization on this issue. The U.S. 
Conference of Mayors led by Mayor Douglas Palmer of Trenton, New 
Jersey, recently released its 10-Point Plan, for Strong Cities, Strong 
Families, for a Strong America at our 75th Winter Meeting.\5\ The 
mayors were so pleased, Madame Chair, that you could join them to share 
your vision on the need for action by Congress to further the nation's 
progress on climate protection.
---------------------------------------------------------------------------
    \5\A copy of 10-Point Plan, for Strong Cities, Strong Families, for 
a Strong America can be found at: http://usmayors.org/uscm/news/press--
releases/documents/10-PointPlan.pdf
---------------------------------------------------------------------------
    In our 10-Point Plan, the nation's mayors have made action on 
federal climate legislation our lead issue. As I have noted, the mayors 
want to play a strong role in helping you and members of this committee 
make the federal policy changes that will further progress in our 
communities, in our states and the nation.
    The mayors are proposing an Energy and Environmental Block Grant 
initiative, modeled after the very successful Community Development 
Block Grant program. We believe such an initiative is particularly 
critical at this juncture as cities strive to expand their climate 
protection efforts. The nation has a real interest in expanding the 
many local initiatives that are underway in my city and others all 
across the country. This block grant would accelerate the many 
innovations emerging in our cities, which are the laboratories of 
future solutions to this vast challenge before us.
    Our goal with this block grant initiative would be to use federal 
grants to (1) improve community energy efficiency; (2) develop and 
implement community strategies to reduce carbon emissions, including 
but not limited to achieving ``carbon free'' buildings by 2030; (3) 
develop and implement community and transportation energy conservation 
programs; (4) encourage the development of new technologies and systems 
to decrease our dependence on foreign oil; and (5) promotion and 
development of alternative/renewable energy sources.
    We need the Federal Government to take on a leadership role now so 
that we move beyond the grassroots innovation that is blossoming in 
every state in the country. This Congress needs to move quickly to 
adopt meaningful carbon policies--ideally through a broad-based cap and 
trading program to reduce this country's greenhouse gas emissions. This 
will harness market forces and allow the powerful engine of our economy 
to find the most innovative and cost-effective solutions to this global 
challenge.
    Mayors from across the United States look forward to working with 
you on this challenge.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Responses by Greg Nickels to Additional Questions from Senator Cardin
    Question 1a. I noted with interest your reference to an effort at 
the Port of Seattle to have ships ``plug-in'' while at dockside, 
enabling vessels to turn off their diesel engines and thus reducing air 
emissions.
    Response. Seattle City Light, Seattle's municipal electric utility, 
worked with the Port of Seattle, Princess and Holland-America cruise 
lines, and the Puget Sound Clean Air Agency (PSCAA) to provide shore 
power connections to four ships that visit the Port of Seattle 
facilities. These ships are in Port on Friday, Saturday and Sunday 
during the cruise season, May through September. Princess has been 
using shore power since 2005 and Holland-America since 2006. City Light 
engineers worked closely with the Port and cruise lines on tight 
deadlines to make the project a reality. A grant from the EPA West 
Coast Diesel Collaborative helped defray some of City Light's costs. 
The cruise lines pay for the electricity they use, and City Light 
purchases the greenhouse gas reduction rights (offsets) that result 
from using electricity rather than diesel. In addition to reduced 
greenhouse gas emissions, the use of shore power also eliminated diesel 
particulate emissions while the ships are in port, an important health 
benefit.

    Question 1b. Would you please provide additional information to the 
committee on this innovative approach, including: Who pays for/
maintains the electrical hook-ups at dockside?
    Response. The cruise lines pay for and maintain the dockside 
electrical connections.

    Question 1c. Is the program voluntary or mandatory?
    Response. The program is voluntary.

    Question 1d. Is there an estimate of emissions reductions 
associated with this initiative?
    Response. When electricity is used instead of diesel, there are 
zero emissions at the dock location, an important health benefit since 
ports are often near major population centers. Studies by the Port of 
Seattle indicate that ``hoteling'' of ocean-going vessels is a source 
of criteria pollutants such as NOx, SO<INF>2</INF>, and particulates 
and diesel particulate matter. The overall emission reductions will 
depend on how the electricity is produced, and the emissions of the 
ship's diesel engines. If the northwest regional electricity market mix 
is assumed, Seattle City Light has estimated that several thousand 
metric tons of carbon dioxide are avoided each cruise season through 
the use of shore power.

    Question 1e. Are these air emission reductions part of the Clean 
Air Act Washington State Implementation Plan?
    Response. The cruise ship electrification is not part of the 
Washington SIP. It was implemented to reduce greenhouse gas emissions, 
sulfur dioxide and particulate emissions in the vicinity of the cruise 
ship terminal. Puget Sound Clean Air Agency negotiated it with the port 
and cruise lines after the cruise lines rejected the use of lower 
sulfur fuels while at the dock.
                                 ______
                                 
 Responses by Greg Nickels to Additional Questions from Senator Inhofe
    Question 1. It is estimated that even full implementation of Kyoto 
would impact global temperature by only 0.07C. What impact on global 
temperature will this program have? And at what cost to the 60 million 
residents of the 409-member cities? (Currently there are 527-member 
cities.)
    Response. The Kyoto targets embedded in the Mayor's Climate 
Protection Agreement (MCPA) are intended to be a first step to reduce 
greenhouse gas emissions by local governments and to spur action at the 
state and Federal Government levels. The Intergovernmental Panel on 
Climate Change (IPCC) has established the emission reductions necessary 
to truly normalize climate variability. Seattle endorses a long-term 
target of 60 percent emission reductions from 1990 levels, while 
remaining committed to the near-term target in the MCPA of 7 percent 
below 1990 levels by 2012.
    There are significant economic costs associated with inaction which 
could easily overwhelm costs associated with reducing greenhouse gases. 
Globally, the most recent report from the IPCC lists many widespread 
changes that are already being observed; many are considered warning 
signals of an already changing climate. For example, since the 1970's 
we have seen harsher and longer droughts in the tropics and subtropics 
and an increase in intense tropical cyclone activity in the Northern 
Atlantic. Heavy rain storms have increased over most land areas.
    The Pacific Northwest, where we are overwhelmingly reliant on 
hydropower, is particularly at risk. Seattle City Light, our city's 
publicly owned electricity provider, receives 90 percent of its 
electricity from hydropower, much of it from dams operating in the 
Northern Cascades. Snow packs have already been reduced in the Cascades 
since the end of World War II and University of Washington climate 
scientists expect to see this trend continue and even accelerate in the 
coming decades. Reductions in snow pack will reduce the viability of 
hydropower in the Pacific Northwest at great potential expense to area 
utilities and residents.

    Question 2. Were you aware that Claude Allegre--the former 
Socialist party Leader and geophysicist who is a member of both the 
French and U.S. academies of science who used to be a leading alarmist 
about global warming--has now reversed his position? He now thinks it 
may be due to natural variability and that this is about money. How do 
you respond to this statement?
    Response. The City of Seattle believes that human-related climate 
change is real; that it poses the single largest environmental threat 
with consequences for economies and communities throughout the world; 
that it is underway; and that Congress should act soon to pass 
legislation calling for greenhouse gas reductions. While continuing to 
press for national leadership to curb greenhouse gas emissions, the 
City of Seattle has chosen to take actions now, believing that local 
governments, citizens and businesses must lead by example.

    Senator Boxer. Thank you for that excellent testimony.
    Now we are going to hear from the Mayor of Des Moines, 
Frank Cownie, the Hon. Mayor. Welcome.

 STATEMENT OF HON. FRANK COWNIE, MAYOR, CITY OF DES MOINES, IA

    Mayor Cownie. Thank you, Madam Chair. I am Frank Cownie and 
I am the Mayor of Des Moines, IA, which is the capital of the 
great State of Iowa.
    As I thought about what I was going to testify to when I 
came here, one of the reasons we are so concerned about global 
warming and climate protection has to do with quality of life. 
We think that is our No. 1 asset. We have committed, in the 
city of Des Moines, to minimize all the costs and the causes 
that would jeopardize it and try to make strategic investments 
that we hope will improve that.
    It takes guts at every level of government, whether you are 
sitting in a Federal office or a State office or a local 
office, because the people are going to see the results of what 
we do or the consequences of what we don't do, and they are 
going to be people that we don't even know. They are 
generations away, mostly, and quite frankly, they will never 
vote for us. But we have to do it for them, that is part of our 
future and our calling.
    I will cite a few of the things and the initiatives that we 
have pursued in the city of Des Moines and were provided in my 
written testimony. We have a Mayor's Task Force that convenes 
citizens of every walk of life, whether they are low or 
moderate income, or those more well to do, that are coming 
together and looking at things that they can do in their homes, 
in their businesses, in their households. Our task force's 
written directives to the city council and the city manager, we 
have written resolutions, we have held town hall meetings with 
many national level environmental advocates, including 
Interfaith Power and Light president and founder, Sally 
Bingham.
    We have purchased hybrid vehicles for our police 
department. We have replaced other vehicles in other 
departments that operate on biofuels and we are told have a 30 
percent increase in fuel efficiency. We are retrofitting 
municipal buildings to become more energy efficient and improve 
the lighting and insulation and significantly reduce not only 
greenhouse gas emissions but operating costs.
    We have replaced incandescent street lights and stop 
signals with more efficient LEDs that already have saved us 
over $120,000 a year. We are encouraging the use and expanding 
our mass transit system, the Des Moines Area Rapid Transit 
System. We have recently entered into a contract for the 
development of a 100 million gallon ethanol production facility 
at our ag-emergent park which will be lead certified. Our 
regional solid waste landfill captures enough methane to 
provide electric power to 10,000 homes.
    All of our actions have not only benefited our bottom line, 
but we feel have improved the environment. Every level of 
government has its role, and Federal action, we feel, is needed 
now, because the challenge to protect our quality of life for 
every citizen is one that every city and every town across this 
Country faces.
    We cannot address this problem alone, quite frankly, we 
need your help.
    If I might take just a moment, a personal comment, we serve 
at the base level of government. We really are at the pothole 
level, people are in our faces every day. It seems to me that 
we cannot really impact climate change without people change. 
What people do in their everyday lives is the key. I sense a 
new awareness and a willingness on the part of Des Moines' 
citizens to seek change for the sake of the environment. If you 
can empower us at this pothole level of government to work 
directly with our citizens to develop grassroots solutions, we 
can achieve real progress.
    First, it is important for you to enact legislation to 
create Federal tax credits or other incentives that will 
promote energy efficiency. If I----
    Senator Boxer. Do you want to summarize the other action 
items for us?
    Mayor Cownie. Yes. I think we could look at other 
opportunities, like tax shifts from things that we want to 
things that we don't want, set standards, CAFE standards, 
renewable electric standards, packaging standards, recycling 
standards, water use standards, pedestrian-oriented development 
standards. Second, it is essential for you to fund research and 
development, so that we can commercialize some of the things 
through those programs with demonstration projects in our 
municipalities across this Country.
    [The prepared statement of Mayor Cownie follows:]
        Statement of Frank Cownie, Mayor, City of Des Moines, IA
    Chairman Boxer, distinguished members of the committee, good 
morning, and thank you for inviting me to testify about the important 
role of local governments in responding to global warming. My name is 
Frank Cownie, and I am the Mayor of the City of Des Moines, Iowa. My 
testimony today will focus on the leadership role that my city has 
played in practicing and promoting energy conservation.
    As both the capital and largest city, Des Moines is the cultural, 
economic, and geographic center of the State of Iowa. About 200,000 
people live in Des Moines, and the City is recognized as a center for 
government, education, business, culture, and the arts. Des Moines is 
also quickly becoming a national leader in using energy conservation 
and environmental protection strategies.
    I signed the Mayor's Climate Protection Agreement along with over 
400 other Mayors because our residents recognize that there is a finite 
amount of energy and resources available. Scarcity of resources 
increases costs. We view this as a crucial issue in protecting our 
economic vitality and our high quality of life. Our quality of life is 
our single greatest asset in Iowa, and we are committed to protecting 
it and to minimizing costs that would jeopardize it.
    That is why we have taken action at the local level. Last year I 
established the Mayor's Task Force on Energy Conservation and 
Environmental Enhancement to examine energy usage and environmental 
protection in Des Moines. We, as the local government, united the 
broad-based support of residents, businesses, faith-based and non-
profit organizations. In addition to the direction set by the Mayor's 
Task Force, my colleagues and I on the City Council have made 
sustainability part of our overall goals for the City. Our objective is 
to become a leader in promoting environmental sustainability and 
transportation alternatives. To that end, we are pursuing a number of 
green initiatives.
    One of our first major initiatives was introducing hybrid and 
alternative fuel vehicles into our city fleet. Our Police Department 
now uses hybrid vehicles for neighborhood patrol and in the detective 
bureau. As a routine practice, our centralized fleet management staff 
strives to obtain greater fuel efficiencies every time they purchase 
replacement vehicles. This is accomplished by writing bid 
specifications for smaller vehicles or vehicles that utilize 
alternative fuels, like biodiesel and ethanol.
    Another important piece of our goal for sustainability in Des 
Moines is about providing transportation options to give our residents 
alternatives to driving their cars. The Greater Des Moines region is 
building a one-of-a-kind trail system, with over 300 miles of 
recreational trails to connect Central Iowa. The City of Des Moines 
alone maintains 29 miles of trails, and we are adding more bike lanes 
to make it easier for our residents and visitors to bike and walk 
rather than drive their cars.
    The Des Moines Area Regional Transit Authority (DART) was created 
last year as a regional approach to public transit. DART is planning to 
expand its routes and hours of operation. This year, for the first 
time, buses will run on Sundays, which will make it more convenient for 
our residents to get around without their cars. The City is also 
leading by partnering with the State and the business community to 
provide the initial seed money for a downtown shuttle. This service 
will encourage downtown workers to choose transit, again--instead of 
their cars, to get around the central city during the day. This will 
ultimately reduce energy consumption and emissions.
    We're also working to improve the energy efficiency of our 
municipal buildings and infrastructure. We have improved lighting and 
installed timers in our City parking facilities and in some municipal 
buildings. We have replaced incandescent traffic signals with more 
energy-efficient LED bulbs to reduce our electricity consumption. This 
alone is saving the City $120,000 on energy costs. We have done 
numerous facility roof insulation upgrades to reduce heating costs and 
emissions.
    We have completed comprehensive upgrades in our fire stations and 
parks facilities. These include energy efficient windows and improved 
roof insulation. In one building, the roof insulation alone will reduce 
energy costs and greenhouse gas emissions by approximately 40 percent. 
As another unique improvement, we are installing a solar hot water 
heating system to augment an existing gas-fired water heater. A solar 
hot water heating system can supply, on average in the Midwest, 65 
percent of the demand for hot water. This will result in significant 
energy savings and reduced carbon dioxide emissions. The City is also 
working on LEED (Leadership in Energy and Environmental Design) 
certification for municipal buildings, with one currently under 
construction. All of these improvements are part of previously planned 
and budgeted upgrades. In Des Moines, we view routine maintenance as an 
ongoing opportunity to pursue energy efficiency.
    Our Park and Recreation Department staff and volunteers have been 
strong leaders in the sustainability movement, particularly as it 
relates to preserving our open land and green spaces. The Park and 
Recreation Department is pursuing water quality projects, natural 
management plans for parks, natural forest regeneration, and planting 
native species. By planting more trees and native prairie grasses, we 
reduce the need for irrigation, conserve water, and use less chemical 
fertilizers. In short, conservation has become our way of doing 
business in Des Moines parks. A ``Green Design Checklist'' helps to 
ensure conservation efforts are infused into the design of all parks 
projects.
    For its efforts, the City of Des Moines Park and Recreation 
Department won a 2006 Urban Steward Award from the Polk County Soil and 
Water Conservation District. The City of Des Moines was recognized for 
its recycling program as well. MidAmerica Recycling awarded Des Moines 
with a Certificate of Recognition for Recycling Excellence for 
recycling nearly 6,800 tons in 2006.
    The City of Des Moines is also engaged in promoting the research 
and development of alternative fuel sources. We are in the process of 
selling land in our Agrimergent Technology Park to a company for a 100 
million gallon ethanol production facility. As part of the contract, 
the business is required to produce a LEED-certified project and to 
pursue innovative technologies to reduce its natural gas consumption 
through alternative fuels that will be more environmentally beneficial 
and more cost-effective, such as biogas.
    Finally, the Metro Waste Authority in Des Moines is recovering 
enough methane at our solid waste landfill to provide electricity for 
10,000 homes. This electricity is sold and provides a revenue stream 
for the Authority. Like our other initiatives, this action not only 
benefits the environment, but it helps our economic bottom line.
    In closing, I want to encourage the committee that federal action 
on this issue is needed now, because the challenge to protect our 
quality of life is one that every city and town in the country faces. 
We cannot address the issue on our own. We need your help.
    First, it is important for you to enact legislation to create 
incentives to promote energy efficiency and reduce resource 
consumption. These incentives might include federal tax credits, CAFE 
standards, recycling standards, water use standards or packaging 
standards that take into account the life cycle costs of product 
manufacturing, use and disposal.
    Second, it is essential for you to fund (a) research and 
development activities that can be commercialized, (b) greenhouse gas 
emissions inventories, and (c) demonstration projects in which 
municipalities like Des Moines can participate to engage our residents 
to DO JUST ONE THING.
    Many of our local initiatives have been aimed internally at 
improving energy efficiency in our municipal buildings and fleet. The 
next step is to help our residents to recognize the environmental and 
economic benefits of practicing energy conservation. It can be as 
simple as using compact fluorescent light bulbs, dialing the thermostat 
down in winter and up summer, buying vehicles that use bio-fuels or 
hybrid technology, taking the bus to work, planning trips for 
efficiency, carpooling, walking, biking, and planting trees--all that 
result in saving money and in protecting resources for future 
generations. These are steps that every citizen can take.
    Similarly, we need to convene our business partners and key 
greenhouse gas emitters and begin to empower them to take actions that 
will make a difference. Imagine all of the resources that could be 
conserved and costs averted. Imagine all of the new business 
opportunities that could result from increased market demand.
    We have a choice. Either we can stay the course, working on our own 
with marginal success, or we can move forward in partnership with the 
Federal Government to create a significant, positive impact upon on our 
environment and economy. We choose to go forward. It is now time for 
federal action to invest in our future, our children's future, our 
grandchildren's future and with a vision for the next seven 
generations. We are committed to improving the quality of life in our 
communities and appreciate your leadership to assist us in 
accomplishing this far-reaching goal. Thank you.

    Senator Boxer. Thank you, sir.
    And last but not least, we welcome the Mayor of the city of 
Dover, Ohio, the Hon. Richard Homrighausen. Welcome.

   STATEMENT OF HON. RICHARD P. HOMRIGHAUSEN, MAYOR, CITY OF 
                           DOVER, OH

    Mayor Homrighausen. Good afternoon, Chairman Boxer, Senator 
Voinovich and committee members. My name is Richard 
Homrighausen and I am the Mayor of Dover, OH.
    Dover is a small community in southeastern Ohio with a 
population of approximately 13,000 members in the heart of the 
industrial midwest. There are more than 900 commercial and 
industrial business interests located in the city. As you would 
expect, our goal is to provide reliable, affordable services to 
these businesses and residents, including electric power. Our 
97- year history as a municipal electric community certainly 
supports these efforts.
    Dover's effort toward achieving our goal of affordable, 
reliable energy is accomplished by a diversified resource 
portfolio. With our onsite capacity, the city is able to 
generate 30 percent of its electric needs through a mix of 
coal-fired, coal with natural gas and diesel generation. In 
addition, the city owns 9 megawatts of capacity from AMP-Ohio's 
coal-fired Richard Gorsick station in Marietta, 1 megawatt of 
hydropower generated by New York Power Authority, 3 megawatts 
from a landfill gas joint venture and 3 megawatts generated by 
AEP. Any additional generation is purchased through our 
wholesale supplier, AMP-Ohio, a joint action organization with 
119 municipal member communities in five States on an as-needed 
basis.
    The reliability and security value of our onsite capacity 
was punctuated by the events of the August 2003 blackout in our 
part of the Country. While surrounding communities were without 
power for hours and in some instances days, the city of Dover 
never lost power. I am proud to say that Ohio is working to 
leave behind its outdated image as being the heart of the rust 
belt. Ohio's public power communities are leading the way in 
terms of environmentally responsible electric generation in our 
region, collectively, wind, run-of-the-river hydropower, and 
landfill gas are all part of the generation portfolio to 
available to AMP-Ohio member cities.
    Energy conservation is also a priority and something we 
have been working to implement and raise awareness of in the 
city of Dover. All of us share a concern about the environment 
and the recent attention being given to climate change, and the 
impact of greenhouse gas emissions is an important discussion. 
But as is usually the case, how best to address these issues is 
at the heart of the debate.
    My main concern is that the cost will fall 
disproportionately on the poor and the elderly, those least 
able to afford such measure, and that impact will hit 
especially close to home. Following the death of my wife 
Linda's father at age 45, my mother-in-law was able to raise 
her other two sisters and send them to school on her social 
security income alone. Today, her only source of income is her 
$720 social security check. She lives in a 928 square foot 
apartment that we were fortunate enough to be able to build for 
her next to our house. Twenty-four percent of her social 
security goes toward her utilities, $92 in gas and $80 for 
electric, water and sewer. Thankfully, she lives in a public 
power community that provides affordable and reliable electric 
generation by coal, or she would not be able to live alone. 
Granted, it is also a big help that we don't charge her any 
rent.
    [Laughter.]
    Mayor Homrighausen. My point is that it only leaves her 
$548 for food, medicine, insurance, gasoline and automobile 
expenses, cable and phone. Any increase beyond what she has to 
pay now would be devastating. Fortunately, she is not alone, 
but others are not as lucky.
    My point is to stress the importance of a message that 
there is no one-size-fits-all approach to addressing these 
issues. States are unique and have engaged on this issue in 
ways that make sense and work for them. A Federal program that 
sets limits on carbon dioxide and other greenhouse gases would 
disproportionately penalize some regions, including my own.
    Nationally, coal represents roughly one half of our 
available power supply, and that figure is higher in my region, 
with utilities emitting approximately 40 percent of all 
greenhouse gas emissions. Compare this to California, where 
coal has limited use in the generation of resource mix, and 
utilities are responsible for about 20 percent of the 
greenhouse gas emissions. In addition, California's economy 
does not reflect the same industrial base that exists in our 
region of the Country, an industrial base that supplies 
products throughout the Nation and is highly sensitive to 
electric prices in a global market. In-State generation of coal 
has not been an option for California utilities for decades, 
while the midwest region is highly dependent on coal-fired 
generation.
    Looking specifically----
    Senator Boxer. If you would like to wrap up, you have gone 
over time. If you want to leave us with one final fabulous 
idea.
    Mayor Homrighausen. As the committee continues to 
investigate climate change and consider possible new regulatory 
regimes, I urge you to remember cities like Dover, OH. Please 
recognize that we have an industrial base that helps supply the 
Nation, that we are located in a region with a still-struggling 
economy and that our part of the Country is historically 
dependent on coal-fired generation and doesn't have the ability 
to rely on renewable resources to the same extent as other 
regions.
    [The prepared statement of Mayor Homrighausen follows:]
     Statement of Richard P. Homrighausen, Mayor, City of Dover, OH
    Good morning Chairman Boxer, and members of the Committee on 
Environment and Public Works, my name is Richard P. Homrighausen, and I 
am the Mayor of the City of Dover, Ohio. As a Mayor from a small 
Southeastern Ohio town, I am honored to be invited for the third time, 
to testify before this committee and offer a state and local government 
perspective on climate change. I will focus my remarks on my concerns 
about how the regulations being discussed would impact local 
governments--especially those like my community, which owns and 
operates a small coal-fired generation facility.
    Dover, Ohio, with a population of approximately 13,000, is in the 
heart of the industrial Midwest, and I believe our experiences are 
shared by a great number of small to mid-sized municipalities across 
the region. There are more than 900 commercial and industrial business 
interests located in the City of Dover. As you would expect, our goal 
is to provide reliable, affordable services to these businesses and 
residents--including electric power. Our 97-year history as a municipal 
electric community certainly supports these efforts.
    Dover's effort toward achieving our goal of affordable, reliable 
energy is accomplished by incorporating a variety of different 
processes. The city-owned, 14-megawatt coal-fired powerplant (which is 
also co-fired with natural gas) is our main source of generation. An 
additional 18-megawatts of ``stand-by'' electricity can be generated by 
our natural gas turbine. We have seven diesel generators with a total 
capacity of 13.4 megawatts. Four of these diesel units are solely owned 
by the city and three are jointly owned by the city and AMP-Ohio. In 
addition to our on-site generation capacity, the city owns nine 
megawatts of capacity from AMP-Ohio's coal-fired Richard H. Gorsuch 
Generating Plant in Marietta, Ohio, one megawatt of hydro power 
generated by the New York Power Authority, three megawatts from a 
landfill gas joint venture, and three megawatts generated by AEP. 
Finally, any additional needs we have are purchased through our 
wholesale supplier, AMP-Ohio, on an as-needed basis.
    With our on-site capacity we are able to generate approximately 30 
percent of our energy demand locally. The reliability and security 
value of this local resource was punctuated by the events of the August 
2003 blackout in our part of the country. While surrounding communities 
were without power for hours, and in some instances days, the city of 
Dover never lost power. As noted, our partner in our effort to supply 
affordable reliable power to our community is American Municipal Power-
Ohio, a joint action organization with 119 member-municipal electric 
systems in five states.
    I'm proud to say that Ohio is working to leave behind its outdated 
image as being the heart of the ``rust belt''. Ohio's public power 
communities are leading the way in terms of environmentally responsible 
electric generation in our region. Collectively, wind, run-of-the-river 
hydropower and landfill gas are all part of the generation portfolio 
available to AMP-Ohio member utilities. Energy conservation is also a 
priority--and something we've been working to raise awareness of in the 
City of Dover.
    All of us share a concern about the environment, and the recent 
attention being given to climate change and the impact of greenhouse 
gas emissions is an important discussion. But, as is usually the case, 
how best to address these issues is the heart of the debate. I've read 
about various statistics relating to the impact of the different 
climate change proposals on the economy, on energy production and on 
energy prices. Since I am not a scientist or economist, I cannot debate 
the validity of such studies and whether their results are high, low or 
right on. However, I am concerned that the cost impact will fall 
disproportionately on the poor and elderly--those least able to afford 
such measures. And, that the impacts will hit especially close to home.
    Following the death of my wife Linda's father, at age 45, my 
mother-in-law raised Linda's two sisters on social security alone, and 
she was able to put them through college. Today, her only source of 
income is her $720 Social Security check. She lives in a 928-square-
foot apartment we were able to build for her next to our house. Twenty 
four percent of her Social Security goes for her utilities--$92 in gas 
and $80 for electric, water and sewer. Thankfully, she lives in a 
public power community that provides affordable and reliable 
electricity generated by coal or she would not be able to live alone. 
Granted, it is also a big help that we don't charge her rent, but my 
point is that almost a fourth of her income goes for utilities, which 
only leaves her $548 for food, medicine, insurance, gasoline and 
automobile expenses, cable and phone. Any increase beyond what she has 
to pay now would be devastating. Fortunately, she is not alone--others 
are not as lucky.
    My point is to stress the importance of the message that there is 
no ``one size fits all'' approach to addressing these issues. States 
are unique and have engaged on this issue in ways that makes sense and 
works for them. Some states have clean coal research and development 
programs, others have tax credits for renewable energy, and still 
others have renewable portfolio standards. A federal program that sets 
limits on carbon dioxide and other greenhouse gases could 
disproportionately penalize some regions. For example, for regions that 
are highly reliant on coal for delivery of electricity, or on natural 
gas for manufacturing, a federal mandatory program could be 
economically devastating--natural gas used for manufacturing would be 
diverted to electricity production and prices would become higher and 
much more volatile. This is something we have already experienced in 
recent years, although to a much smaller degree.
    One of the issues I was asked to consider in my testimony today was 
the California plan. There are obvious and important differences 
between California and other regions of the country. I believe that we 
need to strive to find answers that work to achieve desired goals--yet 
balance the needs of the entire nation, and in my case, Ohio in 
particular.
    Nationally, coal represents roughly one-half of our available power 
supply, and that figure is higher in my region with utilities emitting 
approximately 40 percent of all greenhouse gas emissions. Compare this 
to California where coal has limited use in the generation resource 
mix, and utilities are responsible for about 20 percent of the 
greenhouse gas emissions. In addition, California's economy does not 
reflect the same industrial base that exists in our region of the 
country--an industrial base that supplies products throughout the 
nation and is highly sensitive to electricity prices in a global 
market. In-state generation of coal has not been an option for 
California utilities for decades, but the Midwest region, and indeed 
the nation as a whole cannot shut coal out as a resource option--not if 
we also want to maintain our national goals of energy independence, 
reliability and affordability.
    One component, as I understand, of the California Plan is a 
utility-specific ban on long-term power supply agreements with coal-
fired plants that emit more carbon than a combined cycle natural gas 
plant. Presumably, this is a stocking horse for integrated gasification 
combined cycle technology, which has become the belle of the ball in 
terms of coal generation in recent years, and many people feel 
represents the future of coal generation. They may be right, and I 
certainly support advancements that allow us to burn coal more cleanly. 
But, with respect to IGCC, the reality is that there is not enough 
operational data on the performance of IGCC in real world applications 
to crown it the only option.
    There are, however, promising back-end control technologies for 
traditional coal facilities, such as ammonia and amine scrubbing, with 
the potential to capture carbon as well. As the debate moves forward in 
Congress, I believe it is important to focus on the desired end result 
and take a technology-agnostic approach to allow for the development 
and deployment of as many innovative options as possible. We need to 
ensure that workable options to reduce carbon emissions from coal 
plants are both viable and credible and take into account not only 
costs, but also operational considerations.
    Looking specifically at my community of Dover, Ohio, we are highly 
dependent on coal-fired generation, both through our local facility and 
our purchases from the wholesale market. However, unlike larger private 
utility companies, we do not own or have access to a fleet of 
powerplants that we can selectively control or shut down. Any new 
climate program must recognize these differences and provide meaningful 
options for cities like Dover.
    Of course, the logical question is ``What is Dover doing?'' As I 
mentioned, Dover generates a portion of our electric needs by operating 
a 14-megawatt coal-fired boiler, co-fired with natural gas burners. 
Dover was the first municipal electric utility to install co-firing in 
a commitment to reducing emissions at start-up. Dover is also 
investigating wind generation by planning to install wind monitors at 
three of our water towers and at a fourth site the city owns. Although 
Dover is located in the Tuscarawas Valley, which experiences 
intermittent wind flow, we won't know if wind generation is feasible 
until all pertinent data is collected. By late August of this year, 
Dover's new bag house will be in operation, which will further reduce 
the emissions from our coal-fired unit. As we speak, our antiquated 
Boilers #1, #2 and #3 are in the process of being demolished to provide 
the needed space in our generating facility to install new, state-of-
the-art clean coal generation should it become affordable. In the mean 
time, through our wholesale power supplier, Dover is a participant in 
the development of new coal-fired generation utilizing proven 
generation technology with innovative back end control technology, and 
we are participating in a pilot studying potential carbon capture 
methods. Through our wholesale supplier, we are also part of the 
Midwest Regional Carbon Sequestration Partnership.
    Public power communities in my region have taken important steps to 
diversify our existing generation supply and utilize ``clean'' 
resources, including wind, landfill gas and run-of-the-river hydro 
power--and have been recognized statewide and nationally for those 
efforts. These investments have been at a scale and scope that work for 
our region--and we are looking at additional generation investments 
that are carbon free.
    The City of Dover has been designated a ``Tree City USA'' for 26 
consecutive years. During that time we have planted 3,540 curb strip 
trees. Additionally, for the past 23 years the city has distributed an 
average of 235 Dogwood trees to all first-grade students in the Dover 
grade schools, for a total of 5,405 additional trees. The city has 
three parks with several thousand trees, or an additional +/- 6,000 
trees. Since the mid 1980's the city has developed 13 residential 
allotments ranging in size from 12 lots to 150 lots, with each lot 
required to have a least one tree planted. (The majority of these trees 
are included in the curb strip tree numbers). This does not take into 
account all of the other trees in the city that are on private property 
and in addition to our curb strip trees. All combined, a minimum of 
15,000 trees have been planted within the city over the last 26 years.
    Energy efficiency is clearly a critical component in the climate 
change equation, since reduced consumption of electricity in most cases 
reduces emissions and in all cases postpones the need for new 
generation. We are utilizing tools that provide practical advice in 
energy conservation available from our national association, the 
American Public Power Association, for use with our consumers. The city 
has an energy audit program, working with our largest customers to help 
them identify the benefits of increased use of energy efficient 
lighting and other measures to reduce energy demand. We have made 
conservation a theme in communications with our residential customers 
through festivals and other events, emphasizing the critical importance 
of reducing demand. We routinely distribute energy information and 
energy conservation tips in our monthly utility bills. The city has 
also accomplished system upgrades, improving voltages and increasing 
overall efficiency of our electric system. The city has changed our 
street lighting program by replacing high voltage, high energy street 
lights with energy efficient street lights. Dover has 2892 total street 
lights. To date we have replaced 2250 or 78 percent of our street 
lights. The monthly savings in kWhrs realized is 18,667. It takes 1.35 
pounds of coal to generate 1 kWhr of electricity. Multiplying 18,667 
kWhrs by 1.35 equals 25,200.45 pounds of coal or 12.6 tons of coal per 
month which equals 151.2 tons of coal the City of Dover does not have 
to burn just by changing our street lights. Once we complete our 
change-out program this year, the City of Dover will save an additional 
43 tons of coal on an annual basis. In addition, we have held mercury 
thermometer recycling events, which not only keep these devices 
containing mercury out of our solid waste streams, but also serve to 
remind residents to ``think globally and act locally.'' These are 
outward and visible examples of a commitment to a clean environment and 
to future generations.
    As the committee continues to investigate climate change and 
consider possible new regulatory regimes, I urge you to remember cities 
like Dover, Ohio. Please recognize that we have an industrial base that 
helps supply the nation, that we are located in a region with a still-
struggling economy, and that our part of the country is historically 
dependent on coal-fired generation and doesn't have the ability to rely 
on renewable resources to the same extent as some other regions.
    Please also recognize that we understand the need to be responsible 
environmental stewards and are looking for ways to balance the desire 
to do so with our need to maintain a viable economy. A plan that starts 
everyone at ``square one'' and doesn't recognize the investments 
already made is neither viable nor credible. In short, don't penalize 
us for our past good behavior, nor unreasonably restrict our ability to 
meet the needs of our community. We also encourage you not to pre-empt 
state efforts to tailor programs that work to balance the unique needs 
of the varying regions of our great country.
    I would hope that any regulatory structure enacted would be 
economy-wide and apply to all industry sectors, would take into account 
the financial impacts on consumers and protect the ability of the 
United States to compete in a global marketplace, and would recognize 
the need to maintain reliability and protect national security. I also 
whole-heartedly welcome investments the Federal Government can make in 
advancing a range of clean-coal technologies, renewable energy 
generation and energy efficiency programs that benefit all utility 
sectors and consumers.
    This committee, and Congress, has an enormous task at hand. I would 
ask you to consider the information I have presented, the information 
presented by my fellow panelists and all other pertinent information 
available, prior to finalizing any legislation. Please keep in mind 
that passing legislation too quickly increases the risk of passing the 
wrong legislation.
    Again, I want to thank you for this opportunity and your work on 
this issue, and I look forward to responding to any questions you might 
have.
                                 ______
                                 
 Responses by Mayor Richard Homrighausen to Additional Questions from 
                             Senator Inhofe
    Question 1. Mayor Homrighausen, if a federal law were enacted 
similar to California's and the Executive Order signed by Governor 
Corzine, what impact would that have on people like your mother-in-law?
    Response. The impact these measures will have on people like my 
mother-in-law will be devastating. While the intent of these measures 
is noble the reality is that the average American cannot afford the 
costs associated with compliance. As I see it, these measures are a 
back door attempt to achieve the Kyoto Protocol, which the majority of 
the American people and Congress do not agree with.
    It would be a different story if the 2 largest contributors to 
global warming, China and India, were made to comply, but they don't so 
the majority of the burden will lie on the backs of the American 
people. Additionally, Mexico, where a great deal of America's jobs have 
been outsourced to, does not have to comply, which only makes this 
burden the more unbearable.
    If we are to be serious in our attempt to curb global warming 
Congress must take measures to invoke serious economic sanctions on all 
countries, whether they be developing countries or not, who are not 
being good stewards of our environment by emitting vast quantities of 
pollutants into our atmosphere. If these measures are not taken then 
enacting these measures on our own people will be a hollow attempt, and 
fall far short in curbing a worldwide problem.
    As I have pointed out in my testimony, my mother-in-law cannot 
afford any additional cost beyond those she already has. Any increase 
in compliance costs will directly impact, not only my mother-in-law, 
but all people in our country.

    2Question 2. Mayor, you testified about the industrial base in your 
region which supplies the nation. If draconian policies are put in 
place which dramatically increase natural gas price volatility, what 
will that do to your local economy and those of neighboring Ohio towns 
and cities?
    Response. Dover is already experiencing the effects of high natural 
gas prices. Dover was the first Municipal Electric Utility in the 
country to install natural gas burners to co-fire our start-up process 
in an attempt to reduce our emissions. The high cost of natural gas has 
caused the city to limit the use of these burners because the cost far 
exceeds the benefit gained by burning natural gas.
    As natural gas prices increase the cost of doing business 
increases. As the cost of doing business increases the cost of goods 
produced increases. As the cost of goods produced increases profit 
margins decrease so does the competitive edge of any given company. As 
the ability to compete is reduced the desire to outsource these goods 
is increased. Once goods are outsourced these jobs are gone. The City 
of Dover, and/or any city in the country, need only look at the number 
of manufacturing jobs that have been lost over the past several years 
to determine what any major spike in natural gas prices will do to our 
economy.
    If you have an entire country dependant upon the majority of its 
electricity being supplied by natural gas generation then you have a 
recipe for disaster. The United States cannot afford to continue to put 
us at a disadvantage by placing more and more stringent requirements on 
our industry. Congress has to be serious about its desire and 
commitment to developing clean coal technology in order for us to 
continue to be the leader of the free world.
    During the hearing I was appalled when Senator Sanders made the 
following statement (on page 79 of the transcript) `` . . .  I am 
wondering what we could do at the Federal level. There have been some 
indications that if we literally gave away, gave away compact 
fluorescent light bulbs, we end up saving money.'' Now I totally 
understand the intent is to lower our energy usage which in turn 
reduces the amount of electricity needed, which reduces our demand for 
energy and the emissions from generation, which saves money everyone 
money. However, what I don't understand is why anyone in the Federal 
Government would even consider giving billions and billions of dollars 
to one of the worst polluters in the world--China--where these bulbs 
are made?
    Dover is home to one of the last incandescent light bulb 
manufacturing facilities in the country, General Electric, where they 
manufacture the filament used in incandescent bulbs. If the Federal 
Government were to supply billions of CFB's to our citizenry then GE in 
Dover will close. Why not expend these monies on producing affordable 
CFB's ``MADE IN AMERICA'' instead of funding our major competitor?

    Senator Boxer. I think that is a very important point, 
Mayor.
    So we have heard from everybody, it has been a terrific 
panel. I am going to use my 4 minutes to make a couple of 
comments, ask a question of my Californians. But I just wanted 
to point out, Mr. Harvey, before you leave, I want to give you 
this interesting article. It is so amazing that today this 
article would run. In the Washington Post, rapid warming 
spreads havoc in Canada's forests, tiny beetles destroy pines. 
Millions of acres of Canada's lush green forests are turning 
red in spasms of death. A voracious beetle whose population 
exploded with the warming climate is killing more trees than 
wildfires or logging. ``It's pretty gut-wrenching,'' said Allen 
Carroll, a research scientist at the Pacific Forestay Center in 
Victoria, whose scientific studies tracked a lockstep between 
warmer winters and the spread of the beetle. ``People say 
climate change is something for our kids to worry about. No, 
it's now.''
    Then, this is what really caught my attention in the 
article. Ironically, the town is booming. The beetle has killed 
so many trees, the officials have more than doubled the 
allowable timber harvest, just taking a lead from you, so 
loggers can cut and haul away as many dead trees as possible 
before they rot. The icy roads are choked with giant trucks 
growling toward the mills loaded with logs, marked with the 
telltale blue stain fungus. But the boom will end when what 
people hear called beetle wood is removed or rots out, and no 
one is sure how long it will take. The forest industry will be 
running at about half speed.
    So the point of this is, it is ironic that you mentioned 
the great opportunity you had. But this is a tragedy in the 
long run. We need to avoid the tragedy. I don't think it is a 
great thing to sit here and say, well, we will preside over the 
end of the forests. It is not right. We did inherit God's green 
earth and we do have an obligation. By the way, I agree with 
those of you from the coal States who are throwing up a red 
flag. We have to work together to make this work.
    So here is my question for my Californians, my heroes of 
the day here, along with Mayor Nickels and Mayor Cownie. But 
they are my home-grown heroes. Here is the thing. The others 
are making it sound like, some of the others who oppose what 
you are doing, in essence, or don't seem to understand it or 
don't get it, they are saying it was a piece of cake. Now, I 
don't understand how it could be so easy. It wasn't easy. The 
fact is, we drive more cars than anyone. Cars are responsible, 
mobile sources, for about at least a third of the problem.
    So I just want to ask you politically, it makes it look 
like this was the easiest thing in the world. If you could give 
us a sense of how it was. I don't think it was that easy.
    Mr. Nunez. Well, it certainly was a big challenge to pass 
Assembly Bill 32 in California last year. Just ask the oil 
refinery industry, for example, or the cement industry, for 
that matter, or heavy manufacturing in California, the utility 
industry. But I think in essence people realize that we are 
seeing the effects of global warming, as others are, at the 
local level.
    Just a quick example, the Sierra snow pack started melting 
in 2004 in mid-March, which was the earliest in 90 years. In 
essence, we rely on that snow pack to eventually get us water 
to southern California and to sustain the agricultural industry 
in the Central Valley. So I think in essence what happened is 
people were thinking that perhaps this was not a good idea, 
this was a tough thing to do, these standards were tough 
standards, albeit California has already played a major role in 
conserving electricity and gas and energy. Conservation has 
always been a big part of our home stay in California, as you 
know, Senator. We have always been very conscientious about 
water quality and air quality.
    But we felt that we needed to go further. Here is the 
reason why. I listened very carefully to what some of the 
Senators said earlier, who perhaps feel that we need to wait 
until countries like India or China act. Here is the problem. 
We represent, at the global level, as a Country, less than 5 
percent of the population of the world, yet we are responsible 
for over 30 percent of the world's emissions. In China, they 
are building a coal plant a week. India is going through the 
same type of industrial revolution that we went through over 
150 years ago. Yes, they are big polluters. But if we wait for 
them to act and don't play a central role at the global level 
as a Nation, there is a lot to lose. I believe that we owe it 
to our children and our children's children to act now.
    This wasn't easy to do in California. It was tough. It was 
a tough choice to make, not just for us as legislators, 
certainly for the Republican Governor in our State, Governor 
Schwarzenegger. It was a tough decision for him to make. But we 
did it because we believed that it was not only our 
responsibility, Senator, but our obligation to act.
    Senator Boxer. Thanks. Don, do you have anything quickly to 
add?
    Mr. Perata. California is really a self-contained 
laboratory. What we have found, the Speaker mentioned cement. 
We found that once we started talking about putting caps on it, 
they started talking about, can we add more limestone, which 
would cost less to produce, less energy and would have the same 
strength. In an earthquake State, that is important.
    Again, there is money to be made, there are jobs to be 
created. I think why most Californians understand that this is 
a valuable exercise, and beyond the environment, is that we 
have lost our defense base, we have lost our manufacturing 
base. These are the technologies that are going to create the 
new wave of jobs. We will develop something in California that 
at the time India and China decide that they are no longer 
going to choke on their air, we will be able to clean it for 
them.
    Senator Boxer. I think that is such an important point. 
This is such a plus. It is not gloom and doom and beetles and 
cutting down trees. It is avoidance of those things.
    Senator Voinovich.
    Senator Voinovich. Thank you. I just couldn't help but 
think, looking at all of you here, that I was before this 
committee as a member of the State legislature in Ohio, was the 
father of the Environmental Protection Agency and came down 
here and testified. As Mayor of the city of Cleveland, I was 
here testifying before this committee. I was here before this 
committee as Governor of Ohio. This is my 40th year in this 
business.
    I would like you to know that for the last 8 years, we have 
been trying to come up with some kind of compromise to deal 
with NOx, SOx, mercury and greenhouse gases. The problem has 
been, we have never been able to get any agreement on the 
greenhouse gases, because there is such a difference of opinion 
in terms of the science and so on. As a result of that, we 
really have not done a good enough job on NOx, SOx and mercury. 
So we are at the stage where we are probably going to continue 
to do nothing for the next couple of years, because of a lot of 
a difference of opinion.
    But one of the things that has come out here today, and 
Mayor Homrighausen, thank you for being here. I know you had a 
real health problem, thank you for being here. He has been here 
two or three times to testify. What I would like to do is to 
challenge each of you, I was very active in an NGA, and we had 
the Big Seven. We had the National Council of State 
Legislators. They have committees that deal with the 
environment. You are in charge at the U.S. Conference of Mayors 
in terms of their committee. In fact, when I thought of you, I 
thought of Charlie Royer, I don't know if you know Charlie or 
not.
    Mayor Nickels. Saw him night before last.
    Senator Voinovich. Really? If you see him again, say hello 
to him for me. Great, great guy.
    And then we have the National Governors. Madam Chairman, I 
think it would be really good if we would convene, we call it 
the Big Seven, to come together to talk about this issue, to 
see if we can get some consensus out there among State and 
local government organizations and come here to Congress with 
some reasonable proposal. Cap and trade has always been kind of 
a no, no, no. But I think that if done properly and with the 
right timing, it might be something that we could get done.
    But if you could get together and agree to something, 
representing, I gave you the statistics, I mean, it is 
different. California has hardly any coal, and Mayor, we have 
about 90 percent coal. It falls all over the Country 
differently.
    But the point that Mr. Nunez made, we are not looking to 
delay anything. I believe that we need to get going full blast 
to deal with this. But the real issue here is this whole issue 
of technology. It is the thing that is holding us back. What we 
need to do is get that technology, make it work here in the 
United States and then deal with what is going on around the 
world. Because a lot of those plants are going to be built 
without dealing with greenhouse gases. How do you put something 
on them that does deal with the greenhouse gases?
    So the only question I have is that, what do you think 
about the idea of all of you getting together and trying to 
come up with some policy that you can come up here and lobby us 
in terms of, this is what we want to do? You have taken the 
leadership, the States have, the cities have. You have done a 
great job. You have actually done more than we have done, a lot 
more. What do you think of that?
    Mr. Perata. I am up for it.
    Mr. Nunez. I certainly think that you have some great minds 
here in the Congress as well. I do believe that ultimately, 
there is a saying that says something like necessity is the 
mother of invention. I believe that until and unless you create 
a market through real specified mechanisms that require a 
reduction in our carbon footprint that the time with which the 
new technologies, for example, coal, I hear a lot of discussion 
about coal, coal gasification and other alternative ways to 
make our air cleaner and not depend upon the antiquated forms 
of energy that we continue to use. Until and unless we have a 
real necessity and an urgency to produce them, then those 
technologies will not come. I think we have to create them.
    Senator Voinovich. Let me say this. Senator Clinton talked 
about a Manhattan project. In other words, I think we are at 
that stage right now. If we are going to get a cap, reasonable 
cap and trade program, you have to have the prospect that we 
have the technology out there to really do a job with 
greenhouse gases. I think we have a role to play. I think if we 
wait for the market to do this, it is not going to happen. By 
the way, we don't have time to wait. There are people saying, 
well, put the caps on, and then all of a sudden, this is going 
to sprout. I think that it hasn't. I think we need to, we have 
a role in the Federal Government to get on this thing now.
    Mr. Perata. Senator, if I might, there are some great 
things going on in our State. We would love to have you come. 
We just got a $500 million grant from British Petroleum for the 
UC Campus at Berkeley to do renewable energy research. There 
are many things going on. It might be just the thing you need 
is a little time in California and we will show you some of the 
things that are happening. It is very stimulating. It really 
is.
    Mayor Cownie. Senator, I think that one thing you might do 
immediately that the Conference of Mayors has worked on is that 
energy and environmental block grant that is kind of patterned 
after the CDBG. My problems in Des Moines are different than 
they are in Seattle.
    Senator Voinovich. By the way, you had better lobby for 
CDBG, because they are going to try and knock it out again.
    [Laughter.]
    Mayor Cownie. As soon as we leave this meeting, we will 
head right over----
    [Laughter.]
    Mayor Cownie. But I think that whether it is Honolulu or it 
is New Orleans or Seattle or Des Moines, or any place across 
this Country, we all have different needs. Certainly we need to 
do baseline studies, we need to know what our emissions are, 
where they came from. Then we can put a plan together to try to 
reduce them.
    But there are things people can do every single day in 
their lives, and I think we need to empower them to do that and 
educate them. That is something else that we can do also with 
these dollars. Let local governments decide and State 
governments how they are going to use it and where it is needed 
in their particular localities.
    Senator Boxer. Mayor Nickels, you have the last word, and 
then we are going to go to Senator Cardin, who has been so 
patient. He hasn't even had round one yet.
    Mayor Nickels. And Senator Mayor, I think the U.S. 
Conference of Mayors would be very excited to engage in that 
kind of a process. We have sensed this year a real climate of 
change here on this issue, both here in the Senate and on the 
House side. We think that is very encouraging and we would like 
to participate in moving this issue forward, not next Congress 
or the Congress after, but this Congress.
    Senator Boxer. Thank you. Senator Cardin, you have been so 
patient. Please go ahead.
    Senator Cardin. Thank you, Madam Chair. I wanted to listen 
to our colleagues from State and local government, because I 
think we can learn a lot from the initiatives that have taken 
place. I believe in federalism, and I think it is very 
important.
    In order to get in two rounds, I am going to ask that my 
opening statement be included in the record.
    Senator Boxer. Absolutely, yes.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    Madam Chair, thank you for holding this hearing today. Justice 
Louis Brandeis famously said that ``States are the laboratories of 
democracy.'' This hearing certainly attests to the truth of that 
dictum. The regional, state, and local initiatives to slow, stop, and 
ultimately reverse the growth of greenhouse gas (GHG) emissions that we 
will hear about today are truly significant.
    Consider California: if it were its own country, it would have the 
world's 8th largest economy. So when Californians set out to reduce 
their GHG emissions by 80 percent below 1990 levels over the next 
several decades, we shouldn't underestimate the impact that will have 
in fighting global warming.
    I applaud the witnesses here today who are taking the lead in 
fighting global warming on behalf of their states, cities, and 
communities.
    What's disheartening about today's hearing is that these officials 
feel compelled to act in large part because the Federal Government is 
abdicating its responsibility. As important as all of these regional, 
state, and local actions are, we still need leadership from President 
Bush and from Congress.
    We have heard from the scientists. The most recent 
Intergovernmental Panel on Climate Change (IPCC) makes it clear that 
global warming is happening and the causes are largely anthropogenic.
    We have heard from enlightened business leaders who formed the 
Climate Action Partnership to advocate national strategies for fighting 
global warming.
    I appreciate the fact that private sector and state and local 
public sector leaders are stepping in to fill the breach created by the 
current administration's inaction on the most pressing environmental 
issue of our generation. But the fact is, we need national leadership. 
And we need it right away.
    I'm proud of what Maryland is doing to fight global warming. 
Several cities, including Baltimore, Annapolis, Rockville, and 
Gaithersburg, are participating in the U.S. Mayors Climate Protection 
Agreement, which commits them to voluntarily implement Kyoto agreement 
within their municipalities.
    Later this year, Maryland will become a full partner in the 
Regional Greenhouse Gas Initiative (RGGI). ``REGGIE,'' as it is known, 
is a cooperative effort by several Northeastern and Mid-Atlantic States 
to reduce carbon dioxide (CO<INF>2</INF>) emissions from powerplants by 
stabilizing CO<INF>2</INF> emissions at current levels from 2009 to 
2015, and then cutting them 10 percent by 2019.
    Maryland is particularly vulnerable to the effects of global 
warming. Tide gauge records for the last century show that the rate of 
sea level rise in Maryland is nearly twice the global average. Studies 
indicate that this rate is accelerating and may increase to 2 or 3 feet 
along Maryland's shores by the year 2100.
    More than 12 percent of the State's land is designated under the 
National Flood Insurance Program as a Special Flood Hazard Area. An 
estimated 68,000 homes and buildings are located within the floodplain, 
representing nearly $8 billion in assessed value. Allstate Insurance, 
one of our largest insurers, recently announced that it will stop 
writing new homeowners' policies in coastal areas of the State, citing 
concerns that a warmer Atlantic Ocean will lead to more and stronger 
hurricanes hitting the Northeast.
    About a third of the marshes at Blackwater Wildlife Refuge on 
Maryland's Eastern Shore have been lost to sea level rise over the past 
70 years. Smith Island, the only inhabited island community in Maryland 
and the subject of a recent documentary on global warming, has lost 30 
percent of its land mass to sea level rise since 1850.
    According to 2005 report of the Maryland Emergency Management 
Agency, Maryland is the 3rd most vulnerable state to flooding and has 
the 5th longest evacuation times during a tropical storm or hurricane 
event.
    So we don't have a choice. We need to do everything possible to 
curb global warming and rising sea levels. But we can't do it alone. 
The Federal Government has to join us in this effort.
    Thank you, Madam Chair.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Cardin. Speaker Nunez, I held your position in the 
Maryland legislature when we initiated the Chesapeake Bay 
program, worked first with the entities in Maryland, then our 
surrounding States, and then ultimately came to the Federal 
Government as a partner. I think we made great progress, 
because we tested the issues at the State level, the local 
level then the regional levels before coming to Washington. I 
think you are doing the same thing with the laws that you are 
passing.
    The California law is now being looked at in the Maryland 
legislature. I expect the Maryland legislature is going to pass 
a bill very similar to your initiative. That is what federalism 
should be all about. Mayor Nickels, seven of our 
municipalities, a part of your initiative, including Baltimore 
City. So we are working together, trying to come up with a 
proposal that will reflect what we need in this Country.
    I respect the different views that have been expressed by 
this panel. There are different views as to what we need to do 
as far as our environment is concerned. But I don't believe 
there is any disagreement that we need to become energy 
independent. We need to do that for many reasons. I think 
everyone on this panel would agree that for national security, 
we don't want to continue to give money to entities that are 
very much against our national security interest. Every time we 
fill up our tank, we are helping to support extremists who 
disagree with our way of life.
    I don't think there is any disagreement here about the 
economic impact, about becoming energy independent, so we don't 
have to worry about OPEC countries changing the price of oil 
affecting our economy. I would think we would also acknowledge 
that becoming energy independent will be much friendlier to our 
environment, something that we all have sensitivity to.
    So I would hope that we would frame this debate, rather 
than as Senator Voinovich has pointed out, there are different 
views here in Congress and our ability to pass legislation this 
year is very much compromised by that. But I don't think we can 
wait. States and local governments have done their job and they 
are continuing to do that. But there is a need for Federal 
action here. There is a need for leadership at the national 
level. We have a lot from what has been done at the State and 
local governments. We need, for the sake of our security, 
economy and environment, we need to move forward.
    I would hope that we would follow some of the 
recommendations that we have heard from our States. They have 
tested these programs, they know what works, they know the 
economic impact. They know how businesses have been able to 
respond and deal with the challenges of caps and the other 
issues. We have that information, thanks to the good work done 
by your States and your municipalities.
    I think it is now incumbent upon us to take a look at that 
and develop some national leadership, so that we can work in 
stronger partnership with the work that has been done here. 
Madam Chair, I thank you for taking us down this path. I have 
found this hearing to be extremely helpful. I just want to 
thank all the panelists for being patient and presenting your 
information. This will not be the last time that we are going 
to call upon you to help us as we wrestle with a national 
policy that I think will be good, not just for our environment, 
which we need to deal with, Madam Chair, I agree with you, we 
need to deal with our environmental risks of global warming. 
But it is also important for our national security and for our 
economic interests. I think all of us should be able to come 
together with the programs so the Federal Government has a more 
aggressive partnership in this effort. Thank you, Madam Chair.
    Senator Boxer. Thank you so much.
    Senator Sanders.
    Senator Sanders. Thank you, Madam Chair. This has been a 
fascinating and important hearing. We are one Country with 
States that have very different needs. While I disagree with 
our friends from the coal and oil producing States, I 
understand what you are talking about. Your economies are 
dependent upon that type of production, you are part of an 
America that has to be understood as we move, I believe, in a 
new direction, in the same way that I hope you understand the 
needs of Vermont, in a State where the weather gets 20 or 30 
below zero, and we all have our needs and we work together.
    It seems to me, in listening to the testimony, that what 
they call the lowest hanging fruit seems to be energy 
efficiency. I would like to hear some discussion from our local 
and State officials about what they are doing in terms of light 
bulbs, for example. In Australia, they are literally talking 
about banning incandescent light bulbs. The compact 
fluorescents are far more energy efficient. I want to hear what 
some of your cities and States are doing. I want to hear what 
you are doing in terms of moving your own transportation 
systems away from cars that get bad mileage, the hybrids, how 
far you have gone in that direction.
    I know in Burlington, when I was Mayor, we passed the bond 
issue. The result is that despite a lot of growth in 
Burlington, we are consuming less electricity today than we did 
20 years ago.
    So let's talk about it, let's start with California. The 
other question for my friend in California, who killed the 
electric car and what can we do about that?
    [Laughter.]
    Senator Sanders. Mr. Nunez, can you start on that one?
    Mr. Nunez. Sure, I will start. Senator Clinton alluded to 
that 30-year timeframe, in which California, in terms of our 
per capita consumption, has been flat while the rest of the 
Country has actually gone up 50 percent. That is true because 
of the laws that we have passed over the years in California, 
both in the area of the protection of the environment, but also 
in conservation. In the last 6 years, a lot of has been done 
also in terms of transportation and emission standards, which 
now in California, you know, we drive somewhere in the 
neighborhood of 20 to 30 percent of the hybrid vehicles.
    Senator Sanders. Is the electric car still being discussed?
    Mr. Nunez. It is being discussed, but there were some 
problems in terms of how efficient it was to move people from 
point A to point B. But I think there is no question that with 
the new technologies that are coming to bear, there certainly 
is the opportunity for electrical vehicle to once again make 
their way back into the California market.
    Senator Sanders. OK, let me ask anybody who wants to 
respond, just something as simple as light bulbs. I know 
Senator Boxer has been talking about that for the Federal 
Government, just moving away from incandescent light bulbs. 
What your cities or States been doing? Mayor Nickels, do you 
want to say a word on that?
    Mayor Nickels. Thank you, Madam Chair and Senator. Our 
electric utility, which is owned by the city, recently gave 
away 13,000 of the compact fluorescent bulbs.
    Senator Sanders. Let me ask you a question, and Madam 
Chair, I am wondering what we could do at the Federal level. 
There have been some indications that if we literally gave 
away, gave away compact fluorescent light bulbs, we end up 
saving money. Is that what you are saying, Mayor Nickels?
    Mayor Nickels. They are many times more efficient, and 
while the initial cost is higher, they last many times longer. 
The payback is remarkably short.
    Senator Sanders. So do you see a potential in encouraging 
them?
    Mayor Nickels. Yes. In Seattle, we decided we would lead by 
example. So we reduced the city government's emissions first by 
60 percent from 1990 levels. We did that by converting to many 
hybrid vehicles, we have converted our diesel to biodiesel. In 
fact, in my neighborhood, the local Safeway, which is the 
largest grocery chain, opened up a biodiesel pump at their 
station, first one in the Country in the Safeway chain. They 
are buying the biodiesel from a company in Iowa.
    We have traded in the beloved mayoral Town Car for a 
hybrid, a tough decision, but one I thought was important. We 
are striving to become the green building capital of America, 
so that the architects and engineers and suppliers in Seattle 
have a chance to create jobs in those industries that we can 
export the services and products elsewhere in the Country and 
the world.
    Senator Sanders. Mayor Cownie.
    Mayor Cownie. We are doing many of the same things that 
Mayor Nickels is doing. Additionally, when we go out and meet 
with citizens, and I talk about empowering citizens, they all 
were sitting around, tell us what to do, tell us what to do. So 
we have a Just-Do-One-Thing program that we are doing, and we 
give them a little bag, when we go to these town hall meetings, 
and we put a compact fluorescent in there. We tell them it 
takes 18 seconds to go switch out an old one, put in a new one. 
We give them a whole list of other things that they can do in 
their households each day to make a difference.
    Senator Sanders. That is great. My time has run out, Madam 
Chair, but I would also say that one of the areas we want to 
look at as we move away from incandescent to compact 
fluorescents, is we don't manufacture those bulbs, I don't 
believe, in the United States of America. If we are talking 
about getting millions of people to use those bulbs, we could 
make some money if one of these companies would start producing 
these things in one of our towns.
    Thank you very much.
    Senator Boxer. You are so right about that. Every single 
one of those bulbs, because believe me, I did a survey, made in 
China. The irony of all this. Basically with China saying, we 
are not ready to do anything. But they are making these light 
bulbs.
    Anyway, let me thank everyone so much. As my colleagues 
said, this has been a very long hearing for good reason. 
Because all of you are very provocative in what you said, and I 
thought Governor Corzine was as well. Colleagues are so 
interested, and it makes me so happy as a committee chair. It 
is like, what if you called a meeting and nobody came.
    [Laughter.]
    Senator Boxer. As you know, as Speaker, that does happen 
now and then. Here it is just a lot of attendance and it makes 
me really feel good. We even went to New Orleans on Monday for 
a field hearing and we had seven Senators there. So that was 
wonderful.
    OK, so in closing this, I get a chance to say the last 
word, which is always hard for people who don't agree with me. 
But let me just say, on the question of whether global warming 
is occurring, it always sort of breaks my heart when people say 
the science is confused and so on. I would love to share with 
those of you who are skeptics the latest scientific reports and 
the bona fides of the people who have signed onto these 
documents. Because it is one thing to keep saying there is no 
consensus. I am sure there were always those who said, the 
earth is flat. There are still people who say HIV doesn't cause 
AIDS. There are even people who say there is no link between 
tobacco and cancer. You always have a few.
    But the preponderance of the evidence on global warming is 
in. I just hate to see us waste time on it. I think the 
legitimate things that the antis said today are very important 
for us to hear, that please be mindful in a coal State, that if 
you move forward, we have to ease the burden on the consumers. 
Absolutely. I think that Senator Voinovich's call and Senator 
Clinton's and my own feelings on clean coal and a Manhattan-
like project to find truly clean coal, those things are 
necessary. The technology piece has to go along with everything 
else we are doing.
    But I do agree with Speaker Nunez when he says that, if you 
are clear about the caps, then somehow the smart money will 
follow. We already see it happening with the biggest 
corporations coming forward and supporting us as we strive to 
find some common ground to become partners with those of you 
who have taken action. I think that is what I want to be, is a 
partner. I want to do things that enhance what you are doing 
and that allow you to still keep on going, because you are the 
laboratories in the best sense of the word.
    So in closing, I think we could put our hands over our eyes 
and then over our ears and our mouths and just say, we are not 
going to pay attention to this. Believe me, it is a lot easier. 
But the greatest generation, what they did for us, our grandpas 
and our great-grandpas, they did it for their great-grandkids 
that they may never see. We have this challenge. It is not as 
immediately life-threatening, obviously, as what they faced. 
But it is life-threatening to the future.
    So we can't just hide behind feel-good statements here. We 
have to get down and do it. I am, as I said in the beginning, 
an optimist. I am filled with hope. This is the greatest 
country on the face of the earth, Mr. Harvey, I totally agree. 
That is why we are up for this challenge. We can do this in the 
right way. I am so proud of my State, and Mayor Nickels, of 
what you have done, Mayor Cownie. All of you who are grappling 
with this on the ground, I used to be a county supervisor. I 
know the buck stops right there. They have your phone number, 
they meet you in the street. It is hard either way, and we have 
to have answers.
    So let's work together. I think that's the key. Let's not 
have these great divides, because time is clicking and it is 
not our friend.
    Thank you very much, and this hearing has come to a close. 
Thank you all.
    [Whereupon, at 1 o'clock p.m., the committee was 
adjourned.]
    [Additional statement submitted for the record follows.]
     Statement of Hon. Joseph I. Lieberman, U.S. Senator from the 
                          State of Connecticut
    Thank you, Madam Chairwoman. And thank you for keeping the 
attention of this committee focused squarely on the supremely important 
need to curb global warming.
    Many of us here in Congress have been aware for some time that, 
when it comes to global warming, state and local governments have been 
filling the vacuum left by federal inaction. It was only in preparing 
for this hearing, however, that I had an opportunity to learn just how 
many state and local governments have taken strong steps already. 
Fourteen states have actually set state-wide targets for reducing 
greenhouse gas emissions. Twenty-nine states have completed climate 
action plans. Thirty-one states are involved already in regional 
greenhouse gas reduction initiatives. I am not sure whether the various 
members of Congress who still oppose federal legislation to mandate 
greenhouse gas reductions realize how many of their constituent 
businesses are already subject to such mandates. All of the businesses 
I talk to prefer, for several reasons, a uniform national system to a 
patchwork of state and regional ones. I would think the same would be 
true of many large employers in my colleagues' states.
    Of course, creating political pressure for a comprehensive national 
strategy is by no means the only virtue of these local, state, and 
regional initiatives. For one thing, the non-federal initiatives are 
reducing greenhouse gases right now. For another, they are doing 
invaluable design and testing work--dealing with emissions registries, 
monitoring and compliance programs, trading markets, and offsets--that 
will inform the inevitable federal system. The comprehensive national 
system that I believe Congress will soon enact will be more effective, 
more efficient, and more durable because of the ingenious and 
courageous work that is being done today at the local, state, and 
regional levels.
    I cannot discuss genius and courage on the issue of global warming 
without mentioning Connecticut. I am extremely proud to represent a 
state that has always been, and continues to be, a national leader on 
policies to reduce greenhouse gas emissions. Connecticut is a founding 
member of the Regional Greenhouse Gas Initiative for powerplants. In 
2004, the state passed laws and issued executive orders to reduce 
greenhouse gas emissions across all major sectors of the state's 
economy. For example, those laws adopt California's automobile 
emissions standards, set efficiency standards for products and 
appliances, require greenhouse gas emissions reporting, and mandate a 
plan to reduce statewide greenhouse gas emissions to 1990 levels by 
2010 and to 10 percent below 1990 levels by 2020. In early 2005, 
Governor Rell's administration submitted the plan to the Connecticut 
General Assembly. That document, encompassing 55 separate initiatives, 
represents one of the most, if not the most, comprehensive, economy-
wide state plans for curbing global warming pollution. Many of the 
initiatives comprising Connecticut's plan are now in place and reducing 
emissions.
    Madame Chairwoman, I could not resist the temptation to brag a bit 
about Connecticut's enormously productive efforts in this area. I 
appreciate my colleagues' patience. I am just extremely proud of my 
constituents and Connecticut's government.
    Thank you, Madame Chairwoman.
  

                                  <all>

</pre></body></html>
